   U.S. SECURITIES AND EXCHANGE COMMISSION


 OFFICE OF INSPECTOR GENERAL


SEMIANNUAL REPORT TO CONGRESS
   October 1, 2010 - March 31, 2011
                        Organizational Chart                Office of Inspector General



                                                  Inspector General




                                                       Deputy
                                                  Inspector General


      Counsel to the
    Inspector General
                                                 Assistant Inspector
                                                                                  Assistant Inspector
                                                     General for




2
                                                                                  General for Audits
                             Investigative
                                                   Investigations
        Paralegal
                               Specialist

                                                Senior             Senior       Audit            Audit
                                             Investigator       Investigator   Manager          Manager
                               Inquiry
        Assistant to          Specialist
       the Inspector
          General                               Senior             Senior       Audit            Audit
                                             Investigator       Investigator   Manager          Manager
                                Legal
                              Specialist
      Administrative
         Ofﬁcer                                                                 Audit            Audit
                                             Investigator       Investigator
                                                                               Manager          Manager

                                                                                                 Audit
                                                                                Editor
                                                                                                Assistant
October 1, 2010 - March 31, 2011

                                                                    OFFICE OF
                                                                    INSPECTOR
                                         U.S. Securities
                                         and Exchange               GENERAL
                                          Commission
                                                                    SEMIANNUAL
                                                                    REPORT TO
                                                                    CONGRESS
                                    MISSION
                                        The mission of the Ofﬁce of Inspector General (OIG) is to promote the integrity, efﬁciency,
                                    and effectiveness of the critical programs and operations of the United States Securities and Ex-
                                    change Commission (SEC or Commission).  This mission is best achieved by having an effective,
                                    vigorous, and independent ofﬁce of seasoned and talented professionals who perform the follow-
                                    ing functions:  

                                    •     Conducting independent and objec-               •	   Offering expert assistance to improve SEC
                                           tive audits, evaluations, investigations,            programs and operations;
                                           and other reviews of SEC programs
                                           and operations;                                 •	   Communicating timely and useful infor-
                                                                                                mation that facilitates management deci-
                                    •	    Preventing and detecting fraud, waste,                sion making and the achievement of
                                          abuse, and mismanagement in SEC pro-                  measurable gains; and
                                          grams and operations;
                                                                                           •	   Keeping the Commission and the Con-
                                    •	    Identifying vulnerabilities in SEC systems            gress fully and currently informed of sig-
                                          and operations and recommending con-                  niﬁcant issues and developments.
                                          structive solutions;




                                                                                       3
4
U.S. Securities and Exchange Commission


                                                                                   SEMIANNUAL
                                                  Ofﬁce of
                                                                                   REPORT TO
                                                 Inspector
                                                  General                          CONGRESS
                                           CONTENTS
                                           MESSAGE FROM THE INSPECTOR GENERAL..............................................................
                                                                                                                                          1


                                           MANAGEMENT AND ADMINISTRATION........................................................................3

                                                Agency Overview....................................................................................................................3

                                                OIG Staffing............................................................................................................................3


                                           CONGRESSIONAL TESTIMONY, REQUESTS, AND BRIEFINGS...................................5

                                                Inspector General Testimony and Related Follow-Up Activities 	................................................
5

                                                Other Requests and Briefings 	.................................................................................................
9

                                           ADVICE AND ASSISTANCE PROVIDED TO THE AGENCY AND THE GOVERNMENT 

                                           ACCOUNTABILITY OFFICE...........................................................................................11


                                           OIG SEC EMPLOYEE SUGGESTION HOTLINE............................................................15

                                                Examples of Suggestions Received	......................................................................................
17
                                                   Office Real Estate Leases 	...............................................................................................17

                                                   SEC Website and EDGAR Database...............................................................................17

                                                   Receipt of Electronic Documents....................................................................................17

                                                   Notification of Operating Status 	......................................................................................
18
                                                   Referral to Audit Unit.......................................................................................................
                                                                                                                                                                               18

                                                Examples of Allegations Received.........................................................................................18

                                                   Inappropriate Involvement in Employee’s Time and Attendance......................................18

                                                   Referrals to Investigations Unit	........................................................................................
19

                                           COORDINATION WITH OTHER OFFICES OF INSPECTOR GENERAL 	........................
21


                                           AUDITS AND EVALUATIONS	.........................................................................................
23

                                                Overview	...............................................................................................................................
23





                                                                                                           5
        Audits	.............................................................................................................................
23

        Evaluations 	.....................................................................................................................
24

        Audit Follow-up and Resolution	......................................................................................
24
     Audits and Evaluations Conducted	.......................................................................................24

        SEC’s Oversight of the Securities Investor Protection 

         Corporation’s Activities (Report No. 495)......................................................................24

                                                                                                                                            

        The SEC’s Implementation of and Compliance with Homeland 

        	 Security Presidential Directive 12 (HSPD-12) (Report No. 481)	.....................................
28

        OCIE Regional Offices’ Referrals to Enforcement (Report No. 493).................................32

        Audit of the SEC Budget Execution Cycle (Report No. 488)	............................................
34

        Review of Time-And-Materials and Labor-Hour Contracts (Report No. 487)	....................
37

        2010 Annual FISMA Executive Summary Report (Report No. 489) 	..................................
40

     Pending Audits and Evaluations 	............................................................................................
42

        Oversight of and Compliance with Conditions and Representations 

        	 Related to Exemptive Orders and No-Action Letters 	....................................................
42

        Audit of Alternative Work Arrangements, Overtime Compensation, and 

        	 the COOP Program at the SEC	....................................................................................
42

        Audit of the SEC’s Employee Recognition Program and Retention, 

        	 Relocation, and Recruitment Incentives 	.......................................................................
43

        2010 Federal Information Security Management Act Assessments 	.................................
43

INVESTIGATIONS 	..........................................................................................................
45

     Overview	...............................................................................................................................
45

     Investigations and Inquiries Conducted	.................................................................................
46

         Investigation of Failure of an SEC Regional Office to Uncover Fraud 

         	 and Inappropriate Conduct on the Part of a 

         	 Senior-Level Official (Report No. OIG-533)	...................................................................
46

         Investigation of Whether a Former Senior Official Violated Conflict-of-Interest 

         	 Restrictions in Connection With Employment at a Trading Firm 

         	 (Report No. OIG-540)	..................................................................................................
50

         Improprieties in the Selection and Award of a Sole-Source 

         	 Contract (Report No. OIG-523)	....................................................................................
51

         Abusive and Intimidating Behavior Within a Headquarters Branch 

         	 (Report No. OIG-537)	..................................................................................................
53

         Abuse of Compensatory Time for Travel by a Headquarters Manager and 

         	 Ineffective Supervision by Management (Report No. OIG-538) 	.....................................
54

         Investigation Concerning the Role of Political Appointees in the 

         	 Freedom of Information Act Process (Report No. OIG-543) 	.........................................
55

         Unauthorized and Improper Disclosure by a Regional Office 

         	 Staff Attorney (Report No. OIG-550)	............................................................................
56

         Improper Access to SEC Facilities and Computer Systems (Report No. OIG-544) 	..........
56

         Unauthorized Disclosure of Nonpublic Information During an 

         	 Active SEC Investigation (Report No. OIG-558) 	............................................................
58

         Improper Comments by a Regional Office Senior Counsel and 

         	 Alleged Abuse of Leave by a Regional Office Senior Counsel and 

         	 Senior Official (Report No. OIG-545)	............................................................................
59

         Allegation of Negligence in the Conduct of an Enforcement 

         	 Investigation (Report No. OIG-510) 	..............................................................................
59

                                                                   6
        Allegations of Unauthorized Disclosure of Nonpublic Information 

        	 (Report Nos. OIG-542, OIG-551, and OIG-552) 	...........................................................
60

        Allegation of Illegal and Unauthorized Disclosure of Employment 

        	 Status by Regional Office Senior Official (Report No. OIG-549) 	....................................
61

        Theft by a Headquarters Contractor (Report No. OIG-548) 	.............................................
62

        Investigation into Unauthorized Disclosure of Nonpublic 

        	 Information (Report No. OIG-546)	................................................................................
62

        Misuse of Computer Resources and Official Time to 

        	 View Pornography (Report No. OIG-547 and PIs 11-05, 11-06, and 11-07) 	................
63

        Other Inquiries Conducted	..............................................................................................
65

            Failure to Submit a Conflict-of-Interest Letter by Former 

            	 Regional Office Senior Official (PI 10-38) 	..................................................................
65

            Falsification of Time and Attendance Records, Abuse of 

            	 Telework and Lack of Supervisory Review (PI 10-05)	...............................................
66

            Improper Travel Expenditures and Lack of 

            	 Supervisory Review (PI 09-113) 	...............................................................................
66

            Disclosure of Nonpublic Personnel Information and 

            	 Lack of Candor at Headquarters (PI 11-18) 	.............................................................
67

            Allegation of Misappropriation of Funds from the SEC Recreation 

            	 and Welfare Association (PI 10-50) 	..........................................................................
68

            Inappropriate Use of a Commission Database by a 

            	 Headquarters Attorney (PI 10-62) 	............................................................................
69

            Allegation of Conflicts of Interest by Former Regional Office 

            	 Senior Attorney (PI 10-53)	........................................................................................
69

            Complaint of Conflict of Interest in the Awarding of Contracts (PI 09-97)	...................
70

            Allegations of Improper Relationship Between a Headquarters 

            	 Senior Manager and an SEC Contractor (PI 10-33) 	..................................................
70

            Complaints Regarding Procurement Violations (PI 09-02) 	..........................................
71

    Indictment Arising out of Previous OIG Investigation	..............................................................
71

    Pending Investigations 	..........................................................................................................
72

        Allegations of Conflict of Interest by Former Senior Official (Case No. OIG-560) 	..............
72

        Allegation of Improprieties in the SEC’s Leasing Activities (Case No. OIG-553)................72

        Complaint of Investigative Misconduct by Various 

            	 Enforcement Attorneys (Case No. OIG-511)	............................................................
73

        Allegation of Improper Preferential Treatment (Case No. OIG-559) 	..................................
73

        Allegation of Failure to Investigate at a Regional Office (Case No. OIG-554) 	....................
74

        Allegation of Improper Preferential Treatment and Failure to 

            	Investigate Alleged Obstruction of SEC Investigation at 

            	 Regional Office (Case No. OIG-536) 	.........................................................................
74

        Allegation of Unauthorized Disclosures (Case No. OIG-555)	............................................
74

        Allegation of Procurement Violations (Case No. OIG-556)	...............................................
74

        Complaint of Mismanagement and Inappropriate Use of 

            	 Government Funds (Case No. OIG-557) 	..................................................................
75

REVIEW OF LEGISLATION AND REGULATIONS	..........................................................
77


STATUS OF RECOMMENDATIONS WITH NO MANAGEMENT DECISIONS 	................
79



                                                             7
REVISED MANAGEMENT DECISIONS	.........................................................................
79


AGREEMENT WITH SIGNIFICANT MANAGEMENT DECISIONS 	.................................
79


INSTANCES WHERE INFORMATION WAS REFUSED	..................................................
79


TABLES	
     1	    List of Reports: Audits and Evaluations	...........................................................
81

     2	    Reports Issued with Costs Questioned or Funds Put to Better Use 

     		     (Including Disallowed Costs)
                                       	 ...........................................................................

                                          .                                                                         83

     3	    Reports with Recommendations on Which Corrective Action 

     		    Has Not Been Completed	...............................................................................
85

     4	    Summary of Investigative Activity 	.....................................................................
95

     5	    Summary of Complaint Activity 	........................................................................
97

     6	    References to Reporting Requirements of the Inspector General Act 	...............
99


Appendix A: 	Peer Reviews of OIG Operations	............................................................
101


Appendix B:	 Testimony of H. David Kotz, Inspector General of 

	 	          the Securities and Exchange Commission, Before the 

	 	          Subcommittee on Financial Services and General Government, 

	 	          Committee on Appropriations, U.S. House of Representatives	.............
103




                                                    8
                        Message from the
                        Inspector General
                        I am pleased to present this Semiannual Report to Congress on the activities
                        and accomplishments of the United States (U.S.) Securities and Exchange
                        Commission (SEC or Commission) Ofﬁce of Inspector General (OIG) for
                        the period of October 1, 2010 through March 31, 2011. This report is re-
                        quired by the Inspector General Act of 1978, as amended, and covers the
                        work performed by the OIG during the period indicated.

    The audits, evaluations, and investigations described in this report illustrate the commitment of
the SEC OIG to promote efﬁciency and effectiveness in the SEC, as well as the crucial effect and
impact that the SEC OIG has had upon SEC operations.

    During this reporting period, we issued several signiﬁcant audit reports on matters critical to the
SEC’s programs and operations. We conducted a review of the SEC’s oversight of the Securities
Investor Protection Corporation’s (SIPC) activities. While we found that the SEC’s oversight of
SIPC was generally in compliance with the pertinent statute, the Securities Investor Protection Act
(SIPA), our audit determined that signiﬁcant improvements could be made to enhance the process of
the SEC’s monitoring of SIPC. Speciﬁcally, the audit found that the SEC does not inspect SIPC’s
activities in any systematic fashion and last performed a full inspection of SIPC in 2003. We also
found that the SEC lacked adequate written procedures and policies for its oversight of SIPC. We
made 12 recommendations to the agency, which when fully implemented, will enhance the SEC’s
monitoring of SIPC and further ensure that the investing public is afforded adequate protection
against losses caused by the failure of broker-dealers.

    We also completed an audit of the SEC’s implementation of and compliance with Homeland
Security Presidential Directive (HSPD) 12. This Directive was signed by President George W. Bush
in August 2004 and required federal agencies to have programs in place to ensure that identiﬁcation
issued to federal employees and contractors meets a common standard. Our audit found deﬁciencies
in nearly every aspect of the SEC’s HSPD-12 program, and we determined that the SEC missed vir-
tually all of the deadlines established by Ofﬁce of Management and Budget (OMB) guidance for
implementation of HSPD-12. Our audit included 25 concrete and speciﬁc recommendations to im-
prove the SEC’s HSPD-12 program. SEC management concurred with all of these recommenda-
tions and has already partially implemented several of them. Additionally, we completed several
other audits during the semiannual reporting period, including a review of the processes by which
the Ofﬁce of Compliance Inspections and Examinations (OCIE) refers potential violations of the
federal securities laws to the Division of Enforcement in the SEC’s regional ofﬁces, an audit of the
SEC’s budget execution cycle, a review of certain time-and-materials and labor-hour contracts, and
a review of the SEC’s compliance with the Federal Information Security Management Act (FISMA).

   We also had a particularly productive semiannual reporting period for investigations. With only
ﬁve investigators, we completed approximately 20 investigations on a myriad of complex and signiﬁ-
cant issues, including the failure to uncover a $554 million Ponzi scheme, improprieties in the SEC’s
Ofﬁce of Information Technology’s (OIT) acquisition of approximately $1 million of computer
equipment, the alleged violation of post-employment restrictions, the role of political appointees in



                                                     1

the Freedom of Information Act (FOIA) process, abusive and intimidating conduct in the work-
place, dissemination of false and misleading information regarding an active SEC enforcement
investigation, unauthorized disclosures of nonpublic information, theft of funds, misuse of com-
puter resources, and abuse of compensatory time for travel. We are also actively working on and
ﬁnalizing several additional investigations, including an investigation of the facts and circum-
stances surrounding the SEC former General Counsel’s involvement in activities relating to the
Bernard L. Madoff Ponzi scheme in light of a lawsuit brought against him and his brothers by
the trustee appointed in the Madoff liquidation under SIPA for the return of approximately $1.5
million in ﬁctitious proﬁts received from the Ponzi scheme, and an investigation into allegations
that the agency’s leasing activities and related procurements at the Constitution Center and Sta-
tion Place III sites in Washington, D.C., have resulted in signiﬁcant waste of government funds
and/or violated federal regulations.

    This semiannual reporting period has also been a busy one for consultations and brieﬁngs
with Congressional ofﬁces. We were very active in providing advice to and discussing issues with
Members of Congress and Congressional staff regarding a wide variety of matters affecting the
SEC and the broader ﬁnancial system, including the implementation and impact of numerous
elements of the Dodd-Frank Wall Street Reform and Consumer Protection Act. On February
10, 2011, I testiﬁed before the Subcommittee on Financial Services and General Government,
Committee on Appropriations, U.S. House of Representatives, concerning my Ofﬁce’s oversight
efforts, including our identiﬁcation of waste, fraud, and abuse in SEC programs and operations
and matters pertinent to the SEC’s budget and funding levels.

    I am also very pleased to report that during the semiannual reporting period, we received
recognition from our peers for our work. The Council of the Inspectors General on Integrity
and Efﬁciency (CIGIE) selected our investigative team that produced a 457-page report entitled,
Investigation of Failure of the SEC to Uncover Bernard Madoff ’s Ponzi Scheme, issued on
August 31, 2009, for the Gaston L. Gianni, Jr., Better Government Award in recognition of our
“extraordinary efforts in expeditiously conducting this investigation critical to the improvement of
ﬁnancial regulation and the protection of investors.”

    The accomplishments of my Ofﬁce have been enhanced by the continued support of the
SEC Chairman and Commissioners, as well as the SEC’s management team and employees. I
look forward to sustaining this productive and professional working relationship as we continue to
help the SEC meet its important challenges.



   	           	       	      	       	       	
   	           	       	      	       	       	      	       H. David Kotz
   	           	       	      	       	       	      	       Inspector General

   	

   	           	       	      	       	       	      	




                                                     2

U.S. Securities and Exchange Commission


                                                                        SEMIANNUAL
                                                                        REPORT TO
                                                                        CONGRESS
                                                 Ofﬁce of
                                                Inspector
                                                 General



                                           MANAGEMENT AND
                                           ADMINISTRATION
                                           AGENCY OVERVIEW                                          sight Board, alternate trading systems, and
                                                                                                    credit rating agencies.
                                               The U.S. SEC’s mission is to protect inves-
                                           tors; maintain fair, orderly, and efﬁcient mar-               In order to accomplish its mission most
                                           kets; and facilitate capital formation. The              effectively and efﬁciently, the SEC is organized
                                           SEC strives to promote a market environment              into ﬁve main divisions (Corporation Finance;
                                           that is worthy of the public’s trust and charac-         Enforcement; Investment Management; Trad-
                                           terized by transparency and integrity. The               ing and Markets; and Risk, Strategy, and Fi-
                                           SEC’s core values consist of integrity, account-         nancial Innovation) and 16 functional ofﬁces.
                                           ability, effectiveness, teamwork, fairness, and          The Commission’s headquarters is located in
                                           commitment to excellence. The SEC’s goals                Washington, D.C., and there are 11 regional
                                           are to foster and enforce compliance with the            ofﬁces located throughout the country. As of
                                           federal securities laws; establish an effective          September 30, 2010, the SEC employed 3,748
                                           regulatory environment; facilitate access to the         full-time equivalents (FTEs), consisting of
                                           information investors need to make informed              3,664 permanent and 84 temporary FTEs.
                                           investment decisions; and enhance the Com-
                                           mission’s performance through effective                  OIG STAFFING
                                           alignment and management of human re-
                                           sources, information, and ﬁnancial capital.                  During the reporting period, the OIG
                                                                                                    added an investigative specialist, a writer-
                                               SEC staff monitor and regulate a securities          editor, and a part-time investigator to the staff,
                                           industry that includes more than 35,000 regis-           thereby further increasing its capacity to con-
                                           trants, including over 10,000 public compa-              duct its oversight responsibilities.
                                           nies, about 11,500 investment advisers, about
                                           7,800 mutual funds, and about 5,400 broker-                  In February 2011, K. Shane Brefﬁtt joined
                                           dealers, as well as national securities exchanges        the OIG as an investigative specialist. Ms.
                                           and self-regulatory organizations, 600 transfer          Brefﬁtt comes to us from the SEC’s Ofﬁce of
                                           agents, the Municipal Securities Rulemaking              Compliance Inspections and Examinations
                                           Board, the Public Company Accounting Over-               (OCIE), where she served as a branch chief for
                                                                                                    investment adviser and investment company


                                                                                               3

examinations. She began her career with the                  In March 2011, Juliet D. Gardner, who had
SEC in the Los Angeles Regional Ofﬁce in 1997            worked for the OIG during the previous semi-
and later transferred to the headquarters ofﬁce          annual reporting period on detail from the Of-
in 2005. Ms. Brefﬁtt has a Bachelor’s degree in          ﬁce of Investor Education and Advocacy
accounting, is a Certiﬁed Public Accountant in           (OIEA), ofﬁcially joined the OIG as an investi-
the State of Virginia, and is a Certiﬁed Fraud           gator. In OIEA, Ms. Gardner responded to a
Examiner. She is currently pursuing a Master’s           wide range of securities-related questions, com-
degree in Economic Crime Management.                     plaints, and suggestions from investors and in-
                                                         dustry professionals worldwide and analyzed
     In March 2011, Esther Tepper joined the             incoming tips for potential referral to other SEC
OIG as a writer-editor. She was previously a             divisions and ofﬁces. Ms. Gardner began her
communications analyst in the OIG of the U.S.            legal career at the SEC in 1996, in the Division
Department of the Treasury. Before serving at            of Enforcement, where she investigated allega-
the Treasury OIG, Ms. Tepper was a communi-              tions of market manipulation, insider trading,
cations analyst in the Government Accountabil-           ﬁnancial fraud, and securities offering fraud.
ity Ofﬁce’s Financial Management and Assur-              Ms. Gardner is a 1991 graduate of Wittenberg
ance team. Ms. Tepper’s other federal em-                University, where she received a Bachelor of
ployment includes nine years at the Environ-             Arts degree in Political Science. Ms. Gardner
mental Protection Agency, where her responsi-            received her Juris Doctor degree cum laude from
bilities included managing public outreach ac-           Marquette University in 1996.
tivities related to childhood lead poisoning pre-
vention. Ms. Tepper has a Bachelor’s degree in               Finally, one of our Senior Investigators,
American Studies from Smith College and a                Heidi Steiber, left the OIG for an opportunity
Master’s degree in Business Administration               in the private sector.
from the Yale School of Management.




                                                    4

U.S. Securities and Exchange Commission


                                                                      SEMIANNUAL
                                                                      REPORT TO
                                                                      CONGRESS
                                                 Ofﬁce of
                                                Inspector
                                                 General




                                           CONGRESSIONAL TESTIMONY,
                                           REQUESTS, AND BRIEFINGS
                                               During the reporting period, the OIG con-         vided a synopsis of the oversight efforts under-
                                           tinued to keep the Congress fully and cur-            taken by the OIG during the past few years,
                                           rently informed of the OIG’s investigations,          speciﬁcally describing several of the signiﬁcant
                                           audits, and other activities through testimony        investigative and audit reports issued by the
                                           and related written follow-up, as well as nu-         OIG.
                                           merous meetings and telephonic communica-
                                           tions. These communications primarily con-                The IG then provided the Subcommittee
                                           cerned the OIG’s audit and investigative work         with information concerning the OIG’s efforts
                                           that has identiﬁed waste or misuse of govern-         over the past three years to identify waste or
                                           ment funds by the SEC, previous OIG investi-          misuse of government funds by the SEC. The
                                           gations that impact investor protection, OIG          IG stated that the OIG has issued numerous
                                           efforts to review various aspects of the SEC’s        reports identifying waste and inefﬁciencies, as
                                           implementation of the Dodd-Frank Wall                 well as inadequate oversight on the part of
                                           Street Reform and Consumer Protection Act             various SEC components. The IG reported
                                           (Dodd-Frank Act), and ongoing OIG investi-            that a review of the OIG’s audit and investiga-
                                           gative work. The Inspector General’s (IG) tes-        tive reports over the past three years revealed
                                           timony and certain other requests and brief-          that the two largest areas in which the OIG
                                           ings are discussed in detail below.                   has identiﬁed signiﬁcant waste and inefﬁcien-
                                                                                                 cies have been (1) procurement and contract-
                                           INSPECTOR GENERAL TESTIMONY                           ing, and (2) costs relating to real property leas-
                                           AND RELATED FOLLOW-UP                                 ing and ofﬁce moves.
                                           ACTIVITIES
                                                                                                     Speciﬁcally, the IG noted that, in the pro-
                                               The IG testiﬁed before the Subcommittee
                                                                                                 curement and contracting area, the OIG has
                                           on Financial Services and General Govern-
                                                                                                 identiﬁed numerous deﬁciencies in the man-
                                           ment of the U.S. House of Representatives
                                                                                                 agement and oversight of SEC contracts, a
                                           Committee on Appropriations on February
                                                                                                 lack of written internal policies and proce-
                                           10, 2011, regarding the Fiscal Year (FY) 2012
                                                                                                 dures for administering contracts and other
                                           SEC budget. In his testimony, the IG pro-
                                                                                                 agreements, a failure to maintain adequate


                                                                                            5

records and data regarding contracts and                   The IG then stated that, in certain in-
agreements, and improprieties in the selection         stances, it has been and will be necessary for
of vendors and the awarding of contracts.              the SEC to incur additional expenses to im-
The IG observed that these failures have led           plement the OIG’s recommendations. He
to the cancellation of contracts and the ex-           mentioned by way of example the numerous
penditure of funds to reprocure required serv-         recommendations made in the OIG’s report
ices.                                                  of investigation related to the Bernard Madoff
                                                       Ponzi scheme that were designed to reform
    The IG further reported that numerous              the SEC’s system for handling tips and com-
OIG investigations, audits, and reviews have           plaints. He reported that the SEC has im-
revealed signiﬁcant excessive costs and inefﬁ-         plemented these recommendations, instituting
ciencies in connection with the SEC’s leasing          a new Tips, Complaints, and Referrals (TCR)
of real property and the relocation of staff           system to ensure that complaints are received
ofﬁces. The IG stated that the OIG had                 and acted upon in a timely and appropriate
found numerous situations in which the SEC             manner at a total cost of approximately $21
made excessive payments that could have                million. The IG noted that additional fund-
been avoided if appropriate policies and pro-          ing will be required to ensure that the SEC
cedures had existed and been followed. The             has sufﬁcient resources to implement many of
IG also described the OIG’s ﬁnding that SEC            the recommendations that have arisen, and
management approved a project to reconﬁg-              will arise, out of the OIG’s audits, reviews,
ure internal ofﬁce staff space at a signiﬁcant         and investigations.
monetary cost without performing any cost-
beneﬁt analysis of the project prior to its un-            Further, the IG reported in his testimony
dertaking. The IG then noted that an OIG               that senior ofﬁcials, particularly those within
survey to the SEC staff affected by the ofﬁce          the SEC’s Ofﬁce of Information Technology,
moves revealed that they had been satisﬁed             had informed the OIG that they are analyzing
with their workplace locations prior to the            the SEC’s operations and functions to identify
project and generally felt the project was a           efﬁciencies and areas in which costs can be
waste of time and money.                               reduced. The IG speciﬁcally mentioned the
                                                       plans of the SEC’s new Chief Information
    In his testimony, the IG also discussed the        Ofﬁcer to cancel a $2 million information
OIG’s efforts to ensure that its recommenda-           technology contract that he found was not
tions are fully implemented, the funding nec-          cost-effective. The IG noted that the OIG
essary to implement the OIG’s recommenda-              supported and applauded these efforts and
tions, and the identiﬁcation of efﬁciencies            will continue to encourage this type of ap-
within SEC operations and functions. In par-           proach in the future.
ticular, the IG noted that where the OIG has
identiﬁed wasteful expenditures and inefﬁ-                 In concluding his testimony, the IG ac-
ciencies, the OIG has provided SEC man-                knowledged the importance of the SEC’s mis-
agement with detailed descriptions of its ﬁnd-         sion of protecting investors, maintaining fair,
ings, as well as concrete and speciﬁc recom-           orderly, and efﬁcient markets, and facilitating
mendations to alleviate the problems and con-          capital formation, particularly as the nation’s
cerns identiﬁed. The IG reported that the              securities exchanges mature into global for-
OIG has followed up to ensure that these rec-          proﬁt competitors. The IG also pointed out
ommendations have been agreed to and fully             the SEC’s responsibility to utilize government
implemented, and that the majority of the              funds in an efﬁcient and effective manner and
OIG’s recommendations had been imple-                  represented that the OIG intends to remain
mented.                                                vigilant to ensure that scarce government re-


                                                  6

sources are used wisely and cost-effectively             part, on its status as a Troubled Asset Relief
and instances of waste and abuse are elimi-              Program (TARP) participant, but that the
nated. The full text of the IG’s written testi-          OIG did not speciﬁcally investigate other in-
mony is contained in Appendix B to this re-              stances where the SEC may have treated
port and can also be found at                            TARP and non-TARP recipients differently.
http://www.sec-oig.gov/Testimony/index.ht                In addition, the IG stated that while the OIG
ml.                                                      did not determine that the SEC was inappro-
                                                         priately lenient toward Bank of America, the
     Subsequent to the IG’s February 10, 2011            OIG noted the departure from SEC practice
testimony, the IG received several questions             and the inconsistent manner in which the
for the record in connection with the Finan-             SEC had acted. Further, the IG advised that,
cial Services and General Government Sub-                while the OIG did not conclude that the SEC
committee’s FY 2012 Budget Hearing with                  was looking out for Bank of America over the
the SEC IG. These questions were received                interests of retail investors, the OIG’s report
from the Subcommittee Chairwoman, the                    did ﬁnd that the waiver in question allowed
Honorable Jo Ann Emerson (R-Missouri), the               Bank of America to issue registration state-
Honorable Barbara Lee (D-California), and                ments without SEC review, which could po-
the Honorable Jo Bonner (R-Alabama). The                 tentially have some impact on retail investors.
topics of these questions included the OIG’s
investigation into the circumstances surround-                In response to Representative Lee’s ques-
ing the SEC’s proposed settlement with Bank              tions regarding the impact of the continuing
of America that was completed during the                 resolution on the SEC, the IG noted that sig-
previous semiannual reporting period, the                niﬁcant cuts in the SEC’s budget may nega-
impact of the continuing resolution on the               tively impact the SEC’s ability to effectively
SEC, the diversity of the OIG’s staff, the               implement OIG recommendations and new
OIG’s recruiting and hiring practices, the               responsibilities under the Dodd-Frank Act.
OIG’s procurement and contracting with                   The IG also pointed out that, in certain in-
small and disadvantaged business enterprises,            stances, the SEC will have to incur additional
enforcement of acquisition procedures appli-             expenses to implement improvements neces-
cable to small and disadvantaged business en-            sary for the SEC to continue to perform its
terprises, and investor protections related to           critical functions. The IG added that the
Robert Allen Stanford’s alleged Ponzi scheme.            SEC must remain vigilant in its mission of
                                                         protecting investors and conduct aggressive
     The IG provided responses to the ques-              oversight, and that it must have the resources
tions for the record on March 18, 2011. In               necessary to conduct such oversight, as well as
those responses, the IG answered Chair-                  access to up-to-date technology. The IG fur-
woman Emerson’s questions pertaining to the              ther observed that budget cuts of 13 percent
OIG’s Bank of America investigation, noting              or more might make it difﬁcult for the SEC to
that our investigation found that the Commis-            accomplish its mission.
sion initially approved a waiver of certain
qualiﬁcations for Bank of America in connec-                 The IG also responded to Representative
tion with the SEC’s ﬁrst proposed settlement             Lee’s questions pertaining to the diversity of
of its action against Bank of America, not-              the OIG, its recruitment and hiring practices,
withstanding the fact that the traditional crite-        and its procurement and contracting prac-
ria for determining eligibility for such waivers         tices. Speciﬁcally, the IG provided informa-
were not met. The IG also pointed out that               tion showing that as of February 10, 2011, of
the OIG had found that the SEC’s Division of             the OIG’s 17 full-time employees, nine were
Corporation Finance had recommended the                  women (53 percent) and eight were minorities
waiver for Bank of America based, at least in            (47 percent). With respect to the OIG’s con-

                                                    7

tracts, the IG reported that 33 and 40 percent          OIG has conducted involving the Fort Worth
of the OIG’s outside contracts were with                Ofﬁce other than the Stanford investigation.
small, disadvantaged businesses that were fe-
male- or minority-owned in 2009 and 2010,                    In addition to responding to the questions
respectively.                                           for the record, the OIG conducted follow-up
                                                        work requested by the Honorable José Ser-
    In response to Representative Lee’s ques-           rano (D-New York), Ranking Member of the
tion about how the OIG ensures that the SEC             Financial Services and General Government
meets all acquisition procedures applicable to          Subcommittee, pertaining to the SEC’s in-
small and disadvantaged business enterprises,           volvement in U.S. territories and republics.
particularly female- and minority-owned                 On March 17, 2011, the IG forwarded to
ﬁrms, the IG noted that the OIG had recently            Ranking Member Serrano the OIG’s report
conducted two audits of the SEC’s acquisition           of its review of Commission activities in U.S.
procedures. The IG described the pertinent              territories and republics. The OIG’s report
work performed in both of these audits, which           set forth the results of the OIG’s research re-
included (1) an audit completed in September            garding the SEC’s involvement in U.S. territo-
2009 of all aspects of the SEC’s procurement            ries and republics, noting that three SEC of-
and contract management processes and func-             ﬁces or divisions, the Ofﬁce of Compliance
tions, and (2) a follow-up review scrutinizing          Inspections and Examinations (OCIE), the
certain time-and-materials and labor-hour               Ofﬁce of Investor Education and Advocacy
contracts, including one contract with a Small          (OIEA), and the Division of Enforcement
Business Administration-certiﬁed small and              (Enforcement), have contacts with investors in
disadvantaged business, to ensure compliance            U.S. territories. The OIG’s report also noted
with applicable requirements.                           that the SEC’s Miami Regional Ofﬁce has
                                                        speciﬁc responsibility for the U.S. Virgin Is-
     Further, the IG provided answers to sev-           lands and Puerto Rico, while the Los Angeles
eral questions from Representative Bonner               Regional Ofﬁce is responsible for Guam, and
that related to investor protection and, in par-        the SEC headquarters ofﬁce assumes primary
ticular, Robert Allen Stanford’s alleged Ponzi          responsibility for all other U.S. territories and
scheme. The IG pointed out that in the                  republics.
OIG’s report of investigation in the Stanford
matter, the OIG found that the SEC’s Fort                    Speciﬁcally with respect to OCIE, the
Worth Enforcement program made no mean-                 OIG’s report found that OCIE administers
ingful effort to obtain evidence relating to            the SEC’s nationwide examination and in-
Stanford’s alleged Ponzi scheme. The IG                 spection program for registered self-regulatory
added that the OIG’s investigation found that           organizations, broker-dealers, transfer agents,
the Fort Worth Enforcement program’s deci-              clearing agencies, investment companies, and
sion not to undertake a full and thorough in-           investment advisers, and conducts examina-
vestigation of Stanford was due, at least in            tions of investment advisers, broker-dealers,
part, to the perception that the Stanford case          and transfer agents in U.S. territories.  The
was difﬁcult and novel, and not the type of             report also noted that OCIE reviews and re-
case favored by the SEC. The IG noted that              sponds to investor complaints and has ﬁelded
the OIG recommended that the SEC clarify                complaints from investors located in U.S. ter-
its procedures to ensure that the Enforcement           ritories and from investors outside the territo-
program makes better decisions in the future            ries with respect to subjects located in the ter-
and that the SEC consider the signiﬁcance of            ritories. The OIG then provided detailed sta-
bringing cases that are difﬁcult, but important         tistics concerning the number of registrants
for the protection of investors. The IG also            and number of examinations OCIE has con-
provided information on investigations the              ducted in U.S. territories and republics during

                                                   8

the past ﬁve years. Additionally, the OIG re-            against a Florida resident and company for
port provided detailed information concern-              operating a multi-million dollar fraudulent
ing a joint broker-dealer/investment adviser             pyramid scheme involving investors from
examination conducted by OCIE of a ﬁrm                   Puerto Rico.
located in Puerto Rico that revealed numer-
ous concerns and deﬁciencies in the ﬁrm’s                     In conclusion, the OIG’s report found that
practices and compliance controls.                       while the SEC does not maintain a presence
                                                         (as in a physical ofﬁce) in any U.S. territory or
     The OIG’s report next provided detailed             republic, it does respond to complaints from
information concerning OIEA’s contacts with              investors in the territories, conducts examina-
investors located in U.S. territories, showing           tions in the territories, and has ﬁled enforce-
over 250 contacts coming from Puerto Rico                ment actions involving conduct in or related
alone. The report noted that OIEA con-                   to U.S. territories. The OIG’s report also
ﬁrmed that it had responded appropriately to             noted that some U.S. territories are assigned
all contacts from the territories, forwarding            to speciﬁc regional ofﬁces, but many of the
many of them to Enforcement. The OIG                     territories and all of the republics are not cur-
then provided several examples of the types of           rently assigned to any regional ofﬁce. Based
follow-up work OIEA has completed with re-               on its review, the OIG suggested that the SEC
spect to contacts from U.S. territories.                 reinforce the roles and responsibilities of
                                                         headquarters and the regional ofﬁces regard-
     The OIG’s report also described En-                 ing investor protection in U.S. territories and
forcement’s involvement with U.S. territories,           republics. The OIG further suggested that
noting that Enforcement stated that it obtains           OIEA consider performing investor outreach
evidence of possible violations of the federal           and education in U.S. territories and republics
securities laws from many sources, including             to ensure investors located there have the
investor tips from U.S. territories and repub-           knowledge and opportunity to have their con-
lics. The report pointed out that while En-              cerns addressed by the SEC.
forcement regularly conducts investigations
into allegations concerning entities and indi-           OTHER REQUESTS AND BRIEFINGS
viduals located in U.S. territories, and certain
matters have involved signiﬁcant numbers of                  During the reporting period, the IG con-
investors in U.S. territories, a search of public        ducted numerous brieﬁngs of, and had discus-
Enforcement Litigation Releases revealed only            sions with, Members of Congress and Con-
matters related to Puerto Rico. The OIG’s                gressional staff concerning a wide variety of
report also noted that effective March 14,               issues impacting the SEC and the broader ﬁ-
2011, Enforcement deployed its new TCR                   nancial system, including the implementation
Intake and Resolution system to capture and              and impact of numerous provisions of the
track investor complaints, and simultaneously            Dodd-Frank Act. Speciﬁcally, on October 21,
launched a TCR website. During the OIG’s                 2010, the IG participated in a call with staff
review, Enforcement reported that, since                 of the U.S. Senate and House of Representa-
2004, it had received six, 18, and two TCRs              tives Committees on Appropriations concern-
from individuals located in Guam, Puerto                 ing the SEC’s budget and the OIG’s budget,
Rico, and the U.S. Virgin Islands, respectively,         and whether the OIG had sufﬁcient funds to
and ten and ﬁve TCRs where the subject was               perform its critical oversight functions. On
located in Puerto Rico and the U.S. Virgin               February 17, 2011, the IG met with staff of
Islands, respectively. The OIG’s report also             the U.S. House of Representatives Committee
provided an example of an enforcement ac-                on Transportation and Infrastructure and its
tion involving conduct in a U.S. territory in            Subcommittee on Economic Development,
August 2009, which sought a civil injunction             Public Buildings, and Emergency Manage-

                                                    9

ment, and provided a brieﬁng on the status           IG’s views on the main challenges facing the
and progress of the OIG’s ongoing investiga-         SEC.
tion into the SEC’s leasing practices and ac-
tivities, including a contract to lease space at         Further, shortly after the OIG com-
Constitution Center in Washington, D.C.              menced its investigation into the facts and cir-
The IG also briefed the Committee staff on           cumstances of the former SEC General
the OIG’s previous audit of the SEC’s real           Counsel’s participation in matters pertaining
estate leasing function, as well as other OIG        to the Bernard Madoff Ponzi scheme, on
audit and investigative work pertaining to           March 15, 2011, the IG, Counsel to the IG,
procurement issues and identiﬁed areas of            and Assistant Inspector General for Investiga-
waste within the SEC.                                tions (AIGI) met with the Honorable Darrell
                                                     Issa (R-California), Chairman of the U.S.
    In addition, on February 24, 2011, the IG        House of Representatives Committee on
met with several staff of the U.S. House of          Government Oversight and Reform, regard-
Representatives Committee on Financial               ing the Committee’s ongoing efforts with re-
Services pertaining to the SEC’s implementa-         gard to this matter. The IG, Counsel, and
tion of the Dodd-Frank Act, the OIG’s prior          AIGI also met with several majority staff from
report of investigation related to the Robert        the Government Oversight and Reform
Allen Stanford alleged Ponzi scheme, and pos-        Committee and its Subcommittee on Over-
sible future OIG audit work pertaining to the        sight and Investigations, and the Subcommit-
SEC’s economic analysis function and col-            tee on Oversight and Investigations of the
laboration with other agencies, as well as           U.S. House of Representatives Committee on
other issues of interest to the Committee. On        Financial Services, as well as several other
March 3, 2011, the IG briefed staff of the           Congressional staff. During this meeting, the
Subcommittee on Oversight and Investiga-             IG briefed the staff on the allegations that
tions of the U.S. House of Representatives           formed the basis of the investigation the IG
Committee on Government Oversight and                was undertaking into these matters. On
Reform regarding a wide variety of issues per-       March 17, 2011, the IG participated in a con-
taining to ﬁnancial management, work force,          ference call, which included minority staff
and operations at the SEC, including the re-         from the oversight committees, and provided
sults of the OIG’s oversight efforts and the         a similar brieﬁng to the one conducted on
                                                     March 15, 2011.




                                                   10

U.S. Securities and Exchange Commission

                                                                      SEMIANNUAL
                                                                      REPORT TO
                                                 Ofﬁce of
                                                Inspector
                                                 General
                                                                      CONGRESS
                                           ADVICE AND ASSISTANCE PROVIDED
                                           TO THE AGENCY AND THE
                                           GOVERNMENT ACCOUNTABILITY
                                           OFFICE
                                               During this semiannual reporting period,       based upon information obtained during the
                                           the OIG provided advice and assistance to          course of OIG investigations and audits.
                                           SEC management on various issues that were
                                           brought to the OIG’s attention during the              In addition, OIG investigative staff pro-
                                           course of audits and investigations conducted      vided assistance to agency management in
                                           by the Ofﬁce and otherwise. This advice was        connection with an inquiry performed into the
                                           conveyed through written communications, as        alleged misappropriation of funds from the
                                           well as in meetings and conversations with         SEC Recreation and Welfare Association
                                           agency ofﬁcials. The advice included com-          (SRWA), which is a non-appropriated funding
                                           ments on draft policies and procedures and         instrumentality. As is described more fully in
                                           suggestions for improvements in existing poli-     the Inquiries Conducted Section of this Re-
                                           cies and procedures. The OIG also collabo-         port, the OIG’s inquiry discovered that there
                                           rated with and provided assistance to the Gov-     was a lack of controls over the SRWA and, in
                                           ernment Accountability Ofﬁce (GAO) on mat-         particular, that a former employee was the
                                           ters of mutual interest to the GAO and the         only signatory on the SRWA’s checking ac-
                                           OIG.                                               count and still maintained the checkbook for
                                                                                              the account. In an effort to assist SEC man-
                                               Speciﬁcally, during the reporting period,      agement, the OIG obtained possession of the
                                           the IG met with consultants performing an          checkbook and arranged for a current SEC
                                           organizational study of the agency that was        ofﬁcial to become the signatory on the ac-
                                           required by Section 967 of the Dodd-Frank          count. The OIG also made several recom-
                                           Wall Street Reform and Consumer Protection         mendations to management in order to en-
                                           Act. The IG also met with a Division of En-        hance oversight of the SRWA’s operations, in-
                                           forcement representative regarding the SEC’s       cluding that a ﬁnancial control system be de-
                                           whistleblower program and provided insights        veloped and implemented for the SRWA.
                                           as to how that program should be redesigned


                                                                                            11

     Further, as discussed in the OIG SEC           24-05.01.02.02 (02.0), “LAN and Telephone
Employee Suggestion Hotline Section of this         Account Creation, Modiﬁcation, Termination
Report, the OIG reviewed a suggestion re-           and Transfer,” and the accompanying form,
ceived from an SEC employee concerning the          “Request for Account Creation, Modiﬁcation,
need for improvement in the timeliness of no-       Termination or Transfer.” Overall, the OIG
tiﬁcations to employees of changes in the           suggested that the draft Operating Procedure
SEC’s operating status. The OIG’s review of         be revised to ensure that it clearly speciﬁed the
this suggestion disclosed that the SEC’s notiﬁ-     time deadlines for the completion of each of
cation of operating status updates during           the assigned duties outlined in the policy to
early 2011 occurred several hours after the         ensure that the accounts of users who have
U.S. Ofﬁce of Personnel Management (OPM)            left the SEC are timely disabled and deleted.
had updated Federal agency operating status         The OIG also made numerous detailed com-
for the Washington, D.C. metropolitan area          ments concerning the clariﬁcation of and
due to inclement weather. The OIG’s review          consistency in terms used in the policy, the
also determined that the SEC’s Contingency          assignment of particular tasks to speciﬁc indi-
Plan for Early Dismissal and Closure Days,          viduals or positions, and the speciﬁcation of
SEC Regulation (SECR) 5-15 had not been             time deadlines for the performance of speciﬁc
updated since March 1998, and that the              tasks.
emergency notiﬁcation system currently being
used by the SEC, the Nōtiﬁnd system, could               The OIG also reviewed and provided
be used more effectively and consistently to        comments on draft Implementing Instruction
provide SEC employees with timely informa-          24-04.02.01 (01.1), “Sensitive Data Protec-
tion about operating status changes. The            tion.” Through its comments, the OIG
OIG issued a memorandum to the SEC’s Ex-            sought to ensure that the draft Implementing
ecutive Director on March 18, 2011, recom-          Instruction fully satisﬁed recommendations
mending that the Ofﬁce of the Executive Di-         previously made in OIG Report No. 485, As-
rector (OED) revise and update SECR 5-15            sessment of the SEC’s Privacy Program, issued on
and post the revised policy to the SEC’s intra-     September 29, 2010, that the Chief Operat-
net site. The OIG’s memorandum also rec-            ing Ofﬁcer implement a policy that all port-
ommended that the OED review and revise             able media must be fully secured when not in
its current processes to ensure notiﬁcations of     use, and that OIT ﬁnalize, approve, and im-
operating status changes sent by the SEC are        plement its operating procedures for “Hard
provided in a timely manner. The OIG fur-           Drive Wiping and Media Destruction.” The
ther suggested that the SEC consider improv-        OIG further suggested that the Implementing
ing the current functionality of the Nōtiﬁnd        Instruction make clear that sensitive informa-
system, surveying SEC staff to determine            tion should not be left unattended at any un-
their preferences as to the delivery method for     secured locations, specify what consequences
and frequency of weather-related closure and        will follow if an employee or contractor fails
delay information, and reminding employees          to comply with the clean desk policy, and de-
of their option to designate their preferred        scribe the responsibilities of individual em-
communication method through Nōtiﬁnd.               ployees, contractors, and other users of SEC
                                                    computing services, including the responsibil-
    In addition, during the reporting period,       ity for appropriately protecting, securing, and
the OIG reviewed and submitted comments             disposing of sensitive information in accor-
on numerous drafts of Ofﬁce of Information          dance with the Implementing Instruction.
Technology (OIT) policies and procedures.           The ﬁnal Implementing Instruction was is-
For example, the OIG provided extensive             sued on February 16, 2011, and incorporated
comments on draft Operating Procedure               some of the OIG’s suggestions.


                                                  12

    Similarly, the OIG provided numerous                        The OIG reviewed and provided com-
suggestions and comments on draft Imple-                   ments on a draft of an updated version of the
menting Instruction 24-04.04.05 (02.0), “In-               SEC OIT “Rules of the Road,” SECR
formation Encryption within the SEC.” In                   24-04.A01 (version 7.0), which are intended to
particular, the OIG made several suggestions               ensure that agency computing and network
designed to ensure that the Implementing In-               resources are used responsibly, safely, and efﬁ-
struction clearly set forth the policies and pro-          ciently, thereby maximizing the availability of
cedures for determining whether all data                   these resources. In its comments, the OIG
placed on portable media must be encrypted                 suggested that the portion of the Rules of the
in SEC divisions and ofﬁces and how users                  Road discussing the use of social networking
will be notiﬁed of these determinations. The               be clariﬁed to reﬂect whether the use of social
OIG’s comments and suggestions were incor-                 networking sites from Commission computers
porated into the ﬁnal implementing instruc-                is allowed or prohibited and, if allowed, what
tion, “Encrypting Data on Portable Media,”                 limitations are placed on the use of such sites.
which was issued on December 1, 2010.                      The OIG also suggested clariﬁcations to the
                                                           portion of the Rules of the Road pertaining
    Further, the OIG reviewed and provided                 to the use of e-mail encryption when sending
comments on draft SECR 24-02 (02.0), “In-                  nonpublic or sensitive data to non-SEC re-
formation Technology Capital Planning and                  cipients. OIT incorporated the OIG’s com-
Investment Control.” Speciﬁcally, the OIG                  ments into the updated version of the Rules of
suggested that the draft policy should be re-              the Road (version 7.0), which was issued on
vised to create an enforcement mechanism to                March 16, 2011.
address noncompliance with the Capital
Planning and Investment Control (CPIC)                         The OIG also reviewed and commented
process, as the OIG had previously recom-                  on draft SECR 24-10 (01.0), “Electronic and
mended in Report No. 466, Assessment of the                Information Technology (EIT) Section 508/
SEC Information Technology Investment Process, is-         Accessibility Program.” The OIG made sev-
sued on March 26, 2010. The OIG also sug-                  eral suggestions for clariﬁcation of the draft
gested that the draft policy be revised to spec-           regulation, particularly with respect to the
ify what procedures should be followed when                identity of “SEC business sponsors” and
violations or circumventions of the CPIC                   speciﬁcation of the “necessary technical stan-
process are brought to the attention of the                dards.” The OIG subsequently reviewed a
appropriate CPIC governance board, and to                  second draft of the regulation that incorpo-
provide for the prompt reporting of inten-                 rated the OIG’s prior comments. The OIG
tional violations to the OIG. The OIG fur-                 made a few additional suggestions for reor-
ther suggested that the policy specify a process           ganizing and revising the second draft of the
and criteria to be followed pertaining to the              policy.
granting of exceptions or deviations from the
policy, and include a requirement to maintain                  In addition to providing advice and assis-
and track all waivers granted. The OIG’s                   tance to agency management during the re-
comments and suggestions were incorporated                 porting period, the OIG coordinated with and
into the ﬁnal regulation, which was issued on              provided assistance to the GAO in connection
March 11, 2011. Additionally, the OIG pro-                 with a variety of matters. For example, the
vided comments on and suggested several im-                OIG continued to provide assistance to the
provements to a draft “High-Level Acquisition              GAO regarding its ongoing engagement in-
Plan,” Operating Procedure                                 volving the “revolving door” at the SEC (i.e.,
24-02.01.01.02.T02 (version 2.0).                          SEC staff leaving the agency and then work-
                                                           ing for or representing ﬁrms regulated by the
                                                           SEC). Speciﬁcally, the IG met with GAO

                                                     13

representatives and provided responses to         volving door issues and to facilitate coordina-
numerous questions they posed with respect to     tion between the GAO and the OIG in this
the OIG’s ﬁndings based upon audit and in-        area. In addition, the IG participated in a
vestigative work performed in the revolving       conference call with GAO staff in connection
door area, the OIG’s views on the potential       with a study the GAO is conducting on the
effectiveness of various possible remedial        regulation and oversight of ﬁnancial planners.
measures, actions taken by the agency in re-      In that call, the IG provided GAO staff with
sponse to speciﬁc OIG recommendations, and        his insights gained through the OIG’s previ-
the status of pertinent new or ongoing OIG        ous reviews of the SEC’s ability to track ex-
investigations. The IG also participated in a     amination ﬁndings, as well as tips and com-
conference call with GAO staff to discuss re-     plaints provided by the public.




                                                14

U.S. Securities and Exchange Commission

                                                                        SEMIANNUAL
                                                                        REPORT TO
                                                 Ofﬁce of
                                                Inspector
                                                 General
                                                                        CONGRESS
                                           OIG SEC EMPLOYEE
                                           SUGGESTION HOTLINE
                                               The OIG SEC Employee Suggestion                         (3)	   Any recommendations made

                                           Hotline program was established pursuant to                        or actions taken by the IG in 

                                           Section 966 of the Dodd-Frank Wall Street                          response to substantiated al-
                                           Reform and Consumer Protection Act. Dur-                           legations received.

                                           ing the reporting period, the OIG prepared
                                           and issued policies and procedures imple-                   (4)	   Any action the Commission 

                                           menting the employee suggestion hotline pro-                       has taken in response to sug-
                                           gram. These policies and procedures address                        gestions or allegations re-
                                           both the receipt and handling of employee                          ceived. 

                                           suggestions, and the non-monetary recogni-
                                           tion for employees whose suggestions or dis-                 During this six-month reporting period,
                                           closures to the OIG may result or have re-               OIG received 17 suggestions and eight allega-
                                           sulted in cost savings to or efﬁciencies for the         tions, for a total of 25 employee hotline con-
                                           Commission.                                              tacts. The OIG analyzed all of the 25 em-
                                                                                                    ployee suggestions and allegations received
                                              Section 966 requires the IG to submit an              during this six-month period. The informa-
                                           annual report to the Congress describing:                tion required to be reported to Congress is set
                                                                                                    forth below for the six-month period ending
                                              (1)	   The nature, number, and po-                    March 31, 2011:
                                                     tential beneﬁts of any sugges-
                                                     tions received.                                    In addition, summarized below are several
                                                                                                    of the suggestions and allegations received
                                              (2)	   The nature, number, and se-                    and analyzed during the reporting period.
                                                     riousness of any allegations 

                                                     received. 





                                                                                              15

                           Nature and Potential Beneﬁts of                                       Number
                                    Suggestions*

 Increase effectiveness                                                                             9

 Increase the use of resources or decrease cost                                                     5

 Increase efficiency or productivity                                                                4

                               Nature and Seriousness                                            Number
                                   of Allegations

 Mismanagement and/or discrimination                                                                5

 Waste of Commission resources                                                                      4

 Physical harm to person or property                                                                1

 Misconduct by an employee                                                                          1

                         Action Taken by OIG in Response to                                      Number
                             Suggestions or Allegations

 Memorandum to, or communication with, agency requesting action be taken                            11

 Referred to OIG investigations unit                                                                2

 Referred to OIG audit unit                                                                         1

 OIG investigations unit opened preliminary inquiry                                                 1

 Researched issue, but no further agency action was deemed necessary
                                                                                                    4

        Action Taken by Agency in Response to Suggestions or Allegations                         Number
                      Referred During the Reporting Period

 SEC management took specific                                                                       2
 action to address the suggestion

 The agency decided to secure new technology in response to the                                     1
 suggestion

 SEC management launched internal review                                                            1

 The suggestion is still under review by the agency                                                 3

 SEC management is considering suggestion in context of existing procedures                         3

* Suggestions and/or allegations may fall into more than one category and, as such, the numbers listed may be
greater than the total number of suggestions and allegations received.




                                                        16
EXAMPLES OF SUGGESTIONS                                   to open new satellite ofﬁces, not the least of
RECEIVED                                                  which would be ﬁnancial impact, and that the
                                                          SEC currently has several long-term leases in
Office Real Estate Leases                                 place that do not expire for many years.
                                                          Management also recognized, however, that
    An employee suggested that potential cost
                                                          in situations where the SEC might have leas-
savings could be achieved if expansion needs
                                                          ing ﬂexibility, it would be appropriate to con-
for SEC ofﬁces were met in part by leasing
                                                          sider satellite ofﬁces and other alternatives
satellite ofﬁces in suburbs of cities where the
                                                          when a current lease nears the end of its
SEC maintains ofﬁces, rather than by increas-
                                                          term, or if management were to decide to re-
ing the space leased in business districts of
                                                          vise business processes in ways that would
those cities. The suggestion stated that this
                                                          clearly render the implementation cost-
approach might save costs, reduce employee
                                                          effective. We are awaiting more speciﬁc in-
stress and commuting time, and provide an
                                                          formation from management regarding the
alternate worksite in the event of pandemic or
                                                          SEC’s consideration of satellite ofﬁces.
terrorist events.
                                                          SEC Website and EDGAR Database
     We believe this suggestion has the poten-
tial for cost savings to the SEC, as well as                  The OIG received an employee sugges-
other beneﬁts that are not easily measured in             tion that the SEC website and the Electronic,
monetary terms. In analyzing this suggestion,             Data Gathering, Analysis, and Retrieval
OIG staff reviewed relevant statutes, Execu-              (EDGAR) system should be more easily acces-
tive Orders, and guidance from the Comptrol-              sible and user-friendly. EDGAR is the feature
ler General, as well as OIG Report No. 484,               on the SEC’s website that is most frequently
Real Property Leasing Procurement Process, issued         used by the public and, therefore, implement-
on September 30, 2010. We also interviewed                ing this suggestion is likely to provide potential
ofﬁcials from several other governmental                  beneﬁts by improving the agency’s effective-
agencies and self-regulatory bodies in the ﬁ-             ness. After reviewing the suggestion, OIG
nancial industry. We recommended that the                 staff found that there are several ways in
agency seriously consider this suggestion, not-           which the SEC’s website could be enhanced,
ing that the establishment of one or more sat-            and made more user-friendly and aesthetically
ellite ofﬁces appears to comply with the fed-             pleasing. The OIG recommended to man-
eral government’s efforts to reduce the costs,            agement that access to the EDGAR database
stress, and pollution of commuting, and that              could be improved by displaying the search
other agencies have successfully made exten-              link more prominently, and that EDGAR
sive use of satellite ofﬁces. Finally, we pointed         search results might be more usable if com-
out that the availability of an alternate work            monly sought or recent search results were
site or sites in the event of a major catastro-           displayed more prominently. Management
phe is an attractive aspect of this employee’s            responded to the OIG, indicating that they
suggestion.                                               agreed with the employee’s suggestion and
                                                          were taking steps to implement the recom-
    Management provided an initial response               mended changes.
to the suggestion, noting that the SEC is en-
gaged in several ongoing reviews focused, at              Receipt of Electronic Documents
least in part, on some of the issues implicated
in the employee suggestion. Management                       An employee suggested that the SEC
further noted that there would be a number of             could beneﬁt from a better means for sending
considerations to weigh in deciding whether               and receiving voluminous documents elec-



                                                    17

tronically. Speciﬁcally, the SEC’s e-mail sys-       emergencies. Notiﬁcations are sent to em-
tem has size limitations and is burdened when        ployees via telephone, e-mail and/or text mes-
large documents are sent or received. It was         sage. Since the implementation of Nōtiﬁnd in
suggested that providing a service whereby           March 2008, notiﬁcations were provided in-
large ﬁles could be uploaded and downloaded          consistently, i.e. through varying methods and
would be beneﬁcial and a good use of re-             at various times. The OIG suggested that the
sources. We determined that this suggestion          functionality of Nōtiﬁnd be reviewed and im-
could potentially improve efﬁciency and in-          provements made, as necessary. Although no
crease the use of resources and recommended          ofﬁcial response from management has yet
to the agency that it be considered.                 been received, we noted that immediate im-
                                                     provements were made to the notiﬁcation sys-
    The agency agreed with the underlying            tem. Speciﬁcally, an e-mail reminder and
premise of the suggestion and, after conduct-        brochure regarding the Nōtiﬁnd system were
ing an internal analysis, developed what it de-      provided to all employees and, when it was
termined to be a cost-effective and efﬁcient         necessary to provide information to employees
approach to resolve the concern expressed in         regarding a possible government shutdown,
the suggestion. The agency further agreed to         notiﬁcations to employees were signiﬁcantly
raise staff awareness of the resources available     improved, as employees received notiﬁcation
for transmitting large documents and provide         through all available communication methods.
training as necessary.
                                                     Referral to Audit Unit
Notification of Operating Status
                                                         The OIG also received a suggestion that
    The OIG received an employee sugges-             resulted in a referral to the OIG’s audit unit.
tion regarding the need for improvement in           This suggestion related to shared ofﬁces for
the timeliness of notiﬁcation of the SEC’s op-       employees who telework and was referred to
erating status to employees. The employee            the audit unit for inclusion in an ongoing
expressed concern that notiﬁcations from the         audit involving telework practices and policies
SEC were sent signiﬁcantly later than those          at the SEC.
provided by the U.S. Ofﬁce of Personnel
Management (OPM) and, at times, after some
employees had already reported to work. An           EXAMPLES OF ALLEGATIONS
OIG review of operating status updates for           RECEIVED
the Washington, D.C. metropolitan area pro-
vided during January and February 2011               Inappropriate Involvement in
conﬁrmed that notiﬁcation was consistently           Employee’s Time and Attendance
delayed by several hours. After this review of
the operating status updates and discussions             The OIG received an allegation that a
with various employees responsible for prepar-       non-supervisory employee interfered in work-
ing and disseminating closure or delay notiﬁ-        ing relationships between employees and their
cations, we determined that the timeliness and       supervisors, overruled senior ofﬁcers’ approv-
effectiveness of notiﬁcations sent from the          als of time and attendance, created conﬂict,
SEC could be improved.                               and contributed to a lack of trust and declin-
                                                     ing morale among staff. Because this allega-
    The SEC utilizes Nōtiﬁnd, an emergency           tion primarily raised concerns that would be
notiﬁcation system that provides information         appropriately addressed by management, the
to employees in the event of inclement               details of the allegation were referred to the
weather, ofﬁce closings, disasters, or other         appropriate management ofﬁcials for immedi-
                                                     ate action.


                                                   18

    Upon receipt of the allegation, manage-            Referrals to Investigations Unit
ment ofﬁcials launched an internal review of
the facts and circumstances of the allegation.             The OIG received three allegations that
Management determined that it was neces-               resulted in referrals to the OIG’s investiga-
sary to retain an outside mediator to meet             tions unit. Two of these allegations related to
with the individuals involved and provide rec-         waste in leasing of ofﬁce space and were re-
ommendations to management on the best                 ferred to the investigations unit for inclusion
course of action to address the situation. The         in an ongoing investigation of the SEC’s leas-
OIG was informed that these efforts had been           ing activities. The OIG’s investigations unit
completed and the mediator had provided                opened a preliminary inquiry concerning the
several recommendations to management,                 third allegation regarding retaliation against a
which was working with the Ofﬁce of Human              former staff member.
Resources (OHR) to fully implement those
recommendations.




                                                 19

20
U.S. Securities and Exchange Commission

                                                                       SEMIANNUAL
                                                                       REPORT TO
                                                 Ofﬁce of
                                                Inspector
                                                 General
                                                                       CONGRESS
                                           COORDINATION WITH OTHER OFFICES
                                           OF INSPECTOR GENERAL
                                                During this semiannual reporting period,           tional opportunities for members of the
                                           the SEC OIG coordinated its activities in a             CIGIE community and to assist in ensuring
                                           variety of ways with those of other OIGs, as            the development of competent personnel. The
                                           is required by Section 4(a)(4) of the Inspector         IG or a senior OIG staff member attended the
                                           General Act of 1978, as amended. Specifi-               Professional Development Committee’s
                                           cally, the SEC IG, or a senior OIG staff mem-           monthly meetings. The OIG also participated
                                           ber, attended the monthly meetings of the               in a survey being conducted by the Suspen-
                                           Council of the Inspectors General on Integrity          sion and Debarment Working Group of the
                                           and Efficiency (CIGIE). The SEC IG was                  CIGIE Investigations Committee. In respond-
                                           also interviewed by consultants performing an           ing to that survey, the OIG provided its views
                                           organizational assessment of another OIG,               concerning a number of topics related to sus-
                                           who were seeking information about the                  pension and debarment use, training, and
                                           structure and position classifications within           practices.
                                           high-performing OIGs such as the SEC OIG.
                                           The SEC IG provided the consultants valu-                   In December 2010, the Counsel to the
                                           able information about how to structure an              SEC IG received an Award for Leadership
                                           OIG in an effective and efficient manner. In            from the Council of Counsels to the Inspector
                                           addition, the SEC IG met with the newly-                General (CCIG), which is an informal organi-
                                           confirmed IG of the Federal Housing Finance             zation of IG attorneys throughout the federal
                                           Agency (FHFA) to discuss strategies for es-             government who meet monthly and coordi-
                                           tablishing an effective OIG.                            nate and share information. The award rec-
                                                                                                   ognized the Counsel to the SEC IG’s exem-
                                               The SEC IG is also a member of the                  plary leadership as Chair of the CCIG from
                                           CIGIE’s Professional Development Commit-                2008 to 2010. The Counsel to the SEC IG
                                           tee, the purpose of which is to provide educa-          also attended the annual meeting of the Fi-



                                                                                             21

nancial Fraud Enforcement Task Force in De-         created by Section 989E of the Dodd-Frank
cember 2010, to which representatives of all        Wall Street Reform and Consumer Protection
federal OIGs were invited.                          Act (Dodd-Frank Act). The CIGFO is chaired
                                                    by the IG of the Department of Treasury and
    The SEC IG participated in activities de-       also composed of the IGs of the Federal Re-
signed to coordinate efforts among the federal      serve Board, the Commodity Futures Trading
financial regulatory IGs and strengthen the         Commission, the FDIC, the FHFA, the Na-
oversight of the federal financial regulatory       tional Credit Union Administration, the SEC,
structure as a whole. For example, the SEC          and the TARP. Under the Dodd-Frank Act,
IG served on the Troubled Asset Relief Pro-         this Council is required to meet at least quar-
gram (TARP) Inspector General Council,              terly to facilitate the sharing of information
along with the Special IG for the TARP, and         with a focus on the concerns that may apply
IGs from the Department of the Treasury, the        to the broader financial sector and ways to
Board of Governors of the Federal Reserve           improve financial oversight. The CIGFO is
System (Federal Reserve Board), the Federal         also required to submit an annual report to the
Deposit Insurance Corporation (FDIC), the           newly-established Financial Stability Over-
FHFA, the Department of Housing and Urban           sight Council and the Congress, which must
Development, the Treasury Inspector General         include a section that highlights the concerns
for Tax Administration and the Small Busi-          and recommendations of each IG who is a
ness Administration, and the Comptroller            member of the CIGFO and a summary of the
General of the United States.                       general observations of the CIGFO. During
                                                    this reporting period, the SEC IG attended the
    In addition, the SEC IG participated in the     CIGFO’s meetings, and the Deputy Inspector
activities of the Council of Inspectors General     General participated in the CIGFO’s confer-
on Financial Oversight (CIGFO), which was           ence calls.




                                                  22

U.S. Securities and Exchange Commission


                                                                       SEMIANNUAL
                                                                       REPORT TO
                                                                       CONGRESS
                                                 Ofﬁce of
                                                Inspector
                                                 General




                                           AUDITS AND EVALUATIONS

                                           OVERVIEW                                            vulnerabilities and inefﬁciencies, resource
                                                                                               availability, and complaints that are received
                                                The OIG is required by the Inspector           from the Congress, internal SEC staff, the
                                           General Act of 1978, as amended, to conduct         Government Accountability Ofﬁce (GAO),
                                           audits and evaluations of agency programs,          and the public.
                                           operations, and activities. The OIG’s Ofﬁce
                                           of Audits focuses its efforts on conducting and     Audits
                                           supervising independent audits and evalua-
                                           tions of the programs and operations of the             Audits examine operations and ﬁnancial
                                           various SEC divisions and ofﬁces. The Ofﬁce         transactions to ensure that proper manage-
                                           of Audits also hires independent contractors        ment practices are being followed and re-
                                           and subject matter experts to conduct work on       sources are adequately protected in accor-
                                           its behalf. Speciﬁcally, the Ofﬁce of Audits        dance with governing laws and regulations.
                                           conducts audits and evaluations to determine        Audits are systematic, independent, and
                                           whether:                                            documented processes for obtaining evidence.
                                                                                               In general, audits are conducted when ﬁrm
                                              •	 There is compliance with governing            criteria or data exist, sample data is measur-
                                                 laws, regulations, and policies.              able, and testing internal controls are a major
                                              •	 Resources are safeguarded and appro-          objective. Auditors collect and analyze data
                                                 priately managed.                             and verify agency records by obtaining sup-
                                                                                               porting documentation, issuing questionnaires,
                                              •	 Funds are expended properly.                  and through physical inspection.
                                              •	 Desired program results are achieved.
                                                                                                   The OIG’s audit activities include per-
                                              •	 Information provided by the agency to         formance audits that are conducted of SEC
                                                 the public and others is reliable.            programs and operations relating to areas such
                                                                                               as the oversight and examination of regulated
                                               Each year, the Ofﬁce of Audits prepares         entities, the protection of investor interests,
                                           an annual audit plan. The plan includes work        and the evaluation of administrative activities.
                                           that is selected for audit or evaluation based      The Ofﬁce of Audits conducts its audits in ac-
                                           on risk and materiality, known or perceived         cordance with the generally accepted govern-

                                                                                             23

ment auditing standards (Yellow Book) issued             Congress enacted the Securities Investor Pro-
by the U.S. Comptroller General, OIG policy,             tection Act (SIPA) in 1970 to provide investors
and guidance issued by the Council of the In-            protection against losses caused by the failure
spectors General on Integrity and Efﬁciency              of broker-dealers. SIPA created the Securities
(CIGIE).                                                 Investor Protection Corporation (SIPC), which
                                                         is a not-for-proﬁt membership corporation.
Evaluations                                              SIPC or a SIPC employee either acts as trus-
                                                         tee or works with an independent court-
    The Ofﬁce of Audits also conducts evalua-            appointed trustee in liquidations of troubled
tions of the SEC’s programs and activities.              brokerage ﬁrms to recover funds for investors
Evaluations consist of reviews that often cover          with assets in bankrupt or ﬁnancially troubled
broad areas and are typically designed to pro-           brokerage ﬁrms. All broker-dealers registered
duce timely and useful information associated            with the SEC under Section 15(b) of the Secu-
with current or anticipated problems. Evalua-            rities Exchange Act of 1934 are members of
tions are generally conducted when a project’s           SIPC with certain exceptions. The SEC is
objectives are based on specialty and highly             responsible for monitoring SIPC’s activities
technical areas, criteria or data are not ﬁrm,           and, pursuant to SIPA, has delegated author-
or needed information must be reported in a              ity to conduct inspections of SIPC, review
short period of time. The Ofﬁce of Audits’               SIPC annual reports, and approve SIPC’s by-
evaluations are conducted in accordance with             laws, rules, and any amendments to the bylaws
OIG policy, Yellow Book non-audit service                and rules.
standards, and guidance issued by the CIGIE.
                                                              The audit’s overall objective was to assess
Audit Follow-up and Resolution                           the effectiveness of the SEC’s oversight of
                                                         SIPC. The audit examined whether the SEC
    During this semiannual reporting period,             monitors SIPC’s activities in accordance with
the SEC ofﬁces and divisions made signiﬁcant             governing legislation and performs periodic
efforts to reduce the backlog of open recom-             and systematic inspections of SIPC’s activities.
mendations, while ensuring that the most re-             It also focused on determining whether the
cent recommendations were fully imple-                   Commission conducts meaningful reviews of
mented. Based on the appropriate evidence                SIPC’s annual reports. The OIG also deter-
and documentation management provided to                 mined where improvements and best practices
the OIG to support its implementation of the             could be implemented for the SEC’s oversight
OIG’s recommendations, the OIG closed 83                 of SIPC.
recommendations related to 16 different Of-
ﬁce of Audits reports during this semiannual               Results
reporting period.
                                                             The OIG audit found that the SEC’s over-
                                                         sight of SIPC is generally in compliance with
AUDITS AND EVALUATIONS                                   SIPA. However, the audit found that signiﬁ-
CONDUCTED                                                cant improvements could be made to enhance
                                                         the SEC’s process for monitoring SIPC. We
SEC’s Oversight of the Securities                        found that the Division of Trading and Mar-
Investor Protection Corporation’s
Activities (Report No. 495)                              kets (TM) and the Ofﬁce of the General
                                                         Counsel (OGC) currently do not have ade-
  Background                                             quate written policies and procedures for
                                                         monitoring SIPC’s activities. The written
    As a result of the collapse or near collapse         policies and procedures in place for TM’s
of several broker-dealers in the late 1960s,             oversight of SIPC are limited to a 1999

                                                   24

memorandum that merely lists the SEC’s re-                 We learned during our audit that the
sponsibilities for monitoring SIPC pursuant to         GAO performed an audit of SIPC in 1992,
SIPA. The 1999 memorandum does not pro-                which included a review of the SEC’s moni-
vide detailed information about TM’s internal          toring of SIPC. In its audit, the GAO found
procedures for oversight activities, such as           that, since 1985, the SEC had evaluated
how proposed bylaws or amendments submit-              SIPC’s operations only once and had not fol-
ted by SIPC are to be processed or how re-             lowed up on the 1985 evaluation to determine
views of SIPC’s annual reports (including              if SIPC had addressed its recommendations.
SIPC’s ﬁnancial statements) are to be per-             The GAO recommended that the SEC peri-
formed. In addition, we found that some of             odically review SIPC’s operations and its ef-
the limited information contained in the 1999          forts to ensure timely and cost-effective liqui-
memorandum is outdated.                                dations. In response to the GAO’s recom-
                                                       mendation, TM agreed to inspect SIPC every
     The audit also found that OGC does not            four to ﬁve years. The OIG previously per-
have adequate documentation pertaining to              formed an audit of the SEC’s oversight of
its role in overseeing SIPC. OGC provides              SIPC’s activities in March 2000. In that
legal guidance to TM related to SIPA liquida-          audit, the OIG found that since SIPC’s incep-
tions and monitors SIPA proceedings that are           tion in 1970, the SEC had inspected SIPC
handled by independent court-appointed trus-           only two times, once in 1985 and a second
tees and SIPC. Our audit revealed that inter-          time in 1994. The OIG also identiﬁed several
nal policies or procedures regarding OGC’s             areas not addressed in past SIPC inspections
role relating to SIPC’s oversight are not ade-         that could improve oversight effectiveness and
quately documented. Moreover, during the               recommended that TM and the Ofﬁce of
timeframe in which we conducted our audit,             Compliance Inspections and Examinations
there was signiﬁcant staff turnover in the             (OCIE) decide on a review schedule and in-
OGC bankruptcy group, as the OGC attor-                spection scope for future SIPC inspections. In
ney who had provided oversight of SIPC for a           response to this recommendation made in
number of years retired and was replaced by            2000, TM and OCIE agreed to prepare a re-
another attorney. Due to inadequate docu-              view schedule and inspection scope for future
mentation of internal OGC policies and pro-            SIPC inspections. Notwithstanding this
cedures, we found opposing opinions on how             agreement and this recommendation being
SIPC monitoring activities should be per-              closed, our inquiry with TM and OCIE re-
formed. For instance, the new OGC attorney             garding this matter revealed that TM and
questioned whether he should conduct certain           OCIE had never developed a review schedule
monitoring efforts that the previous attorney          or an inspection scope for future SIPC inspec-
believed were effective mechanisms for scruti-         tions.
nizing SIPA liquidations, stating his opinion
that such efforts would be too time-consuming              In addition, we noted that, in the SEC’s
for large SIPA liquidations.                           2003 inspection of SIPC, the SEC identiﬁed
                                                       several deﬁciencies in SIPC’s operations re-
     Our audit further found that the SEC              garding its controls over fees, an improperly
does not inspect SIPC’s activities in any sys-         denied claim, internal policies and guidance,
tematic fashion. The SEC last performed a              education initiatives, and funding options.
full inspection of SIPC in 2003, and per-              Yet, without additional inspections, the SEC is
formed a follow-up inspection in 2005. De-             unable to ensure that these deﬁciencies have
spite having made six ﬁndings in its 2003 in-          been appropriately addressed. The SEC has
spection, the SEC does not have any deﬁnite            indicated that, as a result of its involvement
plans to inspect SIPC in the near future.              with the liquidations of Lehman Brothers,
                                                       Inc. (Lehman) and Bernard L. Madoff In-

                                                 25

vestment Securities, LLC (Madoff), further            Lehman trustee, as of September 30, 2010,
inspections in the near future are not needed.        the entire administrative fees, including fees
Due to the lack of periodic and systematic            for accountants, consultants, and others, to-
inspections of SIPC by the SEC, 14 liquida-           taled approximately $420 million. We also
tions from 2003 to date have not been subject         found that the fees paid to the trustee and his
to the scrutiny of an SEC inspection.                 counsels processing the Madoff claims for the
                                                      period from December 2008 to September
    Our audit also found that the SEC does            2010 totaled approximately $102 million.
not perform a review of trustee fees on a sys-        Moreover, the fees paid to date for both the
tematic basis. We found that such reviews are         Lehman and Madoff liquidations are a mere
particularly necessary because there are few, if      fraction of the amounts that will eventually be
any, limits on the fees that may be awarded.          sought because, despite signiﬁcant progress in
First, although SIPA liquidations are similar to      resolving certain customer claims, signiﬁcant
ordinary bankruptcy cases, in which trustee           work relating to customer claims with pending
fees are subject to legal limits, SIPA does not       litigation remains to be done.
provide any limit on trustee fees in SIPA liq-
uidations. Second, for liquidations in which               Finally, our audit disclosed that many in-
trustee fees are paid from the SIPC fund              vestors are still confused about SIPA coverage.
without a reasonable expectation of recoup-           As indicated by TM and evidenced by the
ment, courts have no discretion whatsoever            Ofﬁce of Investor Education and Advocacy’s
under SIPA to limit fees that SIPC has rec-           (OIEA) log of complaints and questions re-
ommended for trustees or their counsels.              garding SIPC from investors, it is difﬁcult for
Thus, in such situations, even if a court ﬁnds        investors to understand protection against
the amount of fees awarded to a trustee to be         losses available under SIPA and which securi-
excessive, it is required to approve such exces-      ties are covered under SIPA. We found that
sive fees if SIPC determines that the fees are        certain public service campaigns by SIPC do
reasonable. We found that, in one case, a             not fully describe the exceptions to SIPA cov-
Southern District of New York bankruptcy              erage. Due to the complexity of various fac-
judge deemed fees to be awarded to the trus-          tors that determine coverage under SIPA, it is
tee in a SIPA liquidation to be excessive, but        difﬁcult to explain the limitations of SIPA
found that he had no choice other than to ap-         protection to investors. In addition, many in-
prove the fees. Third, even where SIPC ad-            vestors are unaware of SIPA until they learn
vances the funds and there is reasonable ex-          that their broker-dealers have failed.
pectation of recoupment, the statute provides
the courts with only limited discretion to re-            Recommendations
duce the amount of trustee fees recom-
mended by SIPC.                                           On March 30, 2011, the OIG issued a
                                                      ﬁnal report containing the results of its audit.
     The audit further found that signiﬁcant          The report included the following 12 recom-
criticism and concern had been expressed re-          mendations for improving the SEC’s monitor-
garding the amount of trustee fees that were          ing of SIPC’s processes and ensuring that the
awarded in the two largest liquidations in            SEC properly oversees SIPC pursuant to
SIPC’s history, Lehman and Madoff. Accord-            SIPA:
ing to the latest published report, the fees paid
to the trustee and his counsels processing the            (1)	   TM should document its procedures
Lehman claims for the period from Septem-                        and processes for its oversight and
ber 2008 to September 2010 totaled ap-                           monitoring of SIPC pursuant to
proximately $108 million. According to the                       SIPA.
fourth interim fee application ﬁled by the

                                                    26

(2)   TM should complete its efforts to                    ment conducted prior to the inspec-
      update its internal memorandum                       tion.
      that describes its oversight responsi-
      bilities under SIPA and include its            (7)   TM, in coordination with OGC,
      current practices and, where appro-                  should conduct additional oversight
      priate, the legislative amendments                   of SIPC’s assessments of the reason-
      that were made to SIPA in July 2010                  ableness of trustee fees and encour-
      by the Dodd-Frank Wall Street Re-                    age SIPC to negotiate with outside
      form and Consumer Protection Act.                    court-appointed trustees more vig-
                                                           orously to obtain a reduction in fees
(3)   OGC should consult with TM to                        greater than ten percent.
      clarify its role in monitoring SIPC
      and document the responsibilities              (8)   The bankruptcy group in OGC and
      and procedures it follows in regard                  TM should decide on the scope and
      to the Commission’s oversight of                     frequency of the Commission staff ’s
      SIPC.                                                monitoring of SIPC’s assessments of
                                                           the reasonableness of trustee fees
(4)   OGC should consider the costs and                    paid by SIPC, rather than relying
      beneﬁts related to certain activities                only on inspections of SIPC, which
      that the retired attorney performed                  do not occur on a systematic basis.
      and determine what, if any, other
      activities are appropriate to ade-             (9)   TM, in consultation with the Com-
      quately monitor SIPC.                                mission, shall determine whether to
                                                           request that Congress modify SIPA
(5)   TM and OCIE should conduct                           to allow bankruptcy judges who pre-
      meetings, on at least an annual basis,               side over SIPA liquidations to assess
      to determine when an inspection of                   the reasonableness of administrative
      SIPC should occur, based on the on-                  fees in all cases where administrative
      going liquidations, to ensure system-                fees are paid by SIPC.
      atic and risk-based monitoring of
      SIPC’s operations. In these meet-              (10) TM, in coordination with OIEA,
      ings, TM and OCIE should develop                    should encourage SIPC to designate
      a schedule for future inspections                   an employee whose responsibilities
      based upon objective criteria or de-                include improving investor educa-
      ﬁned risk factors, such as conducting               tion and preventing further confu-
      inspections based upon the number                   sion among investors about coverage
      of SIPC liquidations.                               available under SIPA.

(6)   TM and OCIE should perform a                   (11) TM should support SIPC’s efforts to
      risk assessment to determine prob-                  improve investor education, includ-
      lematic areas or liquidations that are              ing encouraging SIPC to strongly
      deemed to be complex prior to the                   consider and, as appropriate, im-
      next inspection of SIPC, as they did                plement OIEA’s suggestions to im-
      prior to the commencement of the                    prove investor awareness.
      2003 inspection of SIPC. The scope
      of each future inspection should take          (12) TM, in coordination with OIEA and
      into consideration the risk assess-                 in consultation with the Commis-
                                                          sion, should utilize more effective


                                               27

           methods to communicate with inves-                      The SEC has implemented a collaborative
           tors in case of the failure of broker-              effort to comply with HSPD-12 among three
           dealers, such as notifying investors of             SEC ofﬁces: the Ofﬁce of Information Tech-
           the status of the Commission’s ef-                  nology (OIT), the Ofﬁce of Administrative
           forts throughout the liquidation                    Services (OAS), and the Ofﬁce of Human Re-
           process or designating an employee,                 sources (OHR). OIT is responsible for over-
           as appropriate, who can communi-                    seeing the implementation of the HSPD-12
           cate directly with investors on mat-                program, assigning roles and responsibilities,
           ters unique to each liquidation case.               and for implementing technological solutions
                                                               for the use of HSPD-12 credentials for identi-
    Management fully concurred with all of the                 ﬁcation and authentication to SEC logical in-
OIG’s recommendations. The OIG’s report,                       formation systems. OAS is responsible for
SEC’s Oversight of the Securities Investor Protection Cor-     enrolling PIV credentials into its physical ac-
poration’s Activities, is available on our website at          cess control system and providing temporary
http://www.sec-oig.gov/Reports/AuditsInspe                     SEC-issued badges while employees or con-
ctions/2011/495.pdf.                                           tractors are awaiting receipt of their PIV cre-
                                                               dentials. OHR has responsibility for the most
The SEC’s Implementation of and                                essential component of the SEC’s implemen-
Compliance with Homeland Security                              tation of and compliance with HSPD-12,
Presidential Directive 12 (HSPD-12)                            which is sponsoring and adjudicating the
(Report No. 481)                                               background investigation of an applicant.
   Background
                                                                   The primary objective of the audit was to
     On August 27, 2004, President George W.                   determine if the SEC is fully compliant with
Bush signed Homeland Security Presidential                     HSPD-12 and the implementing standards
Directive 12 (HSPD-12), “Policy for a Com-                     and guidance. Other speciﬁc audit objectives
mon Identiﬁcation Standard for Federal Em-                     were as follows:
ployees and Contractors.” This directive re-
quires federal agencies to have programs in                        •	 Evaluate whether the SEC has ade-
place to ensure that identiﬁcation issued by                          quate controls and the necessary proc-
each agency to federal employees and con-                             esses and procedures to perform back-
tractors meets a common standard. Those                               ground investigations, adjudicate re-
standards and technical speciﬁcations were set                        sults, and issue credentials.
forth in Federal Information Processing Stan-                      •	 Evaluate the roles and responsibilities
dards Publication (FIPS) 201, “Personal Iden-                         for the HSPD-12 initiative among the
tity Veriﬁcation (PIV) of Federal Employees                           various SEC ofﬁces involved in the
and Contractors,” which was initially issued                          process, including OAS, OHR, and
by the Department of Commerce’s National                              OIT.
Institute of Standards and Technology (NIST)
                                                                   •	 Assess compliance with HSPD-12 and
on February 25, 2005, and revised in March
2006. On August 5, 2005, the Ofﬁce of                                 determine whether all the necessary
Management and Budget (OMB) issued                                    equipment has been purchased to im-
memorandum M-05-24, “Implementation of                                plement HSPD-12 throughout the
Homeland Security Presidential Directive                              SEC.
(HSPD) 12 - Policy for a Common Identiﬁca-                         •	 Evaluate whether the HSPD-12 proc-
tion Standard for Federal Employees and                               esses and procedures are consistently
Contractors” (M-05-24), which provided im-                            applied throughout the SEC (i.e., at
plementation instructions for HSPD-12 and                             headquarters and regional ofﬁces).
FIPS 201.

                                                             28

  Results                                                 using the appropriate standards for making
                                                          these determinations.
     The audit identiﬁed deﬁciencies in nearly
every aspect of the SEC’s HSPD-12 program,                    The audit determined that the SEC’s re-
as well as signiﬁcant concerns about the SEC’s            gional ofﬁces have not consistently enrolled
authority to determine eligibility for access to          PIV badges into the SEC’s physical access
classiﬁed information and the current process             control system. We also found that the SEC’s
for granting temporary access to SEC facili-              badging policy is outdated and does not in-
ties. We also found that the SEC has missed               clude policies and procedures for issuing and
virtually all the deadlines established by OMB            revoking badges, or for requiring the use of
guidance for implementation of HSPD-12                    the PIV credentials as the common means of
and continues to remain noncompliant as a                 authentication for access to SEC facilities and
result of delays in verifying or completing               information systems. We further found that
background investigations for 1,263 employees             OHR’s Personnel Security Branch does not
who have more than 15 years of federal gov-               have policies or procedures speciﬁc to adjudi-
ernment service.                                          cating foreign nationals.

     In addition, the audit found that the SEC                 Further, the audit determined that OIT’s
is currently unable to determine the actual               asset inventory does not account for keyboards
number of contractors who are employed by                 (some of which contain card readers that
the SEC and, thus, there is a serious question            could be used to authenticate PIV credentials)
as to whether the SEC accurately reported its             and lacks detail necessary to identify laptops
statistics related to contractors in its December         that have card readers, which may cause OIT
31, 2010, quarterly HSPD-12 Implementation                to unnecessarily purchase new keyboards and
Status Report to OMB. Further, during our                 laptops with card readers or external card
audit, we compared the SEC’s September                    readers. In addition, the audit found that the
2010 quarterly HSPD-12 Implementation                     SEC expended a total of approximately
Status Report with reports of (1) other federal           $144,000 to employ registrars between June
ﬁnancial agencies, and (2) federal agencies of            2009 and December 2010, which would have
similar size to the SEC, and we found that the            been avoided if the SEC had implemented
SEC lagged well behind both groups.                       HSPD-12 within the required timeframes.
                                                          Moreover, the audit found that based on the
     The audit also found that since June 30,             average number of transactions processed per
2008, the SEC has adjudicated and deter-                  day, the SEC requires only one part-time reg-
mined the eligibility of 26 employees and con-            istrar. We concluded that the agency could
tractors to access classiﬁed information with-            save $108,000 annually by employing one
out receipt of delegated authority from the               part-time registrar rather than two full-time
Director of National Intelligence (DNI),                  registrars.
which Executive Order 13467 established as
the ﬁnal authority to designate an agency to                  Finally, our audit found that OAS’s Physi-
make such determinations. We also found                   cal Security Branch is not maintaining visitor
that the SEC’s determinations of eligibility for          record logs in accordance with the National
access to classiﬁed information were based on             Archives and Records Administration’s Gen-
incorrect policies and procedures. Addition-              eral Records Schedule retention requirement
ally, we found that OAS’s Physical Security               of two years. We noted that the failure to re-
Branch is making eligibility determinations for           tain these records for the required time period
applicants seeking temporary access to SEC                hampers the Physical Security Branch’s ability
facilities without the proper authority.                  to analyze visitor logs effectively to determine
Moreover, the Physical Security Branch is not

                                                    29

if visitors are accessing the agency inappro-            (5)	   Upon receipt of the updated con-
priately by circumventing the badging process.                  solidated contractor list, OHR’s Per-
                                                                sonnel Security Branch should de-
  Recommendations                                               termine which contractors do not
                                                                have successfully adjudicated back-
     On March 31, 2011, the OIG issued a ﬁ-                     ground investigations on record and
nal report containing the results of its audit.                 develop a plan to begin the required
The report included 25 recommendations                          background investigations immedi-
that, once fully implemented, should ensure                     ately.
the Commission’s compliance with HSPD-12.
Of the 25 recommendations, seven were di-                (6)	   Upon receipt of the updated con-
rected to OHR, ten were to directed OAS, ﬁve                    solidated contractor list, OHR
were directed to the Ofﬁce of the Executive                     should ensure that accurate status
Director (OED), and three were directed to                      reporting has been made to OMB.
OIT. The report’s recommendations were as
follows:                                                 (7)	   OED should discontinue adjudicat-
                                                                ing all eligibility determinations for
   (1)	   OHR should immediately prepare                        access to classiﬁed information or
          formal, documented plans for initiat-                 holding a sensitive position until the
          ing background investigations for all                 SEC has received an appropriate
          current employees who do not have                     delegation of authority to conduct
          successfully adjudicated background                   such determinations from the DNI.
          investigations on record, commensu-
          rate with risk.                                (8)	   OED should identify all eligibility
                                                                determinations for access to classiﬁed
   (2)	   OHR should immediately, but no                        information or holding a sensitive
          later than 90 days after the issuance                 position adjudicated by the SEC
          of this report, initiate background                   since June 30, 2008, and, upon re-
          investigations for all current employ-                ceipt of authority from the DNI,
          ees who do not have successfully ad-                  conduct a quality control assessment
          judicated background investigations                   to ensure that the determinations
          on record, commensurate with risk.                    were conducted in accordance with
                                                                the uniform policies and procedures
   (3)	   OAS should identify and develop a                     developed by the DNI.
          consolidated list of all contractors
          who are employed by the Commis-                (9)	   OED, upon receipt of authority
          sion. In addition, OAS should coor-                   from the DNI to make eligibility de-
          dinate with the Contracting Ofﬁcer’s                  terminations for access to classiﬁed
          Technical Representatives and In-                     information or holding a sensitive
          spection and Acceptance Ofﬁcials to                   position, should use the uniform
          implement policies and procedures                     policies and procedures developed by
          for ensuring that the list remains up-                the DNI when making such deter-
          dated.                                                minations.

   (4)	   OAS should provide the OHR’s Per-              (10)	 OAS should immediately discontinue
          sonnel Security Branch with a copy                   making eligibility determinations for
          of the updated consolidated contrac-                 persons requiring temporary access
          tor list on a weekly basis.                          to the SEC’s facilities or information
                                                               systems without proper authoriza-
                                                               tion.
                                                   30

(11) OAS should immediately provide                      proper practices for issuance and
     OHR’s Personnel Security Branch                     revocation of badges, including PIV
     with a list of all persons who have                 cards, to SEC employees and con-
     been provided or denied access                      tractors at all Commission facilities
     based on the Physical Security                      and post the revised policy on the
     Branch’s risk assessments, as well as a             Commission’s intranet site. In addi-
     copy of all ﬁngerprints records, sup-               tion, OAS should communicate the
     porting documentation, and the re-                  new policy to all employees and con-
     sults of the risk assessments.                      tracting ofﬁcials.

(12) OHR, in coordination with OAS,                 (18) OAS should develop and implement
     should develop policies and proce-                  a plan to systematically revoke all
     dures for determining the eligibility               Commission-issued badges for all
     of contractors, visitors, and guests                employees and contractors who have
     requiring temporary access to the                   been issued HSPD-12 badges and
     SEC’s facilities or information sys-                ensure that the plan is implemented
     tems.                                               no later than six months after the
                                                         date of issuance of the OIG’s report.
(13) OAS should communicate to re-
     gional ofﬁce staff its expectations for        (19) OHR should develop, implement,
     enrolling PIV credentials into their                and post in multiple locations (e.g.,
     physical access control systems and                 agency intranet site, human re-
     using PIV credentials as the primary                sources ofﬁces, regional ofﬁces, con-
     badge for physical access to the                    tractor orientation) its appeals pro-
     SEC’s facilities.                                   cedures for individuals who are de-
                                                         nied credentials or whose credentials
(14) OAS should require administrative                   are revoked.
     ofﬁcers in the regional ofﬁces, or des-
     ignated points of contact, to enroll           (20) OHR should develop internal poli-
     PIV cards in the SEC’s physical ac-                 cies and procedures for suitability
     cess control system.                                determinations for foreign nationals.

(15) OED should communicate to all                  (21) OIT should immediately conduct an
     SEC employees and contractors their                 audit of its inventory to identify and
     responsibility to inform the appro-                 track all keyboards and laptops that
     priate regional ofﬁce ofﬁcial that they             contain card readers.
     have been issued a PIV card so that
     the card can be enrolled into the              (22) OIT should promptly deploy appro-
     SEC physical access control system.                 priate technology (e.g., laptops with
                                                         internal card readers, keyboards with
(16) OED should develop and implement                    card readers, or external card read-
     a policy requiring the PIV badge to                 ers) to employees and contractors
     be used as a common and primary                     who do not have card readers.
     means of authentication for physical
     and logical access.                            (23) OIT should eliminate one full-time
                                                         registrar and split the time of the
(17) OAS should revise and update its                    other full-time registrar between the
     “Identiﬁcation Cards, Press Passes                  SEC’s Operations Center in Alexan-
     and Proximity Access Control                        dria, Virginia, and its headquarters
     Cards” policy to reﬂect current and                 location.
                                               31
    (24)	 OAS should retain visitor control                 On March 31, 2010, the SEC OIG issued
          logs for a period not less than two          a Report of Investigation entitled Investigation of
          years after ﬁnal entry or two years          the SEC’s Response to Concerns Regarding Robert
          after date of document in accor-             Allen Stanford’s Alleged Ponzi Scheme (OIG Inves-
          dance with the National Archives             tigative Report No. 526). In that report, the
          and Records Administration’s Gen-            OIG found that the SEC’s Fort Worth Re-
          eral Records Schedule.                       gional Ofﬁce had been aware since 1997 that
                                                       ﬁnancier Robert Allen Stanford was likely op-
    (25)	 OAS should perform periodic analy-           erating a Ponzi scheme. The investigation also
          sis of visitor data to ensure that visi-     discovered that after a series of OCIE exami-
          tors are not circumventing the               nations of Stanford Group Company (Stan-
          HSPD-12 requirements.                        ford’s registered investment adviser) in which
                                                       each examination concluded that the likeli-
     Management fully concurred with all 25            hood of a Ponzi scheme or similar fraud ex-
recommendations and has initiated actions to           isted, the SEC’s Fort Worth Enforcement unit
address the issues described in the report. The        did not take signiﬁcant action to investigate
OIG’s report, The SEC’s Implementation of and          such suspected fraud until late 2005. The
Compliance with Homeland Security Presidential Di-     OIG investigation found that SEC-wide insti-
rective 12, is available on our website at             tutional inﬂuences within Enforcement did
http://www.sec-oig.gov/Reports/AuditsInspe             factor into its repeated decisions not to under-
ctions/2011/481.pdf.                                   take a full and thorough investigation of Stan-
                                                       ford, notwithstanding staff awareness that the
OCIE Regional Offices’ Referrals to                    potential fraud was growing. The OIG inves-
Enforcement (Report No. 493)                           tigation found that senior Fort Worth ofﬁcials
                                                       perceived that they were being judged on the
  Background                                           numbers of cases they brought, so-called
                                                       “stats,” and communicated to the Enforce-
     The mission of OCIE is to conduct and
                                                       ment staff that novel or complex cases were
coordinate the nationwide examination pro-
                                                       disfavored. As a result, cases like Stanford,
gram for entities over which the SEC has
                                                       which were not considered “quick-hit” or
regulatory authority. While conducting in-
                                                       “slam-dunk” cases, were not encouraged.
spections and examinations, OCIE staff re-
view the books and records of regulated enti-
                                                            On September 22, 2010, the U.S. Senate
ties, conduct interviews with management and
                                                       Committee on Banking, Housing, and Urban
ﬁrm employees, and analyze the entities’ op-
                                                       Affairs held a hearing on the SEC’s investiga-
erations. One goal of the examination or in-
                                                       tion and response to Robert Allen Stanford’s
spection is to determine if the registrant is in
                                                       alleged Ponzi scheme. The Committee heard
compliance with federal securities laws and
                                                       testimony from SEC ofﬁcials about the Stan-
regulations. When the registrant’s noncompli-
                                                       ford matter and sought information concern-
ance or internal control failures are considered
                                                       ing the steps the agency was taking to prevent
serious, the staff may refer the matter to the
                                                       future ﬁnancial frauds and restore investor
Division of Enforcement (Enforcement),
                                                       conﬁdence. Then-Committee Chairman
which then determines whether to investigate
                                                       Christopher J. Dodd (D-Connecticut) ex-
the matter further and, ultimately, whether to
                                                       pressed concern that there may be other in-
recommend an enforcement action to the
                                                       stances in which Enforcement did not pursue
Commission. Many of the Commission’s en-
                                                       cases identiﬁed by regional ofﬁce examiners
forcement actions each year are derived from
                                                       because of the perception that SEC headquar-
the examination program’s referrals to En-
                                                       ters in Washington was only interested in
forcement.
                                                       “stats” and “quick hit” cases. Chairman

                                                     32

Dodd requested that the SEC OIG conduct a                 ticularly in FY 2010, with some respondents
review to determine if the concerns about the             identifying Enforcement’s newly-created Asset
Fort Worth Regional Ofﬁce found in the                    Management Unit as having signiﬁcantly as-
OIG’s Stanford report also existed in other               sisted with the acceptance rate of OCIE refer-
SEC regional ofﬁces.                                      rals.

     The objectives of the OIG’s audit were as                We also found that the large majority of
follows:                                                  examiners do not believe that Enforcement
                                                          will only take referrals that involve high dollar
   •	 Determine whether and to what extent                value amounts and cases that can easily be
      OCIE examiners were frustrated in                   brought against the violator. In addition,
      matters other than Stanford where En-               many of the survey participants who did be-
      forcement did not pursue cases identi-              lieve that Enforcement was particularly con-
      ﬁed by examiners in the SEC regional                cerned with dollar thresholds or “stats” noted
      ofﬁces.                                             that this approach was more evident in the
   •	 Determine if Enforcement has taken                  past, i.e., “prior to Madoff.”
      appropriate and sufﬁcient action to ad-
      dress referrals received from OCIE ex-                  The OIG audit did ﬁnd certain aspects of
      amination staff in the SEC regional                 the referral process that could use improve-
      ofﬁces.                                             ment. We found that OCIE sometimes pre-
                                                          sents referrals informally to Enforcement prior
   •	 Determine if problematic trends exist               to proceeding with the formal referral process.
      where appropriate action was not taken              As a result, there is a concern that not all
      based on an OCIE referral and where                 referral-worthy matters may be captured. We
      improvements are needed and best                    also found that internal concerns over incen-
      practices can be identiﬁed to enhance               tives and metrics with regard to the percentage
      the OCIE examination referral process               of OCIE referrals being accepted by En-
      in the SEC regional ofﬁces.                         forcement may have led OCIE senior ofﬁcials
                                                          to request that a particular referral not be cap-
  Results                                                 tured in the Tips, Complaints, and Referrals
                                                          (TCR) system to avoid the risk of having large
     The OIG found that examiners across the              numbers of outstanding referrals. We also
SEC regional ofﬁces are generally satisﬁed                found that the level of communication be-
with their Enforcement attorney counterparts.             tween OCIE and Enforcement after a referral
For example, the OIG found through a survey               is not always consistent in the regional ofﬁces.
of all OCIE examiners throughout the SEC                  As a result, a number of examiners indicated
regional ofﬁces that most survey respondents              that they were unaware of the current status of
indicated that they are either “completely sat-           referrals they provided to Enforcement. Fur-
isﬁed” or “somewhat satisﬁed” with actions                ther, OCIE and Enforcement use different sys-
taken by Enforcement in response to                       tems to track referrals, and those systems do
examination-related referrals. Speciﬁcally, the           not currently interface with each other. In ad-
OIG found that when combining the re-                     dition, while the SEC established a Home Of-
sponses for “completely satisﬁed” and “some-              ﬁce Enforcement Referral Review Committee
what satisﬁed” for respondents, the majority of           to serve as an integral part of the oversight of
SEC regional ofﬁces had a combined level of               the referrals process, the lack of full coopera-
satisfaction ranging from 70 to 87 percent. We            tion from some regional ofﬁces limited the
further found that where there was dissatisfac-           Committee’s ability to bring more transpar-
tion with the referral process, the level of con-         ency and consistency to Enforcement decisions
cern dramatically dropped over time and par-              to pursue referrals.

                                                    33

  Recommendations                                        (5)	   OCIE should ensure that all referrals
                                                                currently in the Super Tracking and
    On March 30, 2011, the OIG issued a ﬁ-                      Reporting System (STARS) are ap-
nal report containing the results of its audit.                 propriately and adequately updated
The report included the following seven rec-                    with the information in the Home
ommendations that were designed to result in                    Ofﬁce Enforcement Referral Review
signiﬁcant improvements to the enforcement                      Committee spreadsheet.
referrals process and ensure that all referral-
worthy matters are appropriately captured                (6)	   OCIE and Enforcement should con-
and tracked:                                                    tinue their efforts to establish a com-
                                                                plete interface between STARS or its
   (1)	   OCIE and Enforcement should care-                     equivalent, the Hub Enforcement
          fully review the information provided                 case tracking system, and the TCR
          from the OIG survey regarding the                     system.
          situations where OCIE examiners
          expressed serious concerns that en-            (7)	   OCIE and Enforcement should de-
          forcement action was unsatisfactory,                  termine the future of the Home Of-
          particularly where the examiners be-                  ﬁce Enforcement Referral Review
          lieved there was ongoing wrongdo-                     Committee. If the Committee will
          ing, and take appropriate action, in-                 not continue, they should ensure that
          cluding potentially reversing previ-                  its responsibilities are carried out by
          ous Enforcement decisions, as neces-                  another ofﬁce or group that will con-
          sary.                                                 tinue to oversee the referral process
                                                                and track outstanding referrals in a
   (2)	   OCIE and Enforcement should take                      meaningful way.
          appropriate actions to enforce the
          policy in all regional ofﬁces that all          Management fully concurred with all of
          OCIE referrals are made in writing         the OIG’s recommendations. The OIG’s
          using the standard Enforcement Re-         report, OCIE Regional Ofﬁces’ Referrals to En-
          ferral Cover Memorandum or an              forcement, is available on our website at
          equivalent record, as appropriate in       http://www.sec-oig.gov/Reports/AuditsInspe
          light of the new TCR system and            ctions/2011/493.pdf.
          other programmatic changes.
                                                     Audit of the SEC Budget Execution
   (3)	   OCIE should issue policy or guid-          Cycle (Report No. 488)
          ance requiring OCIE examiners in
          regional ofﬁces to formally refer all          Background
          signiﬁcant matters to Enforcement,
          not merely the matters that En-                The OIG contracted the services of Acu-
          forcement has already decided to           ity Consulting, Inc. (Acuity) to conduct an
          accept.                                    audit of the SEC’s budget execution process
                                                     and to identify potential areas for improve-
   (4)	   OCIE should take appropriate ac-           ment. The SEC is ﬁnanced through an an-
          tions to enforce its policy in all re-     nual general fund appropriation that is en-
          gional ofﬁces that all OCIE referrals      acted by Congress that may remain available
          be uploaded into the TCR system            until expended, and through occasional sup-
          regardless of whether Enforcement          plemental appropriations that are available for
          has accepted the referral.                 a speciﬁed period of time. During FYs 2009
                                                     and 2010, as in other years, the SEC’s annual
                                                     general fund appropriation consisted of a

                                                   34

“Salaries and Expenses” account within the                 Results
President’s Budget. In FYs 2009 and 2010,
the SEC obligated over $966 million and $1.1                  The audit identiﬁed a number of control
billion, respectively, against the funds avail-          deﬁciencies concerning the SEC’s budget exe-
able. Pursuant to Public Law 111-32, enacted             cution process. Speciﬁcally, the audit found
on June 24, 2009, the SEC received a supple-             that the SEC may have violated 31 U.S.C. §
mental appropriation of $10 million that was             1301, commonly referred to as the Purpose
available for FYs 2009 and 2010 for the statu-           Statute, due to inconsistent appropriations se-
tory purpose of “investigation of securities             lection on contract modiﬁcations for informa-
fraud.”                                                  tion technology acquisitions and expert wit-
                                                         ness fee services once an appropriation had
    The SEC’s Ofﬁce of Financial Manage-                 been selected for the initial contract. The
ment (OFM) administers the agency’s ﬁnan-                audit identiﬁed a total of eight contracts that
cial management and budget functions.                    inconsistently cited appropriations once the
OFM’s Planning and Budget Ofﬁce is respon-               initial appropriation was selected.
sible for the formulation and execution of the
SEC’s budget. OFM uses two software appli-                    Guidance found in the GAO’s “Principles
cations for the budget development and                   of Federal Appropriations Law” provides that
budget execution processes: (1) the Budget               when two appropriations are available for the
and Program Performance Analysis System                  same purpose, an agency is required to select
(BPPAS), an activity-based costing/                      one appropriation and continue to use that
performance-based budgeting software appli-              appropriation consistently throughout its
cation that is used for the budget planning and          availability, unless the statutory language
formulation process and for developing the               clearly demonstrates Congressional intent to
annual operating budget, and (2) Momentum,               make one appropriation available to supple-
the SEC’s core ﬁnancial system of record,                ment or increase a different appropriation for
which is used to record all the SEC’s budget             the same type of work. We found no express
execution and accounting transactions.                   language in the act containing the supplemen-
                                                         tal appropriation that clearly demonstrated
    Although the SEC budget process consists             Congressional intent to have both appropria-
of formulation, submission, approval, execu-             tions available for the same type of work. As a
tion, and reporting, the focus of our audit was          result of the SEC’s failure to select and use
the budget execution process, which includes             one appropriation consistently, the SEC may
the enactment of an appropriation, obtaining             have violated the Purpose Statute during the
the OMB’s approval of an apportionment (i.e.,            period when the supplemental appropriation
a plan to spend resources that identiﬁes                 was available for obligation. In addition, we
amounts legally available for obligations and            determined that the SEC may have violated
expenditures), and making allocations and                the Antideﬁciency Act, 31 U.S.C. § 1341(a), as
suballocations to the SEC’s various ofﬁces and           the supplemental appropriation no longer had
divisions. After apportionment, OFM staff                sufﬁcient funds to accommodate adjustment of
load the funding allocations as reﬂected in              the potential Purpose Statute violation. We
BPPAS to Momentum, and these amounts are                 consulted with the GAO and were advised
then available for commitment and obliga-                that a formal opinion was appropriate to re-
tions.                                                   solve the matter.

    The overall objective of the audit was to                The audit also found that an OFM staff
determine whether sufﬁcient management                   member inactivated the Momentum ﬁnancial
controls over the SEC’s budget execution                 system budgetary controls to facilitate the
process were in place and operating effectively.         processing of payroll transactions without

                                                   35

authorization from senior or executive man-           priations Act reprogramming thresholds dur-
agement. The inactivation of Momentum                 ing the year of execution.
budgetary controls allowed the sum of the al-
location amounts issued in FY 2010 to exceed              Recommendations
the FY 2010 apportionment. We determined
that the SEC’s allocations exceeding the ap-              On March 29, 2011, the OIG issued a ﬁ-
portionment was contrary to both OMB guid-            nal report containing the result of its audit.
ance and the SEC’s internal regulations, and          The report included the following nine rec-
that the inactivation of budget controls by           ommendations to OFM that were designed to
OFM staff could lead to a violation of the An-        address vulnerabilities identiﬁed in the audit:
tideﬁciency Act, 31 U.S.C. § 1517(a).
                                                          (1)	   In consultation with OGC, request a
     Further, the audit found that the BPPAS                     formal opinion from the Comptroller
system is conﬁgured to track only one appro-                     General as to whether the SEC vio-
priation symbol. As a result, the SEC does                       lated the Purpose Statute and, as a
not have full visibility of its budgetary author-                consequence the Antideﬁciency Act,
ity and the purposes for which it is used. In                    by charging certain costs of informa-
an environment of multiple appropriations, as                    tion technology projects and expert
will be the case in FY 2012 with the estab-                      witness fees to both the general and
lishment of the SEC reserve fund appropria-                      supplemental appropriations.
tion established under the Dodd-Frank Wall
Street Reform and Consumer Protection Act,                (2)	   In consultation with OED and
the SEC needs to have BPPAS conﬁgured to                         OGC, establish policies and guid-
accept more than one appropriation to avoid                      ance on how to fund expenditures
an increased level of manual override activity                   where there are multiple appropria-
and mitigate the increased effort required to                    tions available for the same purpose.
support additional Congressional reporting
requirements. In the absence of full visibility           (3)	   Complete a risk reassessment and
of purpose and use of funds, the SEC may be                      include the inactivation of Momen-
at risk of future Purpose Statute and Antideﬁ-                   tum budget controls as a high-risk
ciency Act violations related to multiple ap-                    area in the OFM Reference Guide
propriations.                                                    01-06, “General Guidance: Over-
                                                                 ride of Internal Control.”
    The audit also found that OFM does not
have a formal budgetary training program to               (4)	   Revise the Internal Control Override
ensure that its personnel with budgetary re-                     Template included in OFM Refer-
sponsibilities are appropriately trained and are                 ence Guide 01-06, “General Guid-
aware of the requirements associated with                        ance: Override of Internal Con-
their job functions. In addition, the audit                      trol,” to include a section for follow-
identiﬁed a deﬁciency in the design of internal                  up actions to ensure ﬁnancial integ-
controls in that OFM does not require written                    rity or statutory compliance and en-
authorization of reprogramming and rea-                          sure that signiﬁcant overriding of
lignment actions between two-digit Budget                        ﬁnancial controls be required to be
Object Classes. Further, OFM’s reprogram-                        approved by senior-level ofﬁcials.
ming and realignment actions are subject to a
diminished audit trail and a lack of timely               (5)	   Formally document its allotments as
monitoring throughout the year of budget                         required by Appendix H of OMB
execution. As a result, the SEC has an in-                       Circular A-11 to evidence the trans-
creased risk of exceeding established Appro-                     fer of legal responsibility for funds to
                                                                 the recipient.
                                                    36

   (6)	   Initiate a review of the BPPAS capa-               The OIG contracted with Regis and Asso-
          bility to accommodate multiple ap-             ciates, PC (Regis), an independent public ac-
          propriations.                                  counting ﬁrm, to review select time-and-
                                                         materials and labor-hour contracts to deter-
   (7)	   In consultation with OHR, develop              mine whether payments on the contractor in-
          and establish a formal, ongoing                voices were properly supported and whether
          SEC-focused budgetary training                 the goods and services provided conformed to
          program.                                       contractual requirements. The speciﬁc objec-
                                                         tives of the review were to determine whether:
   (8)	   Revise the current reprogramming
          and realignment procedures to re-                 (1)	    The qualiﬁcations of employees
          quire that the Budget Ofﬁcer or the                       billed to the contracts, by labor cate-
          Assistant Director, Planning and                          gory, met the contractual qualiﬁca-
          Budget, approve all reprogramming                         tion requirements for the positions.
          and realignment actions that cross
          two-digit Budget Object Classes in                (2)	    Assigned Contracting Ofﬁcer’s
          writing.                                                  Technical Representatives (COTR)
                                                                    properly reviewed contractors’ in-
   (9)	   Establish a process to sufﬁciently and                    voices, corresponding timesheets,
          accurately track reprogramming and                        and other necessary supporting
          realignment activities in one central                     documentation to ensure that costs
          location.                                                 were allowable, reasonable, and al-
                                                                    locable to the contracts, and that the
    Management fully concurred with all of the                      rates and amounts billed did not ex-
OIG’s recommendations and has initiated ac-                         ceed contract rates and ceiling
tion to address the issues described in the re-                     amounts.
port. The OIG’s report, Audit of the SEC Budget
Execution Cycle, is available on our website at             (3)	    The SEC adequately monitored all
http://www.sec-oig.gov/Reports/AuditsInspe                          aspects of current and past contrac-
ctions/2011/488.pdf.                                                tors’ performance to ensure that
                                                                    goods and services provided con-
Review of Time-And-Materials and                                    formed to contractual requirements.
Labor-Hour Contracts (Report No. 487)
                                                             Regis reviewed the following two con-
  Background                                             tracts:
     The Ofﬁce of Acquisitions in the SEC’s                        •	 SEC Contract No. SECHQ1-06-
OAS is responsible for the Commission’s con-
                                                                      C-0436, a time-and-materials con-
tract and procurement activities and processes,
                                                                      tract awarded to XBRL US, Inc.
which are governed by the Federal Acquisition
Regulation (FAR). While OA oversees the                            •	 SEC Contract No. SECHQ1-07-
procurement responsibilities, the SEC divi-                           C-0313, a labor-hour contract
sions and ofﬁces are responsible for preparing                        awarded to Dozier Technologies,
initial procurement requisitions and state-                           Inc.
ments of work. OA consists of four primary
branches, each led by a branch chief and                     The SEC awarded Contract Number
staffed with contracting ofﬁcers, contract spe-          SECHQ1-06-C-0436 to XBRL US, Inc., to
cialists, and contractor support personnel.              develop a U.S. Generally Accepted Account-
                                                         ing Principles Financial Statement Taxonomy,


                                                   37

as well as other deliverables described in the      review process for accepting contract deliver-
contract. The principal purpose of the tax-         ables, valued in excess of $11 million.
onomy is to provide a basis for public compa-
nies to report their ﬁnancial information in an          The review also found that the XBRL US,
interactive data format. The SEC awarded            Inc., contract was managed daily by an SEC
this time-and-materials contract on March 5,        employee who did not have the requisite con-
2007, and issued six modiﬁcations that ex-          tract training. We found that the Contracting
tended the performance period of the con-           Ofﬁcer appointed an SEC employee as the
tract through June 28, 2008, and increased the      TPOC for the contract, who essentially served
contract amount from $5,905,420 to                  as an Inspection and Acceptance Ofﬁcial. No
$11,889,462.                                        COTR was appointed, even though the con-
                                                    tract was (1) highly technical, (2) a time-and-
    The SEC awarded Contract Number                 materials contract requiring monitoring of
SECHQ1-07-C-0313 to Dozier Technologies,            hours and approval of other direct costs, in-
Inc., on September 7, 2007. The contract            cluding travel, and (3) valued at almost $6 mil-
had a base value of approximately                   lion at the time of award. Additionally, we
$1,525,157, with options to increase the value      found that the TPOC performed COTR-type
to $3,500,000. The purpose of this labor-           duties, such as overseeing the contract on a
hour contract was to provide contracting sup-       daily basis by providing guidance and direc-
port services and to assist in the administra-      tion to the contractor, and approving monthly
tion of a new procurement system. The SEC           invoices. Without proper training, an individ-
exercised the options in the form of 15 modi-       ual assisting the Contracting Ofﬁcer in man-
ﬁcations to the full value of $3,500,000.           aging a complex contract may not be aware of
                                                    all the requirements he or she is obligated to
  Results                                           follow. As a result, there is a signiﬁcant risk
                                                    that the Commission’s policies and procedures
    The review identiﬁed a number of deﬁ-           may not be followed and that value may not
ciencies concerning the contracts reviewed          have been received for services provided.
related to documentation, the qualiﬁcations of
SEC staff responsible for the day-to-day over-          For the Dozier Technologies, Inc., con-
sight of the XBRL US, Inc. contract, and in-        tract, the review found inconsistent documen-
clusion of labor category qualiﬁcations in the      tation support for various invoices, including
XBRL US, Inc., contract. These controls             eight invoices totaling approximately $156,532
help to ensure that the government’s surveil-       that appeared unsupported by timekeeping
lance of contractor performance provides rea-       records or similar documentation. Two of the
sonable assurance that efﬁcient methods and         invoices submitted by the contractor, totaling
effective cost controls are being used in time-     approximately $12,398, contained no support-
and-materials and labor-hour contracts.             ing documentation other than summary in-
                                                    formation on the invoice stating the labor
    The review found that the acceptance of         category, labor rate, and total hours billed.
deliverables was not adequately documented.         The other six invoices could only be substanti-
Although the assigned Technical Point of            ated with sign-in sheets provided by OAS for
Contact (TPOC) for the XBRL US, Inc., con-          some of the billed labor amounts. The sup-
tract stated that a panel comprised of indi-        porting documentation for these eight invoices
viduals from the Division of Corporation Fi-        did not contain the same level of support as
nance, the Ofﬁce of the Chief Accountant,           the other invoices submitted for this contract
and OIT reviewed and accepted or rejected           by the contractor. Accordingly, the OIG iden-
deliverables for the contract, the TPOC could       tiﬁed questioned costs of $156,532 as a result
not provide documentation to substantiate this      of this review.

                                                  38

      Additionally, the XBRL US, Inc., contract                      whether deliverables met applicable
did not include the qualiﬁcations for labor                          criteria and quality standards in the
categories that were charged to the contract,                        contract.
as required by the FAR. We found that the
SEC did not include in the terms of the con-                  (2)	   Revise or update the appropriate
tract qualiﬁcations for the labor categories                         SEC regulations to explicitly require
upon which hourly charges would be based                             use of a standardized inspection and
(e.g., Taxonomist I, Architect I, Subject Matter                     acceptance form or similar medium
Expert, Project Support Specialist). In Febru-                       for all deliverables.
ary 2007, FAR Section 16.6, “Time-and-
Materials and Labor-Hour Contracts,” ex-                      (3)	   Review active contracts to ensure
panded the deﬁnition of “hourly rate” to the                         agency contracts are appropriately
“rate(s) prescribed in the contract for payment                      assigned a COTR or Inspection and
of labor that meets the labor category qualiﬁ-                       Acceptance Ofﬁcial.
cations . . . .” Additionally, FAR § 52.232-7,
“Payments under Time-and-Materials and                        (4)	   Issue guidance within one month of
Labor-Hour Contracts,” which was incorpo-                            the issuance of the ﬁnal report to the
rated by reference in the contract, states in                        acquisition staff and approving ofﬁ-
part that “the Contractor shall substantiate                         cials, such as COTRs and Inspection
vouchers (including any subcontractor hours                          and Acceptance Ofﬁcials, regarding
reimbursed at the hourly rate in the schedule)                       the proper procedures for review,
by evidence of actual payment and by . . .                           approval, and documentation of
[r]ecords that verify the employees meet the                         contractor payments for time-and-
qualiﬁcations for the labor categories speciﬁed                      materials and labor-hour contracts.
in the contract . . . .” Within the ﬁrst seven
months of the contract, the SEC executed                      (5)	   Review, in consultation with OFM,
three modiﬁcations, which increased the                              the $156,532 in unsupported pay-
number of labor categories from 11 to 23 and                         ments made to Dozier Technologies,
the funding from $5,905,420 to $11,889,461.                          Inc., to determine what, if any, cor-
These modiﬁcations did not include the speci-                        rective actions are warranted (e.g.,
ﬁcations for additional labor categories.                            requiring the contractor to provide
                                                                     adequate support, refund monies for
  Recommendations                                                    unsupported costs).

     On December 22, 2010, the OIG issued                     (6)	   Ensure that all future time-and-
its ﬁnal report containing the results of its re-                    materials and labor-hour contracts
view. The report included the following six                          contain applicable labor category
recommendations to OA that were designed                             qualiﬁcations in accordance with the
to improve OA’s management of time-and-                              FAR.
materials and labor-hour contracts:
                                                              Management fully concurred with all six
    (1)	   Develop a standardized inspection              recommendations and has begun to take appro-
           and acceptance form or similar me-             priate steps to implement them. The OIG’s re-
           dium to document the acceptance of             port, Review of Select Time-and-Materials and Labor-
           goods and services for all deliver-            Hour Contracts, is available on our website at
           ables, and include in such documen-            http://www.sec-oig.gov/Reports/AuditsInspe
           tation information regarding who               ctions/2010/487-Final.pdf.
           accepted the deliverables and



                                                    39

2010 Annual FISMA Executive                             •	 The Commission has developed a Cer-
Summary Report (Report No. 489)                            tiﬁcation and Accreditation (C&A)
                                                           program that is compliant with appli-
    The OIG contracted the services of C5i                 cable regulatory and statutory re-
Federal, Inc. (C5i), to assist with the comple-            quirements. However, as noted in
tion and coordination of the OIG’s input to                OIG Report No. 485, Assessment of the
the Commission’s response to OMB Memo-                     SEC’s Privacy Program, issued on Sep-
randum M-10-15, FY 2010 Reporting In-                      tember 29, 2010, OIT’s categorization
structions for the Federal Information Security            of network vulnerabilities may impact
Management Act and Agency Privacy Man-                     the C&A process, and OIT is reevalu-
agement. The OMB memorandum provided                       ating its risk categorization process.
instructions and templates for meeting the FY
2010 reporting requirements under the Fed-              •	 The SEC has a Security Conﬁguration
eral Information Security Management Act of                Management program that has poli-
2002 (FISMA). It also included instructions                cies and procedures, baselines, and an
for reporting on the agency’s privacy man-                 inventory of software and hardware.
agement program.                                           However, as also noted in OIG Report
                                                           No. 485, OIT has not fully imple-
    FISMA provides the framework for secur-                mented the Federal Desktop Core
ing the federal government’s information                   Conﬁguration, exceptions have not
technology resources. All federal agencies                 been reported to the National Institute
must implement the requirements of FISMA                   of Standards and Technology (NIST),
and report annually to OMB and Congress on                 and justiﬁcations for identiﬁed “excep-
the effectiveness of their information security            tions” have not been fully docu-
and privacy programs. OMB uses the re-                     mented.
ported information to evaluate agency-speciﬁc
and government wide privacy program per-                •	 OIT has an Incident Response and
formance, develop OMB’s annual security re-                Reporting Program with documented
port to Congress, assist in improving and                  policies and procedures, detailing SEC
maintaining adequate agency security and                   employee and contractor roles and re-
privacy performance, and assist in the devel-              sponsibilities in reporting and respond-
opment of the E-Government scorecard un-                   ing to incidents.
der the President’s Management Agenda.
                                                        •	 Annual Security Awareness Training
    C5i began work on this project in Sep-                 was provided to all SEC employees
tember 2010. The overall objective of the                  and contractors. As of November 15,
OIG’s FISMA assessment was to independ-                    2010, 4,732 of 4,778 SEC employees
ently evaluate and report on how the Com-                  and contractors (99.04 percent) suc-
mission has implemented its mandated infor-                cessfully completed this training.
mation security requirements. The assessment
was also designed to provide background in-             •	 OIT maintains a Plan of Actions and
formation, clariﬁcation, and recommendations               Milestones (POA&M) process that de-
for the OIG’s response and input to the OMB                tails the vulnerability, associated NIST
reporting template for FISMA.                              controls, remediation/mitigation strat-
                                                           egy, risk level, and projected/planned
  Results                                                  remediation date. The POA&M is re-
                                                           viewed and updated quarterly and
     The OIG’s FISMA assessment found the
                                                           tracked using the Cyber Security As-
following:
                                                           sessment and Management tool.

                                                  40

•	 The SEC has a Remote Access Pro-                     Recommendations
   gram that complies with federal guid-
   ance and employs security measures                     On March 3, 2011, the OIG issued a ﬁnal
   such as a two-factor authentication                report containing the results of its assessment.
   requirement consisting of an account               The report included the following eight rec-
   password and an RSA token with a                   ommendations that were designed to address
   personal identiﬁcation number.                     vulnerabilities identiﬁed in our assessment:

•	 The SEC has an Account and Identity                   (1)	   OIT should identify all exceptions to
   Management Program with policies                             the Federal Desktop Core Conﬁgura-
   and procedures for both establishing                         tion standards and submit them to
   and deactivating physical and logical                        NIST within 90 days of the issuance
   (network) accounts. However, the                             date of the OIG’s FISMA report.
   HSPD-12 card program completion
   date was delayed for both physical ac-                (2)	   OIT should ensure that justiﬁcations
   cess and logical access. Additionally,                       for deviations from Federal Desktop
   OIT has not effectively applied “least                       Core Conﬁguration requirements
   privilege” for network accounts (i.e.,                       are fully documented.
   allowing only access required to per-
   form the user’s required functions) for               (3)	   OIT should:
   certain network accounts that provided
   the user with the ability to install soft-                   (a)		 perform a thorough review and
   ware and change mandatory settings.                                identify the universe of all
                                                                      Commission user accounts;
•	 The SEC has a Continuous Monitor-                            (b)		 once the universe has been
   ing Program that includes vulnerability                            identiﬁed, identify all active
   scanning, patch management policies                                and inactive user accounts and
   and procedures, and ongoing assess-                                determine whether any ac-
   ment of security controls. However, as                             counts should be disabled; and
   noted in OIG Report No. 485, a prob-                         (c)		 take immediate action to dis-
   lem exists with the timely implementa-                             able the accounts of employees
   tion of new patches. Further, OIT                                  and contractors who no longer
   maintains insufﬁcient documentation                                work at the Commission.
   on which patches have been deployed
   and the date of deployment.                           (4)	   OIT should review its policies and
                                                                procedures for disabling accounts to
•	 The SEC has a Contingency Planning                           ensure that they are well-
   Program with documented policies                             documented and thorough, and
   and procedures. Contingency plan                             should provide training to appropri-
   testing is performed biannually, in                          ate staff regarding account termina-
   April and November, and “lessons                             tion procedures.
   learned” from the testing exercises are
   developed and addressed.                              (5)	   OIT should complete the logical ac-
                                                                cess integration of the HSPD-12
•	 The SEC has a Contractor Oversight                           card program no later than Decem-
   Program, as well as documented poli-                         ber 2011, as it reported to OMB on
   cies and procedures utilizing adequate                       December 31, 2010.
   security controls in accordance with
   NIST and OMB guidance.

                                                41

   (6)	   OIT should conduct a full review,           delegated authority. Additionally, the SEC
          and identify the universe, of all users     staff may provide relief to ﬁrms in the form of
          with elevated privileges.                   a “no-action” letter. A staff no-action letter
                                                      includes the speciﬁc representations made in a
   (7)	   Based on the review results of Rec-         ﬁrm’s request, and advises the ﬁrm that if it
          ommendation 6, OIT should enforce           proceeds as described in the request for no-
          or develop procedures to ensure that:       action relief, the SEC staff will not recom-
                                                      mend an enforcement action against the ﬁrm.
          (a)		 only users whose job functions        Exemptive orders and no-action letters pro-
                require permanent elevated            vide the industry with the ﬂexibility to intro-
                access have the needed privi-         duce new and novel products and services to
                leges;                                the securities markets without risking an SEC
          (b)		 business justiﬁcations are fully      enforcement action for violating the securities
                documented; and                       laws.
          (c)		 elevated privileges are only is-
                sued for the ﬁnite amount of              The OIG is performing an audit to evalu-
                time needed to complete an            ate the SEC’s processes for ensuring adher-
                assigned task.                        ence to the conditions under which exemptive
                                                      orders are granted and the representations
   (8)	   OIT should establish and maintain           based upon which no-action letters are issued.
          an accurate and current list of all         In this audit, the OIG will assess the applica-
          users who have elevated privileges.         ble SEC policies, procedures and processes
                                                      and make recommendations for improvement,
    Management fully concurred with all eight         as warranted. The OIG will also interview
recommendations and has initiated actions to          SEC managers and staff involved in the ex-
address the issues described in the report. The       emptive order and no-action letter processes,
OIG’s report, 2010 Annual FISMA Executive             which primarily include staff in the Divisions
Summary Report, is available on our website at        of Investment Management, Corporation Fi-
http://www.sec-oig.gov/Reports/AuditsInspe            nance, and Trading and Markets. In addition,
ctions/2011/489.pdf.                                  the OIG will conduct a review of relevant
                                                      documents and analyze pertinent data in or-
                                                      der to determine whether applicants are com-
PENDING AUDITS AND EVALUATIONS                        plying with the conditions and representations
                                                      in the exemptive orders and no-action letters
Oversight of and Compliance with                      that have been granted or issued.
Conditions and Representations
Related to Exemptive Orders and
No-Action Letters                                     Audit of Alternative Work
                                                      Arrangements, Overtime
                                                      Compensation, and the COOP
    The SEC has authority to provide ﬁrms             Program at the SEC
with exemptions to the requirements of the
federal securities laws through the issuance of           The U.S. Ofﬁce of Personnel Manage-
exemptive orders. Firms request exemptions            ment (OPM) has recognized the importance of
from the SEC for proposed transactions,               alternative and ﬂexible work schedules in the
products, or services that might not comply           federal government. Speciﬁcally, OPM’s
with current securities law requirements. If          Handbook on Alternative Work Schedules
the SEC grants an application for an exemp-           (AWS) provides that “AWS programs have the
tion, the requestor must adhere to the condi-         potential to enable managers and supervisors
tions of the exemptive order issued by the            to meet their program goals while, at the same
Commission, or a division acting pursuant to          time, allowing employees to be more ﬂexible

                                                    42

in scheduling their personal activities. As em-     recognize employee contributions above and
ployees gain greater control over their time,       beyond normal job requirements with mone-
they can, for example, balance work and fam-        tary and non-monetary awards. Awards may
ily responsibilities more easily, become in-        be granted for contributions either within or
volved in volunteer activities, and take advan-     outside of the employee’s job responsibilities;
tage of educational opportunities. The em-          however, if the contribution is within the em-
ployee beneﬁts provided by AWS programs             ployee’s job responsibilities, the contribution
also are useful recruitment and retention           must be so superior or meritorious that it war-
tools.” In addition, Section 622 of the Con-        rants special recognition. The SEC also pro-
solidated Appropriations Act of 2005, Public        vides recruitment, relocation, and retention
Law 108-447, required the SEC, not later            incentives to its employees that are based on
than two months after the date of the enact-        the “best interest” of the SEC. The SEC’s
ment of the Act, to certify that telecommuting      OHR is responsible for ensuring the integrity
opportunities are made available to 100 per-        of awards and incentives that are provided to
cent of the eligible workforce. The Act fur-        SEC employees.
ther provided that the agency shall designate a
telework coordinator to be responsible for              The SEC OIG is performing an audit of
overseeing the implementation and operations        the ERP and retention, relocation, and re-
of telecommuting programs, and serve as a           cruitment incentive programs to determine
point of contact on such programs for the U.S.      whether awards and incentives were made in
Senate and House of Representatives Com-            accordance with applicable governing policies
mittees on Appropriations. More recently, the       and procedures. Additionally, the SEC OIG
Telework Enhancement Act of 2010, Public            will examine whether awards and incentives
Law 111-292, was enacted on December 9,             are linked to the SEC’s human capital and
2010, providing a framework for agencies to         succession plans, as applicable.
better leverage technology and maximize the
use of ﬂexible work arrangements.                   2010 Federal Information Security
                                                    Management Act Assessments
     The OIG is conducting an audit of the
SEC’s AWS and telework programs. The                     As part of the OIG’s FISMA assessment,
OIG is also reviewing the SEC’s Continuity of       we contracted with an outside consultant to
Operations Plan (COOP), remote access ca-           conduct assessments of two major SEC in-
pabilities, and overtime compensation prac-         formation technology security components:
tices as they relate to AWS and telework.           (1) the SEC’s continuous monitoring efforts for
Speciﬁcally, the OIG will examine the SEC’s         its information technology operations, and (2)
(1) implementation and oversight of its AWS         the SEC’s oversight of contractors’ handling
and telework programs, (2) compliance with          of SEC Personally Identiﬁable Information. 
applicable federal laws and SEC policies and
procedures pertaining to AWS, telework, and             The assessment of the SEC’s continuous
overtime, and (3) information technology ca-        monitoring efforts will identify strengths and
pabilities and access support for the telework      weaknesses in that program.  The assessment
and COOP programs.                                  of the SEC’s oversight of contractors’ han-
                                                    dling of SEC Personally Identiﬁable Informa-
Audit of the SEC’s Employee                         tion will determine whether SEC contracts
Recognition Program and Retention,                  with third-party vendors contain appropriate
Relocation, and Recruitment                         language addressing requirements of the Pri-
Incentives                                          vacy Act of 1974 pertaining to protection of
                                                    Personally Identiﬁable Information.  
   The SEC employee recognition program
(ERP) is designed to motivate employees and

                                                  43

44
U.S. Securities and Exchange Commission


                                                                        SEMIANNUAL
                                                                        REPORT TO
                                                                        CONGRESS
                                                 Ofﬁce of
                                                Inspector
                                                 General




                                           INVESTIGATIONS
                                           OVERVIEW                                             ganizational impairments; (d) procedures and
                                                                                                criteria for initiating an investigation or pre-
                                               The OIG’s Ofﬁce of Investigations re-            liminary inquiry; (e) conducting investigations
                                           sponds to allegations of violations of statutes,     and preliminary inquiries, including initial in-
                                           rules, and regulations, and other misconduct         vestigative steps, scheduling and conducting
                                           by SEC staff and contractors. The miscon-            testimony and interviews, applicable warnings
                                           duct investigated ranges from criminal wrong-        and rights, protecting nonpublic information
                                           doing and fraud to violations of SEC rules           in testimony and interviews, and witness re-
                                           and policies and the government-wide stan-           quests for conﬁdentiality; (f) case reviews; (g)
                                           dards of ethical conduct.                            procedures for coordination with the U.S. De-
                                                                                                partment of Justice (DOJ), when appropriate;
                                                The Ofﬁce of Investigations conducts            (h) safeguarding grand jury information; (i)
                                           thorough and independent investigations into         issuing reports of investigation; (j) guidelines
                                           allegations received in accordance with the          for closing preliminary inquiries; (k) maintain-
                                           Quality Standards for Investigations of the          ing administrative ﬁles; and (l) requests for in-
                                           Council of the Inspectors General on Integrity       formation from persons outside the SEC.
                                           and Efﬁciency (CIGIE). During this reporting
                                           period, the Ofﬁce of Investigations issued a             The OIG receives complaints through the
                                           new Investigations Manual that governs the           OIG Complaint Hotline, an ofﬁce electronic
                                           procedures by which the OIG conducts its in-         mailbox, mail, facsimile, and telephone. The
                                           vestigations and preliminary inquiries and im-       OIG Complaint Hotline consists of both tele-
                                           plements the CIGIE’s Quality Standards. The          phone and web-based complaint mechanisms.
                                           Investigations Manual addresses the following        Complaints may be made anonymously by
                                           areas: (a) authority and general policy of the       calling the Hotline, which is staffed and an-
                                           OIG; (b) requisite qualiﬁcations for the OIG’s       swered 24 hours a day, seven days a week.
                                           investigators, including education and experi-       Complaints may also be made to the Hotline
                                           ence, character, physical capabilities and ﬁt-       through an online complaint form, which is
                                           ness program, age, knowledge, skills and abili-      accessible through the OIG’s website. In addi-
                                           ties, entry-level and in-service training, and       tion to a mechanism for the receipt of com-
                                           professional development; (c) independence of        plaints, the OIG’s website also provides the
                                           the OIG’s investigators and investigations, in-      public with an overview of the work of the
                                           cluding managing personal, external, and or-         Ofﬁce of Investigations, as well as links to
                                                                                              45

some investigative memoranda and reports              Commission’s Ethics Counsel to coordinate
issued by the Ofﬁce. The OIG also receives            activities.
allegations from SEC employees of waste,
abuse, misconduct, or mismanagement within                 Upon completion of an investigation, the
the Commission through the OIG SEC Em-                OIG investigator prepares a comprehensive
ployee Suggestion Hotline, which was estab-           report of investigation that sets forth in detail
lished pursuant to Section 966 of the Dodd-           the evidence obtained during the investiga-
Frank Wall Street Reform and Consumer Pro-            tion. Investigative matters are referred to the
tection Act and is described in the OIG SEC           DOJ and SEC management as appropriate.
Employee Suggestion Hotline Section of this           The OIG does not publicly release its reports
Report.                                               of investigation because they contain nonpub-
                                                      lic information. Decisions regarding whether
    The OIG reviews and analyzes all com-             an OIG investigative report should be publicly
plaints received to determine the appropriate         released, in response to a Freedom of Infor-
course of action. In instances where it is de-        mation Act request or otherwise, are made by
termined that something less than a full inves-       the agency.
tigation is appropriate, the OIG may conduct
a preliminary inquiry into the allegation. If              In many investigative reports provided to
the information obtained during the inquiry           SEC management, the OIG makes speciﬁc
indicates that a full investigation is warranted,     ﬁndings and recommendations, including
the Ofﬁce of Investigations will commence an          whether the OIG believes disciplinary, or
investigation of the allegation. Upon the             other action, should be taken. The OIG re-
opening of an investigation, the primary OIG          quests that management report back discipli-
investigator assigned to the case prepares a          nary or other actions taken in response to the
comprehensive plan of investigation that de-          OIG’s recommendations within 45 days of the
scribes the focus and scope of the investiga-         issuance of the report. The OIG follows up
tion, as well as the speciﬁc investigative steps      as appropriate with management to determine
to be performed during the investigation. The         the status of disciplinary action in matters re-
OIG investigator interviews the complainant           ferred by the OIG. The OIG also often
whenever feasible and conducts signiﬁcant             makes recommendations for improvements in
interviews under oath and on-the-record. In           policies, procedures, and internal controls in
certain circumstances, the OIG may give as-           its investigative reports, and these recommen-
surances of conﬁdentiality to potential wit-          dations are tracked in a manner similar to
nesses who have expressed a reluctance to             how the OIG tracks its audit recommenda-
come forward.                                         tions.

    Where allegations of criminal conduct are
involved, the Ofﬁce of Investigations notiﬁes         INVESTIGATIONS AND INQUIRIES
and works with the DOJ and the Federal Bu-            CONDUCTED
reau of Investigation (FBI), as appropriate.
The OIG also obtains necessary investigative          Investigation of Failure of an SEC
assistance from the SEC’s Ofﬁce of Informa-           Regional Office to Uncover Fraud and
                                                      Inappropriate Conduct on the Part of a
tion Technology (OIT), including the prompt           Senior-Level Official (Report No.
retrieval of employee e-mails and forensic            OIG-533)
analysis of computer hard drives. The OIG
investigative staff meets with the Inspector              The OIG opened an investigation after
General frequently to review the progress of          receiving an anonymous complaint on March
ongoing investigations. The OIG investigative         15, 2010, alleging that a senior ofﬁcial in the
staff also consults as necessary with the             investment adviser examination program in an

                                                    46

SEC regional ofﬁce “instructed (and even bul-           circumventing Regulation T and unusually
lied) examiners to not pursue certain red ﬂags          high leverage, was highly questionable.
in [a 2009] examination where the exam staff
uncovered a massive fraud,” and that his mo-                In addition, the 2005 examiners made a
tive was related to his involvement in a previ-         decision before the examination to “focus on
ous 2005 examination of the ﬁrm. The                    custody issues.” However, the actual exami-
anonymous complaint also alleged that the               nation did not include a thorough custody
senior ofﬁcial lied to OIG investigators during         analysis. In fact, although 80 to 85 percent of
testimony given in a previous OIG investiga-            client assets were invested in an afﬁliated
tion.                                                   broker-dealer, the 2005 examination team
                                                        made no effort to examine these assets, even
    The OIG investigated the allegations in             though they admitted that they were “uncom-
the complaint, focusing on the failure of the           fortable” with the activities at the broker-
regional ofﬁce to detect the fraud during its           dealer.
2005 examination. In conducting the investi-
gation, the OIG searched over 68,000 e-mails                 The 2005 examination team also identi-
and took the testimony of 17 witnesses who              ﬁed numerous “red ﬂags” during the course of
had knowledge of the facts and circumstances            the examination, which they noted in their
surrounding the matter. The OIG investiga-              examination report, but on which they did not
tion found that the regional ofﬁce missed a             follow up. One of the most signiﬁcant con-
signiﬁcant opportunity to uncover a $554 mil-           cerns the 2005 examination team identiﬁed
lion Ponzi scheme, failed to conduct a compe-           related to the poor compliance culture at the
tent and thorough examination of the invest-            ﬁrm. The examination team concluded that
ment adviser in 2005, and did not take the              the ﬁrm had “ineffective compliance proce-
necessary steps to ensure that a follow-up ex-          dures and practices.” They also concluded
amination of the adviser’s afﬁliated broker-            that the ﬁrm “did not consider compliance
dealer was conducted.                                   with the federal securities laws to be a prior-
                                                        ity.” They documented that the ﬁrm, a $1.3
    Speciﬁcally, the OIG investigation found            billion company, had hired a completely inex-
that the 2005 examination of the investment             perienced compliance ofﬁcer and purportedly
adviser was ﬂawed in numerous respects. We              could not afford compliance seminars. In ad-
found that signiﬁcant portions of the ﬁeld              dition, the 2005 examination team also found
work and the writing of the examination re-             unopened boxes of trade blotters, which were
port were conducted by a very inexperienced             supposed to have been reviewed by the ﬁrm to
examiner. We further found that while the               verify the investment strategy their investors
examination team became aware of obvious                were utilizing. However, these concerns did
red ﬂags about the ﬁrm’s operations that                not trigger further scrutiny or examination.
should have been scrutinized in the examina-
tion, the examination team failed to follow up              The 2005 examination team also found “a
on these matters and minimized the concerns             myriad of inaccuracies” in the ﬁrm’s Form
they found.                                             ADV. The examination report noted 15 inci-
                                                        dents of inaccurate or incomplete information
    The examiners who conducted the 2005                on the Form ADV, including failing to disclose
examination acknowledged that the ﬁrm’s                 that the ﬁrm gave advice on interests in part-
structure, in which clients became limited              nerships, which was 80 to 85 percent of the
partners in the broker-dealer, was a red ﬂag in         ﬁrm’s business. However, these inaccuracies
and of itself, and that the ﬁrm’s complex in-           were attributed to the ﬁrm’s compliance cul-
vestment strategy, combined with its goal of            ture, which the examination team dismissed as
                                                        being merely “sloppy.”

                                                  47

    The 2005 examination team also disclosed              2005 examination team noted its intention to
that the ﬁrm’s marketing materials contained              refer its report for an examination of the
signiﬁcant omissions and failed to clearly de-            broker-dealer. However, the OIG found that
scribe its investment strategy, yet the examiners         the referral never happened. The OIG inves-
did not attach signiﬁcance to these ﬁndings.              tigation determined that none of the members
The examination team also uncovered that the              of the 2005 examination team could recall ac-
ﬁrm’s stated policy was to delete all e-mails             tually referring the matter, and no one in the
after a hardcopy was printed. Although, as a              other regional ofﬁce recalled ever receiving a
result, the examination team was unable to                referral. In addition, the OIG, as well as re-
review e-mail documentation as part of their              gional ofﬁce staff, conducted numerous e-mail
examination, the examiners did not ascribe                searches and the results showed no e-mails be-
improper motives to this ﬁnding, concluding               tween the two regional ofﬁces regarding the
that the ﬁrm’s ofﬁcials were simply “not tech-            ﬁrm and no internal e-mails discussing a refer-
nology savvy.”                                            ral.

     The OIG investigation further found that                  The OIG investigation further found that,
after conducting the examination, the 2005                in the timeframe of the 2005 examination, the
examination team actually not only failed to              examining regional ofﬁce had no policies that
follow up on obvious red ﬂags but, inexplica-             governed the referral of examination ﬁndings
bly, decided to lower the ﬁrm’s risk rating from          and no instructions on how a referral was to be
high risk to medium risk as a result of their             made. In addition, there was no procedure for
examination. The 2005 examination report                  following up on a referral and, in fact, no one
justiﬁed the decision to downgrade the ﬁrm’s              on the 2005 examination team made any ef-
risk rating as follows: “Registrant’s investment          fort to conﬁrm that a referral had been made,
strategy and implementation of the strategy do            or inquired as to whether the receiving ofﬁce
not appear to involve a high degree of risk.”             received the referral, conducted an examina-
However, the report did not elaborate on this             tion, or found any fraud. Thus, no examina-
determination, and the very same page of the              tion was conducted of the broker-dealer, al-
report stated that “there are signiﬁcant risks            lowing the fraud to continue.
associated with the operations of [the regis-
tered broker-dealer].”                                        The OIG found that in 2009, when an ex-
                                                          perienced examination team conducted a joint
    Moreover, the OIG investigation found                 examination of both the investment adviser
that a brief, cursory review of the ﬁrm con-              and the broker-dealer, following up partially
ducted four years later, but which was based              on a referral from another agency, the fraud
upon information available to the 2005 exam-              was easily uncovered. The examiners ac-
iners, immediately determined that the ﬁrm                knowledged that the ﬁrms were both operating
had numerous, signiﬁcant red ﬂags and risk                in the “exact same fashion” in 2009 as they
factors that warranted immediate scrutiny and             were in 2005, and the OIG investigation found
examination.                                              that when the 2009 examination team fol-
                                                          lowed up on the same “red ﬂags” identiﬁed in
    While the 2005 examination team dis-                  2005, the 2009 team immediately discovered
missed the red ﬂags relating to the investment            the fraud.
adviser, they did have enough concerns about
the operations at the afﬁliated broker-dealer                Perhaps most signiﬁcantly, the 2009 ex-
that they decided to recommend that another               amination team conducted a custody analysis,
regional ofﬁce conduct a broker-dealer exami-             something that the 2005 team had planned to
nation. Several times in the 2005 report, the             conduct, but never did. The 2009 examina-


                                                    48

tion team determined that the investment ad-            the senior ofﬁcial “instructed (and even bul-
viser had custody of assets invested in the             lied) examiners to not pursue certain red
broker-dealer because the managing partners             ﬂags” in the 2009 examinations in an attempt
of the broker-dealer were owners and, thus,             to hide his failures in the 2005 examination.
supervised persons of the investment adviser            While the OIG investigation did not ﬁnd evi-
and had access to all client funds that were            dence substantiating the claim that the senior
invested in the broker-dealer. As a result, the         ofﬁcial instructed or bullied examiners to ig-
2009 examination team determined that the               nore “red ﬂags” in the 2009 examinations, the
investment adviser was not in compliance with           OIG did ﬁnd that examiners were uncomfort-
the custody rules. The OIG investigation                able with the senior ofﬁcial’s involvement in
found that the 2009 examination team made               the 2009 examinations and that this created
this custody determination based on the same            an appearance of impropriety, which could
facts that existed in 2005.                             have been avoided if the senior ofﬁcial had
                                                        been recused from the 2009 examinations. In
     The 2009 examination team also obtained            the course of its investigation, the OIG also
the records of an unregistered entity that was          found evidence that many employees had sig-
being used as a “pass-through” vehicle and, in          niﬁcant concerns about the senior ofﬁcial’s
those records, uncovered evidence of the                management style in general. Yet, the OIG
fraud. The 2005 examination team did not                also found that there was little, if any, evi-
even request records of the unregistered entity         dence that any action was taken by manage-
during their examination and seemed con-                ment to resolve or even address these con-
fused about whether the SEC had any author-             cerns. We found that many employees at this
ity to obtain documents from unregistered en-           regional ofﬁce were fearful to complain be-
tities even where fraud was suspected.                  cause of possible retaliation. The OIG did
                                                        not substantiate the allegation that the senior
    The OIG investigation found a major dif-            ofﬁcial lied in previous OIG testimony.
ference between the manner in which the two
examinations were conducted related to the                   The OIG issued its report of investigation
fact that the 2009 examinations were con-               to management on October 26, 2010. In its
ducted after the “Madoff ” scandal. The OIG             report, the OIG recommended that SEC
found that after Bernard Madoff confessed to            management carefully review the portions of
operating a $50 billion Ponzi scheme and the            the report that relate to the performance fail-
OIG issued a report of investigation regarding          ures by those employees who still work at the
the failure of the SEC to uncover that scheme,          SEC, so that appropriate action could be
SEC examiners focused more acutely on cus-              taken, on an employee-by-employee basis, as
tody of assets, conducted more joint examina-           appropriate. The OIG also speciﬁcally rec-
tions, and were more aggressive in seeking re-          ommended that the senior ofﬁcial not be
cords from unregistered ﬁrms. The OIG in-               placed back in a supervisory role. The OIG
vestigation found that, unfortunately, the 2005         further recommended that the regional ofﬁce
examination was conducted under “pre-                   (1) establish a staff recusal policy for examina-
Madoff ” procedures by examiners, who were              tions, and (2) include, in its examination refer-
aware of and had evidence of potential fraud,           ral policy and procedures, a mechanism for
but did not take the basic steps necessary to           tracking the outcome of an examination refer-
investigate the matter further and, as with             ral. Finally, the OIG recommended that
Madoff, a signiﬁcant fraud was not uncovered            management take the necessary actions to es-
timely.                                                 tablish appropriate mechanisms in the re-
                                                        gional ofﬁce to ensure that employee feedback
    The OIG also speciﬁcally investigated the           about supervisors is appropriately and sufﬁ-
allegation in the anonymous complaint that              ciently addressed so that employees feel com-

                                                  49

fortable conveying feedback about their superi-         the extent to which SEC and government-wide
ors without fear of retaliation.                        ethic rules would limit the former employee’s
                                                        communications with former colleagues at the
    In response to the OIG’s recommendation,            SEC on behalf of the ﬁrm going forward. Ac-
on January 10, 2011, the regional ofﬁce ex-             cordingly, Senator Grassley requested that the
amination staff was notiﬁed that the Ofﬁce of           OIG conduct a review of the circumstances
Compliance Inspections and Examinations                 surrounding the former employee’s departure
(OCIE) Labor-Management Forum Commit-                   from the SEC and disclose the results so that
tee within the regional ofﬁce had been desig-           Congress and the public can more accurately
nated as the forum through which employees              assess the integrity of the SEC’s operations.
can draw attention to their concerns. In addi-
tion, the senior ofﬁcial who the OIG recom-                  In response to Senator Grassley’s request,
mended not be placed in a supervisory role re-          the OIG opened this investigation and, in con-
signed from the agency, and management pro-             ducting the investigation, researched and ana-
posed disciplinary action against one of the            lyzed post-employment conﬂict-of-interest re-
supervisors on the 2005 examination of the              strictions that apply to executive branch ofﬁ-
investment adviser. As of the end of the semi-          cers and employees generally, as well as rules
annual reporting period, corrective action re-          that speciﬁcally apply to current and former
garding the OIG’s remaining recommenda-                 SEC employees.  The OIG also obtained from
tions was pending.                                      OIT and searched over 250,000 employee
                                                        e-mails.  In addition, the OIG reviewed nu-
    A public version of the OIG’s report is             merous documents including, but not limited
available on the agency’s website at                    to, (1) supporting documents produced by the
http://www.sec.gov/foia/foiadocs.htm.                   SEC Ethics Ofﬁce and certain witnesses, (2) the
                                                        former employee’s personnel ﬁle, (3) letters
Investigation of Whether a Former                       ﬁled in compliance with the SEC’s notice of
Senior Official Violated Conflict-of-                   representation requirement from 2007 through
Interest Restrictions in Connection                     2010, and (4) comment letters submitted to the
With Employment at a Trading Firm                       SEC by the trading ﬁrm that hired the former
(Report No. OIG-540)
                                                        employee from 2009 through 2010.  Finally,
     On June 14, 2010, the Honorable Charles            the OIG took sworn testimony from six current
E. Grassley, United States Senator (R-Iowa),            and former SEC employees.
sent a letter to the OIG regarding the “revolv-
ing door between” employment at the SEC                      The OIG issued its report of investigation
and “the securities industry, which the SEC is          on January 25, 2011, indicating that it found
charged with regulating.”  Senator Grassley’s           no evidence that the former employee violated
letter speciﬁcally referenced a senior SEC ofﬁ-         any conﬂict-of-interest provisions or acted in an
cial who left the agency in June 2010 to join a         improper manner in connection with employ-
trading ﬁrm.  According to Senator Grassley,            ment at the trading ﬁrm.  The evidence and
the employee’s departure from the SEC to                testimony obtained by the OIG showed that
work at the ﬁrm raised questions about (1) the          almost immediately after being contacted by
extent to which the former employee was per-            the ﬁrm about future employment, the former
sonally involved in the SEC’s review of recent          employee contacted the SEC Ethics Ofﬁce and
market events and related rulemaking activi-            ﬁled an online recusal form. The evidence ob-
ties, (2) when the former employee had contact          tained further showed that the former em-
with the ﬁrm about the possibility of employ-           ployee promptly informed the applicable divi-
ment there and whether the former employee              sion director of the former employee’s recusal
was recused from matters related to the SEC’s           and, soon thereafter, the former employee was
review and rulemaking after that point, and (3)         recused from particular rulemakings.

                                                  50

    The OIG did ﬁnd, however, that a lack of            entered on the recusal form, and (4) seek
proper record keeping at the SEC made it dif-           modiﬁcation from OGE of the blanket ex-
ﬁcult to determine from which matters the               emption for SK employees from the one-year
former employee was, in fact, recused and on            “cooling-off ” ban.  The OIG also recom-
which matters the former employee continued             mended that the former employee’s division
to work after beginning employment discus-              designate an administrative contact to main-
sions. Speciﬁcally, the OIG found that neither          tain a list of speciﬁc matters from which sen-
the Ethics Ofﬁce nor the division in which the          ior ofﬁcers are recused. As of the end of the
former employee worked created or main-                 reporting period, no action had yet been taken
tained records of the matters from which the            by management with respect to the OIG’s
former employee was recused, and that the               recommendations. Management indicated
online recusal form did not have an area in             that it plans to implement the OIG’s recom-
which an employee can enter recusal informa-            mendations simultaneously with any recom-
tion for particular matters. Additionally, the          mendations that may arise from GAO’s ongo-
OIG found that the SEC’s Ethics Ofﬁce does              ing revolving door audit.
not require its employees to document the ad-
vice they provide to employees and that the             Improprieties in the Selection and
practice of not documenting meetings held               Award of a Sole-Source Contract
and advice provided does not support the in-            (Report No. OIG-523)
terests of employees or those of the Commis-
sion.                                                        On September 24, 2009, the OIG opened
                                                        an investigation into the SEC OIT’s August
    The OIG investigation also found that,              2008 acquisition of approximately $1 million
although many employees on the SEC’s SK                 of certain equipment intended to serve as vir-
pay scale would be subject to the one-year              tual storage. The acquisition was one of four
“cooling off ” ban on communications back to            OIT projects reviewed by the OIG as part of
the agency that is applicable to senior employ-         its audit of the SEC’s Capital Planning and
ees, the U.S. Ofﬁce of Government Ethics                Investment Control (CPIC) process, entitled
(OGE), at the SEC’s request, had exempted all           Assessment of the SEC Information Technology In-
SEC SK employees from the prohibition.                  vestment Process, Report No. 466, issued March
This automatic exemption for SK employees               26, 2010. Based on the ﬁndings of that audit
has enabled some former SEC employees who               with respect to this particular acquisition, the
were highly compensated and held inﬂuential             OIG decided to open an investigation.
positions to evade the ban, even though they
are the very type of employees the ban was                  During the course of its investigation, the
intended to cover. The OIG concluded,                   OIG obtained and searched approximately
therefore, that the blanket exemption for SK            1.2 million e-mails from 13 SEC staff mem-
employees opens the door to potential abuse             bers. The OIG also reviewed numerous
and that efforts should be made to seek modi-           documents related to the acquisition, includ-
ﬁcation to the blanket exemption from OGE.              ing vendor proposals, meeting minutes of the
                                                        SEC’s Information Ofﬁcers Council and
     In light of its ﬁndings, the OIG recom-            OIT’s Project Review Board, requisition re-
mended that the SEC Ethics Ofﬁce (1) docu-              quests, and purchase orders and supporting
ment the advice provided to SEC employees,              documentation. Further, the OIG conducted
(2) add a ﬁeld to the online recusal system in          12 testimony or interview sessions of witnesses
which employees can add information regard-             with knowledge of the facts and circumstances
ing the speciﬁc matters from which they are             surrounding the acquisition and/or knowl-
recused, (3) rectify the on-line recusal data-          edge of information otherwise pertinent to the
base’s inability to store certain information           investigation.


                                                  51

    The OIG investigation found that OIT’s          properly split into two orders; and (4) OIT
decision to purchase the equipment initially        shared budget information with the vendor in
was made primarily based on a very simple           order for the vendor to tailor its proposal for
sales pitch from a vendor. OIT purchased the        the ﬁrst order within the SEC’s budget pa-
equipment without conducting any technical          rameters, even though that proposal omitted
analysis or review and decided to forgo an op-      essential equipment that the SEC was subse-
portunity to test the equipment at no cost.         quently forced to purchase, and tied that order
Key OIT staff members were not consulted            to two larger orders that were placed one week
about the decision to acquire the equipment.        later.
OIT also allowed the vendor to use informa-
tion it improperly obtained from the SEC to             Moreover, the OIG found that the acquisi-
submit a quote in its proposal for the exact        tion was not reviewed and approved by the
amount that was budgeted by the SEC for the         SEC’s Competition Advocate as required by
contract. Immediately after OIT attempted to        the CCA and the FAR. The OIG further
install the equipment, it was apparent that the     found that if the acquisition had been re-
storage system was a failure. It was quickly        viewed by the SEC’s Competition Advocate, it
demonstrated that it was impossible for the         would not have been approved. The OIG
equipment to be installed properly and that         also found that OIT violated the SEC’s CPIC
the equipment not suitable for the SEC.             procedures by waiving a pre-acquisition re-
                                                    view of the purchase. Finally, the OIG found
     The OIG investigation found that the ac-       that as a direct result of those numerous viola-
quisition violated several provisions of the        tions of the CCA, the FAR, and the SEC’s
Competition and Contracting Act (CCA) and           CPIC procedures, the SEC invested approxi-
the Federal Acquisition Regulation (FAR).           mately $1 million in technology that immedi-
The Ofﬁce of Administrative Services (OAS)          ately failed to perform its intended function.
approved the acquisition on a non-competitive
basis; however, the OIG found that the justiﬁ-           The OIG issued its report of investigation
cation cited for the award on that basis, “only     on December 14, 2010, and recommended
one responsible source . . . will satisfy [the      that appropriate action, including
SEC’s] requirements,” was inapplicable. Con-        performance-based action and/or training, be
sequently, the acquisition violated the central     taken with respect to four employees. The
tenet of the CCA and the FAR, which is that         OIG also recommended that OIT institute
“except in the case of procurement proce-           appropriate procedures to ensure that any sig-
dures otherwise expressly authorized by stat-       niﬁcant information technology acquisition
ute, an executive agency in conducting a pro-       undergo an adequate pre-acquisition review of
curement for property or services shall obtain      its technical merits and compatibility with ex-
full and open competition through the use of        isting information technology architecture.
competitive procedures.”                            Finally, the OIG recommended that OAS in-
                                                    stitute appropriate procedures, including
    In addition, the OIG found several other        training of its contract specialists, to ensure
FAR violations, including: (1) the written jus-     that future procurements are done in accor-
tiﬁcation for the award of the contract on a        dance with federal statutes and regulations.
non-competitive basis did not include the es-       As of the end of the reporting period, no ac-
timated cost of the acquisition; (2) the equip-     tion had been taken by management with re-
ment was purchased before the written justiﬁ-       spect to the OIG’s disciplinary recommenda-
cation had been approved by the contract ofﬁ-       tions, while management had begun to im-
cer; (3) one of the requisition requests and        plement the procedural and training recom-
purchase orders for the acquisition was im-         mendations.


                                                  52

Abusive and Intimidating Behavior                    staff feared losing their jobs if they com-
Within a Headquarters Branch (Report                 plained about the employee. In addition, the
No. OIG-537)                                         investigation found that the employee’s man-
                                                     agers took no steps to rein him in and or inves-
    On May 13, 2010, the OIG opened an
                                                     tigate his conduct, despite the availability of
investigation into an anonymous complaint
                                                     the statements of seven contract staff detailing
that an SK-14 employee at SEC headquarters
                                                     his misbehavior. In all, we found that there
had engaged in abusive and intimidating be-
                                                     was an atmosphere of bullying and intimida-
havior towards contract staff, used profane
                                                     tion and an appearance that the employee
language, and threatened their job security.
                                                     could do as he pleased with little or any re-
The complaint further claimed that the em-
                                                     strictions placed on his behavior.
ployee had lied to his supervisor about certain
of these events and that his supervisor ap-
                                                         The investigation further found that the
peared to be unaware of the employee’s abu-
                                                     environment was such that the contract staff
sive and intimidating conduct. The complaint
                                                     feared retribution if they complained about
also alleged an inappropriate relationship be-
                                                     the employee and felt complaining would be
tween this employee and one particular con-
                                                     useless, as he appeared to be able to do as he
tractor. Included with the anonymous com-
                                                     pleased and get away with it. While there was
plaint were the statements of seven witnesses
                                                     evidence that the Contracting Ofﬁcer’s Tech-
that were submitted in support of the com-
                                                     nical Representative (COTR) for the particu-
plaint. The complainant requested that the
                                                     lar contract at issue had personally witnessed
statements be safeguarded to protect the pri-
                                                     the employee becoming boisterous and using
vacy and job security of the witnesses, who
                                                     profanities on several occasions and counseled
feared retribution.
                                                     the employee, this counseling was ineffective
                                                     and the employee continued to engage in in-
     During the investigation, the OIG took the
                                                     appropriate conduct. The employee’s supervi-
sworn testimony of 15 individuals, including
                                                     sor testiﬁed that while he was not aware of any
both SEC staff members and contractor per-
                                                     complaints about the employee cursing or yell-
sonnel. The OIG also conducted interviews of
                                                     ing at anyone, he had been made aware that
three other SEC staff members and additional
                                                     some people felt intimidated by the employee.
follow-up interviews. In addition, the OIG
                                                     Yet, despite these expressed concerns, the su-
obtained and reviewed security camera re-
                                                     pervisor did not take sufﬁcient steps to ensure
cordings and numerous relevant documents.
                                                     that the employee was acting appropriately.
The OIG also obtained from OIT and
searched the e-mails of ten individuals and
                                                         The OIG investigation also uncovered
obtained additional e-mails directly from cer-
                                                     problems with respect to the operation and
tain witnesses.
                                                     management of an ofﬁce overseen by the em-
                                                     ployee. The evidence showed that the supervi-
    The OIG investigation found evidence to
                                                     sor had assigned the employee responsibility
support virtually all of the allegations con-
                                                     over this particular ofﬁce and that the em-
tained in the anonymous complaint. The in-
                                                     ployee was the COTR for the contract of an
vestigation uncovered evidence that on many
                                                     individual who worked in this ofﬁce. The
occasions, the employee who was the subject
                                                     OIG investigation found evidence that the
of the complaint engaged in abusive and in-
                                                     employee and this contractor had a personal
timidating conduct towards contract staff, fre-
                                                     relationship that went beyond the “arms-
quently using profanities. The evidence also
                                                     length” relationship that is required between a
showed that the employee habitually made
                                                     COTR and a contractor. We found they ex-
comments that the contract staff perceived as
                                                     changed e-mails of a ﬂirtatious nature that
threats to their jobs and many of the contract
                                                     they both admitted were inappropriate for the

                                                  53

workplace, lunched together quite frequently         contract. In addition, we recommended that
and sometimes socialized outside of work.            a thorough review of the overall management
                                                     and structure of the headquarters branch be
    Based upon all of the evidence obtained,         conducted and that signiﬁcant changes be
the OIG investigation concluded that there           made, including, but not limited to, (1) institut-
was inadequate supervision of the employee           ing a strong and effective anti-retaliation pol-
and serious problems in the management of            icy and ensuring that no retaliation occurred
the applicable headquarters branch. While            as a result of the OIG investigation, (2) im-
the supervisor maintained to have an open            plementing a mechanism for making anony-
door policy and to talk frequently with the          mous complaints or suggestions to the branch
contract staff, the OIG obtained evidence that       supervisor, (3) instituting periodic meetings
he took a hands-off approach to management           between branch management and the con-
and, prior to learning of our investigation,         tractor onsite managers, and (4) developing
had little contact with the contract staff. We       and implementing written policies and proce-
also learned during the investigation that there     dures for management of the contract.
was a great emphasis placed on going through
the chain of command, which had the effect               In response to the OIG’s report, manage-
of discouraging complaints being brought di-         ment took no action against the employee
rectly to the supervisor’s attention. Moreover,      prior to his resignation and acceptance of
there was an expressed reluctance to escalate        other government employment, while the con-
incidents to the supervisor’s level.                 tractor was removed from her contract. As of
                                                     the end of the reporting period, corrective
     Finally, the OIG investigation found that       action regarding the OIG’s remaining rec-
the employee demonstrated a lack of candor           ommendations was pending.
in signiﬁcant aspects of his testimony before
the OIG. In particular, in the face of the           Abuse of Compensatory Time for
overwhelming evidence that the employee re-          Travel by a Headquarters Manager and
peatedly and frequently yelled and used pro-         Ineffective Supervision by
fanity towards contract staff, he denied ever        Management (Report No. OIG-538)
doing so. Further, the employee’s account of
                                                         The OIG opened an investigation on
the events of the particular day mentioned
                                                     August 19, 2009, after receiving an anony-
above was not credible and stood in stark con-
                                                     mous complaint, dated August 13, 2009, re-
trast to the evidence we obtained from the
                                                     garding a headquarters manager. The com-
contract staff, the contractor managers and
                                                     plaint alleged that the manager was regularly
the SEC COTR for the applicable contract.
                                                     leaving the ofﬁce 30 to 50 minutes early with-
                                                     out taking proper leave for the past six years,
    The OIG issued a comprehensive report
                                                     and may have also arrived late to work. The
of investigation to management on November
                                                     complaint added that the manager’s requests
10, 2010. Based upon the evidence obtained,
                                                     for travel expense reimbursement for cash ex-
the OIG recommended disciplinary action, up
                                                     penditures sometimes exceeded ofﬁcial ex-
to and including dismissal, for the employee
                                                     penses. The complaint also requested an
and disciplinary action, up to and including
                                                     audit of the manager’s requests for compensa-
removal from her contract, for the contractor.
                                                     tory time for travel.
We also recommended appropriate manage-
ment training for the supervisor and addi-
                                                         The OIG found in its investigation that
tional training in contract management and
                                                     the manager had been systematically request-
oversight for the COTR for the applicable
                                                     ing and receiving compensatory time for travel



                                                   54

well beyond his actual hours in travel status.          plinary action be taken against the manager,
In fact, during the 21-month period reviewed            (2) the manager pay back $5,274.74 in com-
by the OIG, the OIG found that the manager              pensatory travel time overages, $475.00 in un-
claimed and received 63.5 hours of compen-              justiﬁed telephone call reimbursements, and
satory time for travel in excess of what he was         $71.00 in excess M&IE, (3) the manager be
entitled to under SEC regulations, costing the          trained on SEC policies and rules concerning
government $5,274.74. In addition, the OIG              compensatory time for travel, and (4) the
found that the manager was overpaid for                 manager be required to either work his cur-
meals and incidental expenses (M&IE) on one             rently scheduled hours, taking leave when he
occasion in the amount of $71.00, and                   departs early, or request an alternate schedule.
claimed reimbursement for telephone calls               The OIG further recommended that the su-
during travel totaling $475.00, despite having          pervisor and senior supervisor receive man-
an SEC-issued BlackBerry® telephone.                    agement training. Finally, we recommended
                                                        that the Ethics Ofﬁce issue an SEC-wide
    All of these infractions happened despite           e-mail reminder concerning compensatory
the supposed oversight of management. The               time for travel, including speciﬁc information
OIG found that the supervisor approved all of           about using the mandatory “Worksheet for
the manager’s requests for compensatory time            Determining Amount of Compensatory Time
for travel without question, even though the            for Travel.”
supervisor knew the manager’s trips did not
take as long as he claimed. The OIG also                    As of the end of the reporting period, the
found that the supervisor did not require his           agency had issued a written reprimand to the
subordinates to submit the mandatory “Work-             manager and commenced efforts to recoup
sheet for Determining Amount of Compensa-               the excess compensatory time and improper
tory Time for Travel.” The OIG further                  reimbursements claimed. In addition, the
found that a senior supervisor approved the             Ethics Ofﬁce distributed the recommended
manager’s travel reimbursements, which in-              e-mail on February 28, 2011, and manage-
cluded telephone call reimbursements, despite           ment was in the process of scheduling the
knowing the manager had an SEC-issued                   suggested training.
BlackBerry® telephone.
                                                        Investigation Concerning the Role of
     In addition to compensatory time and               Political Appointees in the Freedom of
travel reimbursement issues, the OIG investi-           Information Act Process (Report No.
gation found that the manager was regularly             OIG-543)
leaving the ofﬁce early each day with his su-
                                                            On September 2, 2010, the OIG opened
pervisor’s knowledge and approval. Although
                                                        an investigation in response to an August 23,
the OIG concluded that the manager was
                                                        2010 letter from the Honorable Charles Gras-
working a full 8½ hour day, the OIG found
                                                        sley (R-Iowa) and the Honorable Darrell Issa
that the manager was not working his regu-
                                                        (R-California), requesting that OIG conduct
larly scheduled hours. In addition, the OIG
                                                        an inquiry into the SEC’s Ofﬁce of Freedom
found that the manager would sometimes
                                                        of Information Act Services (FOIA Ofﬁce) to
come in before 6:30 a.m., which is before the
                                                        determine whether, and if so, the extent to
SEC’s ﬂexible band of hours, and count that
                                                        which, political appointees are made aware of
time as hours worked, in violation of SEC pol-
                                                        information requests and have a role in re-
icy.
                                                        quest reviews or decision-making.
    The OIG issued its report of investigation
                                                            During the course of this investigation, the
to management on February 15, 2011. In its
                                                        OIG requested the e-mail records of employ-
report, the OIG recommended that (1) disci-
                                                        ees who may have sent, received, or been cop-

                                                  55

ied on e-mails relevant to this investigation.       of the regional ofﬁce staff attorney and con-
The OIG estimates that it obtained and               ducted a follow-up interview of him, (2) con-
searched over 137,000 e-mails during the             ducted telephone interviews of the FBI agent,
course of its investigation. The OIG also took       and (3) conducted a telephone interview of
the sworn testimony of 13 current SEC em-            the person to whom the SEC attorney alleg-
ployees, including seven employees of the            edly made the disclosure about the conﬁden-
FOIA Ofﬁce. In addition, the OIG obtained            tial informant. The OIG also reviewed sev-
and reviewed (1) documents describing the            eral documents provided by the FBI, including
process for responding to FOIA requests, (2) a       notes of a meeting with the attorney and a ﬁle
list of SEC FOIA liaisons, and (3) a list of all     memorandum prepared by the FBI agent re-
SEC political appointees.                            garding the improper disclosure. Finally, the
                                                     OIG reviewed the information from an inter-
    The OIG report of investigation, issued          nal database associated with the SEC investi-
on December 3, 2010, did not ﬁnd evidence            gation that is related to the FBI matter.
that political appointees at the SEC played an
improper role in the review of or response to            The OIG found that the staff attorney
FOIA requests for SEC records. The OIG               had disclosed to an investor and witness in the
investigation found that the SEC’s responses         matter: (1) the name of the conﬁdential in-
to requests for OIG reports by Members of            formant, (2) the fact that the informant was
Congress are subject to review and approval          cooperating with the FBI, and (3) the fact that
by the agency’s ﬁve Commissioners, who are           that the informant’s cooperation included se-
political appointees. We also found that the         cretly tape recording conversations with the
SEC attempts to provide the same response to         subjects of the FBI investigation. The OIG
FOIA requesters as that provided to Members          further found that the SEC staff attorney did
of Congress who request OIG reports. As a            so despite the fact that the FBI had given him
result, the Commission’s review process for          the recording with the express agreement that
requests for OIG reports by Members of               he not disclose the existence of the recording
Congress affects the responses to FOIA re-           or the informant’s status as a conﬁdential in-
quests for these same OIG reports. However,          formant. Even absent such an agreement, the
the OIG investigation did not ﬁnd that the           staff attorney acknowledged that such disclo-
limited role played by the Commissioners in          sure, which he denied making, was serious and
the process of responding to requests for OIG        improper.
reports by Members of Congress had a politi-
cal impact on the SEC’s response to these                The OIG issued its report of investigation
requests.                                            on February 7, 2011, and referred the matter
                                                     to management, recommending disciplinary
Unauthorized and Improper Disclosure                 action against the staff attorney. As of the
by a Regional Office Staff Attorney                  end of the reporting period, management had
(Report No. OIG-550)                                 not taken action in response to the OIG’s
                                                     recommendation.
    On October 26, 2010, the OIG opened an
investigation into a complaint it received from
                                                     Improper Access to SEC Facilities and
the FBI. An FBI agent alleged that an SEC            Computer Systems (Report No.
regional ofﬁce staff attorney had improperly         OIG-544)
disclosed information regarding a conﬁdential
informant who was assisting in an FBI investi-           The OIG opened this investigation on
gation.                                              June 9, 2010, based on a complaint from a
                                                     former headquarters contract employee. Spe-
    In conducting the investigation into this        ciﬁcally, the former contract employee alleged
allegation, the OIG (1) took sworn testimony         that when he began his tenure as a subcon-

                                                   56

tractor to an SEC contractor, he was improp-            to enter SEC computer systems and applica-
erly granted access to SEC buildings and                tions, in direct violation of OIT rules. While
computer systems, including sensitive internal          the SEC contractor denied sharing his pass-
databases containing nonpublic information,             word and identiﬁcation, he did admit to hav-
before having his background investigated and           ing a password like the one the former con-
being cleared and issued an ofﬁcial SEC                 tract employee remembered using to access
badge.                                                  SEC computer systems and having the former
                                                        contract employee standing at his computer
     In conducting its investigation into these         while he logged on. In addition, the former
allegations, the OIG interviewed the former             contract employee told the OIG, and the evi-
contract employee and requested documents               dence established that, he used his personal
and follow-up information from him, which               e-mail account to perform SEC work on his
he later provided. The OIG took the sworn               own laptop computer, also in direct violation
testimony of the COTR for the applicable                of OIT rules.
contract, a current SEC contract employee,
and a branch chief. In addition, the OIG ob-                In all, the OIG investigation revealed that
tained e-mails for relevant contract employees          it has been a practice in a headquarters ofﬁce
for the approximate dates of the former con-            to allow contractors to begin work at the SEC
tract employee’s tenure.                                before receiving a background investigation
                                                        clearance and being issued an ofﬁcial SEC
    The OIG investigation determined that               badge, in violation of federal security re-
the former contract employee, as well as other          quirements. Moreover, the evidence also es-
contractors, had been improperly granted ac-            tablished that these contractors were accessing
cess to SEC buildings and computer systems              the SEC computer systems and applications
in direct violation of security requirements            during that time. As a result, the OIG re-
applicable to federal employees and contrac-            ferred this matter to management for discipli-
tors. In fact, the investigation revealed that          nary action against the COTR, up to and in-
the former contract employee worked at the              cluding termination from federal service, and
SEC for several weeks before receiving a fa-            the contractor, up to and including removal
vorable suitability determination based upon            from the contract.
his background investigation and being issued
an ofﬁcial SEC badge.                                       Given the potentially detrimental conse-
                                                        quences of this practice in the headquarters
    The investigation further established that          ofﬁce, the OIG also speciﬁcally recommended
SEC ofﬁcials, including the COTR, were                  that (1) OHR take immediate measures to de-
aware of the former contract employee’s                 termine whether every employee and contrac-
pending suitability status. We found that the           tor in the headquarters ofﬁce has been prop-
COTR not only made no attempt to prevent                erly cleared by a background investigation
the former contract employee from working at            and issued an ofﬁcial SEC badge, (2) OHR
the SEC until his background investigation              issue written policy on proper issuance, and
was successfully completed, but purposely cir-          documentation of, visitor badges, speciﬁcally
cumvented proper security procedures to al-             noting that visitor badges cannot be issued in
low the former contract employee to enter an            lieu of, or while awaiting, the issuance of a
SEC building and conduct SEC work before                permanent ofﬁcial SEC badge, (3) the head-
he was granted an ofﬁcial SEC badge.                    quarters ofﬁce issue a directive ending its
                                                        practice of allowing contractors (or others) to
    In addition, the former contract employee           begin work of any kind before being cleared
told the OIG that he routinely used another             in a proper background investigation and be-
SEC contractor’s password and identiﬁcation             ing issued an ofﬁcial SEC badge, and (4) the

                                                  57

Commission take steps to deactivate ofﬁcial         threatened to jeopardize the ongoing investi-
SEC badges and terminate access to SEC              gation, but also misled several investors into
computer systems for terminated or separated        believing that the purported company was le-
employees and contractors.                          gitimate. Moreover, some or all of the inves-
                                                    tors knew that the employee worked at the
    The OIG issued its report of investigation      SEC and, therefore, believed incorrectly that
on January 20, 2011. As of the end of the           he had ﬁrst-hand knowledge of the SEC’s in-
reporting period, management had solicited          vestigation and that his representations were
comments from the OIG on new draft operat-          credible. After the regional ofﬁce senior ofﬁ-
ing procedures which address speciﬁc steps the      cial e-mailed the employee and inquired as to
headquarters ofﬁce should perform to ensure         whether he was communicating with investors
that SEC computer network and telephone             about the investigation, the employee was
accounts of SEC employees and contractors           placed on administrative leave.
are properly created, terminated, and trans-
ferred. No action had been taken on the                 During this investigation, the OIG ob-
OIG’s disciplinary recommendations as of the        tained and reviewed nearly 10,000 e-mails for
end of the reporting period.                        the relevant time period and took the em-
                                                    ployee’s sworn testimony. The OIG also re-
Unauthorized Disclosure of Nonpublic                ceived and reviewed a production of addi-
Information During an Active SEC                    tional supporting documentation from the re-
Investigation (Report No. OIG-558)                  gional ofﬁce, including investigative tran-
                                                    scripts, court documents, Internet postings,
    On February 7, 2011, the OIG opened an
                                                    and other relevant information.
investigation into allegations from a regional
ofﬁce senior ofﬁcial that an employee at SEC
                                                        The OIG found that the employee, by his
headquarters was providing false, misleading,
                                                    own admission, communicated with several
and nonpublic information to investors about
                                                    investors during the SEC’s investigation of,
an active enforcement investigation and litiga-
                                                    and litigation against, the purported company.
tion from as early as October 2010 to Febru-
                                                    In so doing, the employee shared nonpublic,
ary 2011. According to the regional ofﬁce
                                                    false, and misleading information with inves-
senior ofﬁcial, the headquarters employee re-
                                                    tors. As a result, the OIG found that his con-
peatedly told investors, of whom he was one,
                                                    duct not only confused certain investors and
that a particular investment company was le-
                                                    gave them a false sense of hope, but it also
gitimate and that these investors would be re-
                                                    had the potential to adversely affect an ongo-
ceiving considerable sums of money from
                                                    ing enforcement investigation.
their investments. The SEC, however, be-
lieved the company was actually a Ponzi
                                                         Based on the foregoing, the OIG issued its
scheme that targeted certain investors, and on
                                                    report of investigation on March 31, 2011,
October 6, 2010, the SEC ﬁled an action
                                                    and referred the matter for disciplinary action,
against the purported company in federal
                                                    up to and including dismissal from federal
court, obtaining an emergency asset freeze.
                                                    service. The OIG recommended further that
The SEC later was granted a default judg-
                                                    all staff in the employee’s ofﬁce (1) receive
ment against the purported company on Feb-
                                                    comprehensive instructions on what consti-
ruary 14, 2011, which included a permanent
                                                    tutes nonpublic information and the proper
injunction and an order for millions in dis-
                                                    way to handle such information, and (2) be
gorgement and prejudgment interest.
                                                    required to certify that they have successfully
                                                    completed training and understand the proper
   The regional ofﬁce senior ofﬁcial was con-
                                                    way to handle nonpublic information before
cerned that the employee’s actions not only
                                                    they are allowed access to such information.

                                                  58

Because the OIG’s report of investigation was            Allegation of Negligence in the
issued just prior to the end of the semiannual           Conduct of an Enforcement
reporting period, no action had yet been taken           Investigation (Report No. OIG-510)
by management with respect to the OIG’s
recommendations.                                             During the semiannual reporting period,
                                                         the OIG concluded an investigation into a
                                                         complaint received by a former attorney that
Improper Comments by a Regional
Office Senior Counsel and Alleged                        the Division of Enforcement (Enforcement)
Abuse of Leave by a Regional Office                      committed acts of negligence in conducting
Senior Counsel and Senior Official                       an initial insider trading investigation of a
(Report No. OIG-545)                                     hedge fund. The complaint was based upon
                                                         recently-discovered information showing that
    On September 20, 2010, the OIG opened                Enforcement had access to speciﬁc evidence
an investigation as a result of a September 17,          that insider trading had occurred prior to clos-
2010 complaint from a witness who was in-                ing its initial investigation.
volved in a civil action ﬁled by the SEC. The
witness alleged that an SEC regional ofﬁce                   The OIG took the sworn testimony of the
senior counsel had made a sexist remark to               complainant, two headquarters employees,
him at video deposition testimony. In addi-              and a regional ofﬁce employee. Further, the
tion, on November 2, 2010, the OIG received              OIG interviewed a former Assistant United
an anonymous complaint involving the same                States Attorney for the Southern District of
senior counsel. This complaint alleged that              New York, who conducted a parallel criminal
the senior counsel and another senior ofﬁcial            investigation during Enforcement’s initial in-
consistently arrived late to work, took long             vestigation. The OIG reviewed approxi-
lunches, and left early without taking leave.            mately 85,000 e-mails of current and former
                                                         SEC employees relevant to this matter. The
    During the course of this investigation, the         OIG also reviewed hundreds of other docu-
OIG took the sworn testimony of multiple                 ments related to this matter, including docu-
regional ofﬁce staff members, including senior           ments produced by Enforcement related to the
management. The OIG also reviewed e-mail                 investigations of the hedge fund and docu-
records and the video deposition.                        ments provided by the complainant.
    On February 4, 2011, the OIG issued its                  The OIG learned that on November 14,
report of investigation in this matter. The              2003, Enforcement opened an investigation of
OIG did not ﬁnd sufﬁcient evidence to sup-               the hedge fund regarding possible insider trad-
port the allegations against the senior ofﬁcial          ing in several different securities. In June
and the senior counsel regarding their work              2005, the complainant, who was then the
schedules. However, the OIG did ﬁnd that                 principal SEC staff attorney assigned to the
the senior counsel made an inappropriate re-             matter, met with his supervisors and presented
mark during a break in the video deposition,             a chronology of events related to the hedge
in violation of the Commission’s Conduct                 fund’s April 2001 trades in a security that the
Regulation and Canon of Ethics. In light of              staff attorney believed evidenced insider trad-
the foregoing, this matter was referred to               ing by the hedge fund in advance of a positive
management for disciplinary action. No ac-               earnings announcement.
tion had yet been taken by management with
respect to the OIG’s recommendation at the                  Enforcement removed the staff attorney
end of this semiannual reporting period.                 on September 1, 2005. On November 30,




                                                   59

2006, Enforcement closed the initial investiga-      investigation, uncovered a signiﬁcant body of
tion of the hedge fund without taking any ac-        evidence of insider trading by the hedge fund
tion, in part because it claimed that it had not     and others that the staff in the ﬁrst investiga-
found evidence that an employee who had ac-          tion possessed but was unaware of, or could
cepted a job with the hedge fund had ob-             have easily obtained. The OIG provided the
tained any inside information regarding an           speciﬁcs of its ﬁndings regarding the evidence
upcoming earnings announcement of his                uncovered by the regional ofﬁce and the re-
former employer.                                     mainder of its conclusions to senior SEC
                                                     management.
    New evidence regarding the hedge fund’s
trading that had occurred in April 2001              Allegations of Unauthorized Disclosure
emerged in December 2008 as a result of a            of Nonpublic Information (Report Nos.
recent divorce proceeding. On December 16,           OIG-542, OIG-551, and OIG-552)
2008, Enforcement opened a new investiga-
tion of possible insider trading by the same             The OIG received two outside complaints
hedge fund in response to the new informa-           and one internal SEC referral in April,
tion. In January 2009, the second hedge fund         August, and October 2010, each alleging un-
investigation was transferred from SEC head-         authorized disclosures of nonpublic informa-
quarters to an SEC regional ofﬁce.                   tion to the media by SEC staff during active
                                                     enforcement investigations. The ﬁrst com-
     On May 27, 2010, the SEC announced a            plaint involved unauthorized disclosures of
settled civil enforcement action against the         nonpublic information during the investiga-
hedge fund and its Chief Executive Ofﬁcer            tion and litigation stages of a high-proﬁle in-
(CEO) in connection with insider trading.            sider trading case, and speciﬁcally alleged that
The SEC’s action was predicated on the alle-         SEC staff anonymously leaked detailed in-
gation that the hedge fund employee had pro-         formation about the SEC’s investigation, in-
vided the CEO with inside information that           cluding the identities of alleged co-
he had obtained from an employee of his              conspirators, to the media. The second com-
former employer.                                     plaint made similar allegations of leaks by
                                                     SEC staff during the late stages of settlement
     On January 5, 2011, the OIG issued its          negotiations with a hedge fund, speciﬁcally
report of investigation in this matter, ﬁnding       alleging that one or more SEC staff members
that Enforcement staff who conducted the             improperly disclosed to a reporter nonpublic
ﬁrst investigation did pursue evidence of in-        information regarding an investigation of the
sider trading. However, the staff believed           company, including information as speciﬁc as
there was insufﬁcient evidence to support an         the proposed settlement amount. The third
action without being able to identify the            complaint was an internal referral from man-
source of the inside information. The new            agement in an SEC regional ofﬁce, requesting
information that was discovered during the           that the OIG investigate an allegation that
divorce proceeding provided that evidence.           SEC staff provided information to a reporter
The OIG found that Enforcement staff con-            about a proposed deﬁciency letter that was
ducting the ﬁrst investigation had issued a          drafted but never sent to a hedge fund. After
subpoena that encompassed the evidence, but          careful review, the OIG opened investigations
that this evidence was not produced to the           into each of the aforementioned complaints
staff.                                               and referral to determine whether SEC staff
                                                     had made unauthorized disclosures of non-
   Apart from the new evidence, the OIG              public information.
found that the SEC regional ofﬁce, in con-
ducting its own independent and thorough               In its investigation of these allegations, the
                                                     OIG obtained and reviewed over 750,000

                                                   60

e-mails and supporting documents from over                   On March 30, 2011, the OIG issued its
15 current and former SEC employees in both             report of investigation in these matters, rec-
SEC headquarters and regional ofﬁces. The               ommending that the SEC, in the most eco-
OIG also reviewed additional supporting ma-             nomically efﬁcient manner possible, employ
terials including, but not limited to, internal         technology that will enable the agency to bet-
memoranda and numerous press articles. The              ter track employees’ communications. Be-
OIG requested and obtained BlackBerry®                  cause the report of investigation was issued
telephone records from the SEC, issued sev-             just prior to the end of the semiannual report-
eral subpoenas to major cellular phone service          ing period, no action had yet been taken by
carriers after obtaining employee consent, and          management with respect to the OIG’s
took sworn testimony from several current and           recommendation.
former SEC employees.
                                                        Allegation of Illegal and Unauthorized
     The OIG found that, with respect to the            Disclosure of Employment Status by
allegations of the deﬁciency letter leak, the           Regional Office Senior Official (Report
letter, and details regarding the letter, were          No. OIG-549)
leaked to the press and that the source must
                                                            On March 10, 2010, the OIG opened this
have been someone at the SEC who believed
                                                        investigation after receiving a complaint from
incorrectly that the letter had been issued to
                                                        a former SEC attorney who was terminated
the registrant when, in fact, it had not been
                                                        from employment with a regional ofﬁce in
issued. However, the OIG found no evidence
                                                        2009. The former SEC attorney alleged that
in the e-mails reviewed or witness interviews
                                                        the senior ofﬁcial disclosed his employment
conducted to identify the source of the leaked
                                                        “status” to others outside the agency, that the
information.
                                                        disclosure damaged his reputation and had an
                                                        adverse impact on his ability to respond to the
    With respect to the allegations regarding
                                                        SEC’s notice of proposed termination, and
the leak of the proposed settlement with the
                                                        that this disclosure also constituted a violation
hedge fund, the OIG again found that there
                                                        of the Privacy Act of 1974 (Privacy Act).
was a leak of nonpublic information to the
media and that the source of this leak must
                                                            During the course of this investigation, the
have been someone within the SEC. The
                                                        OIG took the sworn testimony of the former
OIG found, however, no evidence in the
                                                        SEC attorney, the relevant regional ofﬁce sen-
e-mails reviewed or witness interviews con-
                                                        ior ofﬁcial, and the outside party to whom the
ducted to identify the source of the leak. The
                                                        disclosure was allegedly made. In addition,
OIG also found that the leak may have come
                                                        the OIG obtained and reviewed relevant
from someone within the SEC who was not
                                                        e-mail records and the former SEC attorney’s
directly involved with either the investigation
                                                        electronic ofﬁcial personnel folder.
or settlement.
                                                            The OIG found that after the former at-
    With respect to the insider trading matter,
                                                        torney ﬁled a complaint against the regional
the OIG found that nonpublic information
                                                        ofﬁce senior ofﬁcial with the SEC’s Chief
about the insider trading case was leaked to
                                                        Freedom of Information Act and Privacy Act
the media, but found no evidence that the
                                                        Ofﬁcer (Privacy Act Ofﬁcer), the Privacy Act
source of the leaks was an SEC employee.
                                                        Ofﬁcer reviewed the former SEC attorney’s
The OIG found it equally likely that the
                                                        claim and responded that he could not deter-
source of the leaks was someone outside the
                                                        mine whether the alleged disclosure consti-
SEC.
                                                        tuted a Privacy Act violation because it was
                                                        “not clear that whatever information may


                                                  61

have been disclosed was from a system of re-               The OIG also obtained numerous evidentiary
cords covered by the Privacy Act.” The OIG                 documents related to the case from the SEC
investigation further revealed that the regional           employee whose checks had been stolen.
ofﬁce senior ofﬁcial did disclose to an outside
party, who was a friend of the former SEC                      The OIG learned that in or about July
attorney, that the regional ofﬁce would be ask-            2010, an OIT contractor upgraded the vic-
ing the former SEC attorney to leave the                   timized SEC employee’s computer. The em-
SEC, but gave no details regarding the pro-                ployee stated that his checkbook was on his
posed termination. The OIG also found that                 desk when he left his ofﬁce while his computer
the outside party later learned details about              was being upgraded. According to the em-
the termination from the former SEC attor-                 ployee, an unauthorized debit payment was
ney himself. Moreover, the OIG determined                  made from his bank account to a utilities
that the former SEC attorney’s friend, to                  company in August 2010. The OIG learned
whom the disclosure was made, still held him               that the utilities company account on which
in high professional regard after the disclosure.          the payment was made belonged to a then-
                                                           SEC contractor. The employee further stated
    The OIG concluded that the disclosure of               that two other unauthorized payments were
the termination to an outside party, albeit                made from his bank account in September
well-intentioned, may have been in violation               2010.
of the agency’s general policy against “pub-
lish[ing] or mak[ing] available to any person                   The OIG discovered during the course of
matters that are . . . related solely to the . . .         its investigation that the subject SEC contrac-
termination . . . of any Commission em-                    tor was terminated from the SEC’s contract in
ployee.” However, a deﬁnitive determination                September 2010, for “unreliable attendance.”
of whether the regional ofﬁce senior ofﬁcial               On October 28, 2010, at the MPD detective’s
violated the Privacy Act is a matter that is ap-           request, the OIG faxed to the detective the
propriately within the purview of the Privacy              former SEC contractor’s contact information
Act Ofﬁcer.                                                and a copy of the stolen check.

    The OIG issued its report of investigation                  On November 17, 2010, the OIG issued
to management on March 2, 2011. The re-                    its report of investigation in this matter, ﬁnd-
port was also referred back to the Privacy Act             ing that the evidence showed that the former
Ofﬁcer for a determination, based on the full              SEC contractor had stolen a checkbook from
evidentiary record developed by the OIG, of                an SEC employee and forged the employee’s
whether the disclosure violated the Privacy                signature to cash a check and pay his personal
Act.                                                       bills. Because the subject SEC contractor had
                                                           already been removed from his contract posi-
Theft by a Headquarters Contractor                         tion at the SEC, the OIG referred its report to
(Report No. OIG-548)                                       management for informational purposes. The
                                                           OIG also followed up with the MPD with re-
    On October 4, 2010, OIG opened an in-                  spect to the potential arrest and conviction of
vestigation as a result of information that an             the subject based on D.C. Code theft and
employee had personal checks stolen from his               fraud charges.
ofﬁce. The OIG contacted the Washington,
D.C. Metropolitan Police Department (MPD)                  Investigation into Unauthorized
the same day and conducted a joint interview               Disclosure of Nonpublic Information
of the SEC employee with MPD Ofﬁcers.                      (Report No. OIG-546)
During the course of the investigation, the
OIG communicated with an MPD Check and                         In 2010, the OIG conducted an investiga-
Fraud Unit detective on multiple occasions.                tion, OIG-534, into allegations of improper

                                                     62

coordination between the SEC and other gov-             SEC computers that were blocked by the
ernmental entities concerning the SEC’s en-             agency’s Internet ﬁlter, as well as instances
forcement action against Goldman Sachs &                where they successfully accessed pornography
Co. (Goldman). In the course of OIG-534,                or inappropriate material. Depending on the
the OIG found e-mails suggesting that an SK-            frequency of the accesses and attempted ac-
16 headquarters attorney had shared nonpub-             cesses and the nature of the materials ac-
lic information concerning Enforcement’s in-            cessed, the OIG conducted a full investigation
vestigation of Goldman with a friend outside            or a more limited inquiry as discussed below.
the agency. After the conclusion of OIG-534,
the OIG opened this investigation on October                Beginning on October 4, 2010, the OIG
4, 2010, to further analyze whether the attor-          conducted an investigation (OIG-547) into
ney had improperly shared nonpublic infor-              information showing that an SK-14 staff ac-
mation with anyone outside the SEC.                     countant at SEC headquarters had used his
                                                        SEC-assigned computer hundreds of times
    The OIG searched the e-mails of employ-             attempting to access Internet pornography
ees who may have sent, received, or been cop-           resulting in access denials. The information
ied on e-mails relevant to the current investi-         obtained from OIT also showed that the staff
gation for the pertinent time period. The               accountant successfully accessed numerous
OIG also reviewed the portions of the tran-             sexually-explicit photographs from his SEC
script of the attorney’s testimony taken during         computer, including graphic depictions of
OIG-534 that addressed his communications               sexual acts. Many of these sexually-explicit
with his friend. In addition, the OIG inter-            photographs were accessed during normal
viewed the attorney’s friend and reviewed a             SEC work hours.
declaration he provided concerning his com-
munications with the attorney.                              The OIG had scheduled the sworn testi-
                                                        mony of the staff accountant during the
    The OIG issued its report of investigation          course of the investigation. When initially
to management on December 17, 2010. Al-                 contacted by the OIG, the staff accountant
though the OIG investigation found that the             did not deny that he had viewed inappropriate
attorney had shared with his friend informa-            material on his work computer, but asked the
tion that the SEC would make two an-                    OIG to keep in mind that he reviewed the
nouncements on April 16, 2010, that might               websites of private companies in connection
have signiﬁcant but opposite effects on the             with his Commission work. Prior to the date
SEC’s image, the OIG investigation did not              of the scheduled testimony, the staff account-
ﬁnd sufﬁcient evidence to conclude that the             ant’s union representative informed the OIG
attorney had shared any detailed nonpublic              that the staff accountant was asserting his
information with his friend or anyone else out-         Fifth Amendment privilege against self-
side the SEC.                                           incrimination and was declining to testify in
                                                        the OIG’s investigation.
Misuse of Computer Resources and
Official Time to View Pornography                           The OIG issued a report of investigation
(Report No. OIG-547 and PIs 11-05,                      to management on October 22, 2010, detail-
11-06, and 11-07)                                       ing the results of the investigation and ﬁnding
    During this semiannual reporting period,            that the staff accountant’s inappropriate use of
the OIG continued to receive from the OIT               the Internet violated Commission policies and
Information Security Group lists of SEC em-             rules, as well as the government-wide stan-
ployees or contractors who had numerous at-             dards of ethical conduct. The OIG referred
tempts to access pornographic websites from             the matter to management for disciplinary


                                                  63

action against the staff accountant, up to and       OIG report was instead provided to manage-
including removal from federal service. As of        ment for informational purposes.
the end of the reporting period, management
had proposed the staff accountant’s removal.              In a second matter involving another SK-
                                                     14 headquarters attorney, the evidence
    The OIG also conducted inquiries during          showed that this attorney (PI 11-07), while us-
the reporting period into the misuse of SEC          ing his SEC computer, had also received hun-
computer resources to view pornography by            dreds of access request denials for websites
two SEC employees and one contractor. In             classiﬁed as pornography during a two-month
each of these matters, the OIG reviewed and          period. A review of the information provided
analyzed the data provided by OIT, including         by the OIT Security Group further revealed
forensic analysis reports, and records reﬂecting     numerous instances, over a prolonged period
the individuals’ completion of information           of time, in which the attorney successfully ac-
technology security awareness training, which        cessed, using his SEC-assigned computer, in-
included speciﬁc information on the SEC’s            appropriate images of partially or fully nude
rules pertaining to appropriate use of agency        women. Speciﬁcally, the evidence showed that
computing and network facilities.                    during the limited time periods examined, the
                                                     employee had accessed from his SEC-assigned
    In one matter involving an SK-14 head-           computer approximately 70 images of par-
quarters attorney (PI 11-05), the evidence           tially or fully nude women. The OIG at-
showed that the attorney, while using his SEC        tempted to schedule the attorney’s testimony
computer, had received hundreds of access            during the course of the investigation. How-
request denials for websites classiﬁed as por-       ever, the attorney’s union representative noti-
nography during a two-month period. A re-            ﬁed the OIG that the attorney was declining
view of the information provided by the OIT          to testify before the OIG concerning alleged
Security Group also revealed many instances          inappropriate computer use.
in which the attorney had successfully ac-
cessed pornographic and sexually-explicit                The OIG issued a memorandum report to
websites from his SEC-assigned computer.             management in this matter on January 13,
The OIT Security Group’s analysis of Inter-          2011. The OIG found that the evidence re-
net logs also showed that the attorney had per-      viewed established that the attorney’s inap-
formed searches for pornographic material,           propriate use of the Internet violated Com-
and that much of the inappropriate activity          mission policies and rules, as well as the
occurred during normal SEC work hours.               government-wide standards of ethical con-
                                                     duct. The OIG referred the matter to man-
     During its inquiry, the OIG scheduled the       agement for disciplinary action, up to and in-
attorney’s sworn testimony but, before that          cluding removal. Subsequent to the issuance
testimony took place, the attorney notiﬁed the       of the OIG’s report, the OIG received from
OIG that he was resigning from the SEC. As           OIT additional evidence showing that the at-
a consequence, the OIG did not proceed with          torney had accessed from his SEC-assigned
the attorney’s testimony and issued a memo-          computer numerous additional images of
randum report to management on January 11,           nude women at periods of time other than
2011. In that report, the OIG indicated that         those examined in the OIG’s initial inquiry,
based upon the evidence obtained during the          and forwarded this information to manage-
inquiry, the OIG would have referred the at-         ment. As of the end of the reporting period,
torney for disciplinary action, up to and in-        management had proposed the employee’s
cluding removal. In light of the attorney’s          removal from federal service.
then-impending resignation, however, the


                                                   64

     In a third matter involving an SEC con-             cial, during part of the time period in which
tractor (PI 11-06), the evidence showed that             the regional ofﬁce investigated a publicly-
the contractor had accessed numerous                     traded company, participated in an independ-
sexually-explicit images from his SEC-                   ent investigation of the company after he had
assigned computer, including graphic depic-              left the SEC for private practice.
tions of sexual acts. The OIG took the sworn
testimony of the contractor to inquire about                 In the course of this inquiry, the OIG
his Internet use. During that testimony, the             searched multiple internal SEC databases for
contractor admitted that he accessed porno-              relevant records concerning all SEC investiga-
graphic images during work hours from his                tions of the company, and reviewed relevant
SEC-assigned computer, stating that he had               records for the regional ofﬁce’s investigations
been doing so for about a year or a year and a           of the company. The OIG obtained several
half. Upon being shown particular images                 nonpublic internal memoranda relating to the
found on the hard drive of his SEC computer              regional ofﬁce’s investigations of the company.
that depicted nude women and a variety of                We also searched the e-mails of several cur-
sexual acts, the contractor admitted he had              rent regional ofﬁce employees who may have
accessed these images. The contractor further            sent, received, or been copied on e-mails rele-
admitted in his testimony that he was aware of           vant to this inquiry for the pertinent time
the prohibition on viewing pornographic or               period.
sexually-explicit images from SEC computers,
had taken the required information technol-                  Further, we interviewed two senior head-
ogy security awareness training courses, and             quarters ofﬁcials to obtain their specialized
had received notices informing users of SEC              knowledge of the circumstances surrounding
computing systems that it was inappropriate to           the allegation. Speciﬁcally, the OIG inter-
view Internet pornography from work com-                 viewed the SEC Ethics Counsel in order to
puters.                                                  obtain her opinion as to whether the facts
                                                         found by the OIG in this inquiry potentially
     The OIG issued a memorandum report to               violated any ethics statutes, regulations, or
management in this matter on January 6,                  rules. The OIG also interviewed the SEC
2011, ﬁnding that the contractor’s inappropri-           Secretary to verify whether the Ofﬁce of the
ate use of the Internet violated Commission              Secretary’s records reﬂected any letters sent
policies and rules. The OIG referred the mat-            from the former senior ofﬁcial concerning the
ter for disciplinary action, up to and including         company in 2005, 2006, or 2007, pursuant to
removal from the contract. In response to the            the Commission’s Conduct Regulation.
OIG’s report, management had the contractor
escorted from the building and removed from                  The OIG found that the former senior
the SEC contract.                                        ofﬁcial made a communication or appearance
                                                         before an employee of the SEC in connection
Other Inquiries Conducted                                with his representation of the company’s audit
                                                         committee and the SEC’s options backdating
  Failure to Submit a Conflict-of-                       investigation of the company. However, the
  Interest Letter by Former Regional                     SEC investigation of the company’s options
  Office Senior Official (PI 10-38)                      backdating appeared to deal with a sufﬁciently
    The OIG opened this preliminary inquiry              different set of issues and facts from the earlier
on May 6, 2010, after an interview with an               SEC investigation of the company’s revenue
individual who requested conﬁdential infor-              recognition practices so as not to be consid-
mant status. This conﬁdential informant al-              ered one “particular matter” for purposes of a
leged that a former regional ofﬁce senior ofﬁ-           federal conﬂict-of-interest statute.


                                                   65

    The OIG did ﬁnd, however, that the for-         the SEC network for a period of almost a
mer senior ofﬁcial violated a provision of the      year.
Commission’s Conduct Regulation by com-
municating with regional ofﬁce employees in              The OIG inquiry found that for the pe-
connection with his representation of the           riod of time examined, there was a pattern of
company’s audit committee within two years          little or no access to the SEC server from the
of his departure from the SEC without ﬁling a       employee’s remote computer during the ma-
statement with the SEC Secretary, as required       jority of the 44 days that she allegedly tele-
by the Conduct Regulation.                          worked, despite the fact that the employee re-
                                                    quired access to a computer to perform her
    On December 21, 2010, based upon the            job duties. Our inquiry also revealed that the
foregoing, the OIG referred the matter to the       employee had improperly coded time and at-
Commission’s Ethics Counsel for considera-          tendance work hours on numerous occasions.
tion as a supplement to a previous referral
concerning this former senior ofﬁcial to the             We further concluded that the employee’s
Bar Counsel ofﬁces in two jurisdictions. In         supervisor did not adequately monitor the
addition, the OIG referred the matter to the        time and attendance submissions or telework
SEC General Counsel for consideration of            activity. We also determined that the supervi-
whether to recommend that the former senior         sor acknowledged that employees are required
ofﬁcial be denied the privilege of appearing or     to code telework hour entries distinctly from
practicing before the Commission as a result        regular in-ofﬁce work hours in the time and
of: (1) the former senior ofﬁcial’s apparent        attendance system used by the SEC, and that
violation of the SEC’s Conduct Regulation;          he speciﬁcally asked this employee to be care-
and (2) the senior ofﬁcial’s apparent violation     ful to code her time accurately. However, we
of the Rules of Professional Conduct of two         found that the supervisor did not sufﬁciently
jurisdictions, as was found in a previous OIG       follow up with the employee even after she
investigation.                                      made numerous errors when coding her time.

  Falsification of Time and Attendance                  On December 23, 2010, the OIG issued a
  Records, Abuse of Telework and                    memorandum report and referred the matter
  Lack of Supervisory Review                        to management for consideration of discipli-
  (PI 10-05)                                        nary or other management-based action
    The OIG opened this inquiry upon re-            against the subject employee and her supervi-
ceipt of an anonymous complaint alleging            sor. We also recommended that the em-
that a regional ofﬁce staff member had regu-        ployee’s existing leave balance be adjusted to
larly falsiﬁed her time and attendance records      appropriately record the time she worked in
to indicate excess work hours, and was not          accordance with the ﬁndings in the report.
actually teleworking during the hours that she
claimed telework in her time and attendance            Based on the OIG’s referral, the SEC pro-
submissions.                                        posed a suspension from federal service for the
                                                    employee, while no action had yet been taken
    The OIG took sworn testimony of the             regarding the supervisor at the end of the re-
subject employee as well as her supervisor. We      porting period.
also examined the subject employee’s current
position description, e-mail records, building          Improper Travel Expenditures and
                                                        Lack of Supervisory Review
entry logs, personnel records, time and atten-          (PI 09-113)
dance records, and telework-related documen-
tation. We also received and analyzed records           The OIG opened this inquiry after receiv-
of the employee’s remote computer access to         ing an anonymous complaint alleging that

                                                  66

four unnamed regional ofﬁce staff members               these excesses were exacerbated by poor re-
received reimbursement for lodging and per              ceipt recordkeeping. Moreover, the OIG con-
diem to which they were not entitled in con-            cluded that this SEC employee improperly
nection with ofﬁcial travel to Washington,              charged the government for a baggage fee as-
D.C., in August 2009. The complaint asserted            sessed due to personal purchases made while
that the subject staff should not have been             in Washington, D.C. Finally, we concluded
paid during the period between training con-            that the manager’s supervisors did not prop-
ferences held at SEC headquarters over two              erly review these excessive expenses prior to
concurrent weeks. Speciﬁcally, the complaint            approving them for reimbursement.
alleged that the cost to stay in Washington,
D.C., between conferences exceeded the cost                  The OIG issued its memorandum report
of travel back and forth from the staff ’s home         to management on November 23, 2010, rec-
ofﬁce to Washington, D.C., to attend the con-           ommending disciplinary and/or management
ferences. The complaint also claimed that               action against the two managers. Addition-
these employees inappropriately claimed tele-           ally, the OIG recommended that (1) the travel
work during the period they were away from              expense overpayments be repaid to the gov-
their permanent duty stations. Based upon a             ernment, (2) the managers and their supervi-
review of applicable training and travel re-            sors receive training on the FTR and SEC
cords, we determined that two regional ofﬁce            travel policies, and (3) the agency establish a
managers had been reimbursed for travel ex-             policy regarding when to consider the use of a
penses for the days between the two training            privately owned vehicle for ofﬁcial travel. As
sessions.                                               of the end of the reporting period, the agency
                                                        determined that both managers should repay
    In the course of this inquiry, the OIG ob-          to the government a portion of the identiﬁed
tained and reviewed the pertinent ofﬁcial               excess reimbursements, but decided not to
travel authorization and expense documents.             take any disciplinary action against them.
The OIG took sworn testimony of the two                 Corrective action regarding the OIG’s policy
regional ofﬁce managers and also interviewed            recommendation was pending.
their respective supervisors. We obtained and
reviewed e-mails and SEC headquarters                     Disclosure of Nonpublic Personnel
building entry and exit logs for the two re-              Information and Lack of Candor at
gional ofﬁce managers for the pertinent period            Headquarters (PI 11-18)
of time. We also researched typical travel
costs associated with travel to and around                  On January 19, 2011, the OIG opened an
Washington, D.C.                                        inquiry as a result of information received
                                                        from a headquarters employee. The com-
    The OIG inquiry found that the two re-              plainant alleged that an employee in her ofﬁce
gional ofﬁce managers submitted improper                had divulged nonpublic information about the
travel expenses in connection with their ofﬁ-           complainant’s disability to an SEC coworker.
cial travel to Washington, D.C. Speciﬁcally,
one manager’s selection of privately owned                  The OIG took the sworn testimony of
vehicle transportation was inappropriate be-            multiple witnesses and reviewed numerous
cause the excess costs to the SEC were not              e-mails. Several SEC employees gave consis-
justiﬁable under the Federal Travel Regulation          tent testimony that the subject employee
(FTR). We also concluded that this traveler’s           communicated with a coworker about the
supervisor insufﬁciently reviewed and improp-           complainant having been hired under an
erly authorized this costly expenditure. The            authority used for applicants with disabilities
OIG further found that the other manager’s              and that he did not believe she had a valid
taxicab fare receipts were likely inﬂated, and          disability. Such testimony was also corrobo-


                                                  67

rated by a contemporaneous memorandum               addition, the OIG reviewed the former em-
and e-mails. The subject employee claimed in        ployee’s e-mail records and obtained copies of
his sworn testimony that he never said any-         invoices from clothing merchant suppliers.
thing to the coworker about the complainant’s       Further, the OIG subpoenaed and reviewed
disability.                                         the SRWA’s bank statements and other docu-
                                                    ments.
    Although the OIG did not uncover con-
clusive evidence of how the subject employee            In his testimony before the OIG, the for-
learned nonpublic information regarding the         mer employee stated that he worked in the
complainant’s disability, the OIG found that        SRWA store and was in charge of buying
there was substantial evidence that the subject     merchandise. He further stated that he was
did know and reveal nonpublic personnel in-         owed the money in question because he had
formation to another SEC employee. The              used his personal credit card to purchase mer-
OIG investigation further found that the sub-       chandise from a vendor on the SRWA’s behalf.
ject provided false statements and lacked can-      Therefore, before he left the SEC, he wrote a
dor in numerous aspects of his sworn testi-         check from the SRWA account to himself.
mony before the OIG.                                The OIG determined that between 2006 and
                                                    2010, the former employee used his personal
    Accordingly, the OIG found that the sub-        credit cards to purchase over $128,700 of
ject violated a criminal statute by knowingly       SRWA store merchandise, and used the
and willfully making a material false statement     SRWA checking account to reimburse himself.
under oath in an ofﬁcial federal inquiry or in-     The OIG found that the credit cards the for-
vestigation, and lacked candor in his testi-        mer employee used for SRWA activities pro-
mony before the OIG.                                vided cash back rewards, and he admitted re-
                                                    ceiving rewards points or cash back for pur-
    In light of the foregoing, on February 11,      chases he made for the SRWA store.
2011, the OIG referred this matter to man-
agement for disciplinary action, up to and in-          Based on the evidence reviewed in this in-
cluding dismissal. We also referred the matter      quiry, the OIG concluded that the former
to the DOJ, which declined prosecution. As of       SEC employee improperly wrote a check to
the end of the reporting period, management         himself using the SRWA account as reim-
had placed the employee on administrative           bursement for the purchases he made on be-
leave and proposed his removal from federal         half of the SRWA store, and that he also im-
service.                                            properly received personal beneﬁts from the
                                                    use of his credit card for SRWA purchases.
  Allegation of Misappropriation of                 The OIG referred the receipt of personal
  Funds from the SEC Recreation and                 beneﬁts to the DOJ, which declined prosecu-
  Welfare Association (PI 10-50)                    tion.
     On June 16, 2010, the OIG received a let-
                                                        The OIG further found that there was a
ter from an SEC headquarters employee, al-
                                                    lack of effective oversight of the SRWA and
leging that a former headquarters employee,
                                                    that no procedures or regulations had been
who had been involved with the SEC’s Rec-
                                                    established concerning the SRWA’s operations
reation and Welfare Association (SRWA) store,
                                                    or the SEC’s oversight of those operations.
cashed an SRWA check for several thousand
                                                    Therefore, the OIG recommended that OHR
dollars just one day prior to his leaving the
                                                    establish and implement bylaws for the SRWA
SEC. In conducting this inquiry, the OIG
                                                    and effectively oversee the operation of the
took the former employee’s sworn testimony
                                                    SRWA, which would include a ﬁnancial con-
and interviewed a senior OHR ofﬁcial. In
                                                    trol system for the SRWA.

                                                  68

    The OIG issued its memorandum report                 information for improper purposes, we did
to management on December 16, 2010, for                  ﬁnd that the ﬁrst attorney could have exer-
review and implementation of our recom-                  cised more caution in undertaking such a
mendations, which remained pending as of                 conﬁdential search.
the end of the reporting period.
                                                             Based on our ﬁndings, the OIG issued a
  Inappropriate Use of a Commission                      memorandum report on March 4, 2011, rec-
  Database by a Headquarters                             ommending that management consider coun-
  Attorney (PI 10-62)                                    seling and/or training for the ﬁrst attorney.
                                                         Because the OIG’s memorandum report was
    The OIG opened this inquiry on July 19,
                                                         issued just prior to the end of the semiannual
2010, based on evidence found in a previous
                                                         reporting period, no action had yet been taken
OIG investigation. We conducted this inquiry
                                                         by management with respect to the OIG’s
to determine whether a headquarters attorney
                                                         recommendation.
improperly sent nonpublic information ob-
tained from a Commission database to an-
                                                           Allegation of Conflicts of Interest by
other SEC attorney. The OIG found in a                     Former Regional Office Senior
prior investigation that the second attorney               Attorney (PI 10-53)
received this nonpublic information about a
party with whom he was personally con-                       The OIG opened this preliminary inquiry
nected, in violation of SEC policy. Based on             on June 25, 2010, in response to information
the OIG’s prior report of investigation in that          contained in an anonymous complaint. The
matter, the second attorney was terminated               complaint alleged that shortly after a senior
for this and other violations of applicable              attorney left the SEC, he began representing a
policies and rules.                                      defendant in a matter that was under SEC
                                                         investigation while the senior attorney was
    In the course of this inquiry, the OIG ob-           employed at the SEC. In addition, the com-
tained and reviewed the ﬁrst attorney’s inter-           plainant alleged a conﬂict of interest arising
nal SEC database usage history and e-mail                from the fact that the former senior attorney
records for the pertinent time period. We also           and another SEC attorney were named as de-
took the ﬁrst attorney’s sworn testimony and             fendants in a civil action unrelated to the case
reviewed the transcript of the sworn testimony           in question.
of the second attorney, which had been taken
in the previous OIG investigation.                           The OIG reviewed and analyzed the ap-
                                                         plicable statutory, regulatory, and state bar
    As a result of this inquiry into the actions         rule provisions, as well as SEC Ethics Ofﬁce
of the ﬁrst attorney, the OIG found that he              guidance relevant to post-employment repre-
accessed nonpublic information from a secure             sentation. We reviewed SEC databases that
database at the request of the second attorney,          identify and track complaints and investiga-
who claimed that the information was for ofﬁ-            tions, and obtained copies of SEC Orders and
cial SEC business. We further found that the             Litigation Releases in the relevant cases. We
ﬁrst attorney provided this nonpublic informa-           further contacted the SEC’s Ethics Counsel
tion to the second attorney, even though they            and obtained a copy of a notice of representa-
had not worked on any matters together and               tion submitted by the former senior attorney.
the ﬁrst attorney did not ask any speciﬁc ques-          We also interviewed three current SEC attor-
tions about the matter to which the informa-             neys, who were familiar with the investigation
tion pertained. While we did not ﬁnd evi-                and litigation in question.
dence that the ﬁrst attorney had any knowl-
edge that the second attorney was seeking this


                                                   69

     Our inquiry found that prior to undertak-           role in awarding SEC contracts to that com-
ing representation of the defendant, the for-            pany.
mer senior attorney had ﬁled the necessary
notice of representation with the SEC pursu-                 The OIG’s inquiry found no evidence of a
ant to Commission rules, and that his request            personal relationship between the manager
for clearance to represent the defendant was             and ofﬁcials for the outside company. The
approved. We found no evidence that he had               manager testiﬁed that he became familiar with
participated personally and substantially in, or         the company only through his work at the
had any ofﬁcial responsibility for, the related          SEC. Our e-mail review also disclosed no
investigation while he was at the SEC. We                evidence of a personal relationship between
also found that the former senior attorney was           the manager and the company executive iden-
not subject to the one-year restriction on               tiﬁed in the complaint. In fact, the e-mails
communicating with or appearing before the               reviewed showed that the manager had de-
agency because the SEC had requested and                 clined a lunch invitation from the executive,
obtained an exemption from the one-year re-              indicating that he refrained from having lunch
striction for senior SK-level SEC personnel,             with vendors as a matter of policy to avoid
and this exemption covered the former SEC                creating any improper impression.
attorney.
                                                             The inquiry also did not ﬁnd evidence that
    Finally, we found that the complainant’s             the manager improperly steered business to
allegation of a conﬂict of interest arising from         the company. We did learn during our in-
the fact that the former senior attorney and             quiry that the manager had recused himself
another SEC attorney were named as defen-                from the speciﬁc selection process for an SEC
dants in a civil action unrelated to the case in         blanket purchase agreement for reasons unre-
question was not substantiated. Accordingly,             lated to the company mentioned in the com-
our inquiry found insufﬁcient evidence of                plaint, but that he did not seek any ethics ad-
misconduct by the former senior attorney, and            vice in connection with this recusal. We sug-
we closed this inquiry on January 6, 2011.               gested that the SEC Ethics Counsel meet with
                                                         the manager to counsel him concerning the
  Complaint of Conflict of Interest in                   importance of seeking ethics advice, as well as
  the Awarding of Contracts (PI 09-97)                   the appropriate process for recusal in the fu-
                                                         ture, and the Ethics Counsel agreed to do so.
     The OIG conducted an inquiry into a
complaint received though the OIG’s Com-                   Allegations of Improper Relationship
plaint Hotline, alleging that an SEC manager               Between a Headquarters Senior
had improperly steered business to an outside              Manager and an SEC Contractor
company due to a personal relationship with                (PI 10-33)
an executive of that company, even though
the quality of the company’s work for the SEC                The OIG opened this preliminary inquiry
had been poor. During its inquiry, the OIG               on April 28, 2010, in response to information
requested and searched the e-mails of the                received from a former headquarters man-
manager in question for a two-year period.               ager. The former manager alleged that a
The OIG also met with the current SEC Eth-               headquarters senior manager had an im-
ics Counsel and spoke with the former Ethics             proper relationship with an SEC contractor.
Counsel concerning any advice or counseling              The complaint further alleged that the senior
provided to the manager by the SEC Ethics                manager and the SEC contractor had ongoing
Ofﬁce. In addition, the OIG took the sworn               social interactions which led the senior man-
testimony of the manager to inquire about his            ager to exhibit favoritism and award contracts
relationship with the outside company and his            to certain outside contractors, including the
                                                         contractor’s company. Subsequent to the

                                                   70

opening of this inquiry, and unrelated to our           quiry also found no evidence of instances
ﬁndings, the senior manager was removed                 where the senior counsel or support specialist
from her position and transferred to a non-             accepted material beneﬁts from a prohibited
supervisory position.                                   source. Accordingly, we closed this inquiry on
                                                        December 1, 2010.
    During the course of this inquiry, the OIG
reviewed and analyzed the information pro-
vided by the complainant. The OIG also re-              INDICTMENT ARISING OUT OF
viewed the senior manager’s and the contrac-            PREVIOUS OIG INVESTIGATION
tor’s e-mail records and conducted interviews
of other headquarters managers.                             An investigation conducted by the OIG
                                                        during a prior reporting period (Report No.
    The OIG found no evidence to substanti-             OIG-493) had found evidence that an em-
ate the former manager’s allegation that the            ployee had intentionally falsiﬁed her employ-
senior manager had an inappropriate relation-           ment application and supporting documents
ship with contractor personnel or engaged in            submitted to the SEC concerning her position
improper favoritism. Speciﬁcally, we found no           and grade at another federal agency. During
evidence that the senior manager had a close            the OIG’s investigation, the employee admit-
personal or social relationship with the par-           ted falsifying this data because she did not be-
ticular SEC contractor identiﬁed, or that she           lieve she would qualify for the position at the
favored any particular contractor. Therefore,           SEC based upon her actual information. Be-
the OIG closed this preliminary inquiry on              cause the employee admitted to committing
December 2, 2010.                                       serious criminal offenses, the OIG had re-
                                                        ferred the matter to the Public Integrity Sec-
  Complaints Regarding Procurement                      tion of the Criminal Division of the DOJ for
  Violations (PI 09-02)                                 consideration of prosecution.

    The OIG conducted an inquiry into a se-                  During this reporting period, on March
ries of complaints from the owner of a court            16, 2011, an indictment was returned against
reporting services ﬁrm alleging that an SEC             the former employee in the United States Dis-
regional ofﬁce senior counsel and support spe-          trict Court for the Eastern District of Virginia
cialist conspired to improperly prevent the             with four counts of making false statements,
ﬁrm from obtaining any contracting opportu-             three counts of submitting false documents,
nities, in exchange for material beneﬁts con-           and one count of engaging in a concealment
veyed by a competitor. In its inquiry, the OIG          scheme. According to the indictment, the
reviewed the applicable acquisition policies            former employee had worked in various posi-
and procedures, examined the relevant pro-              tions with the U.S. Department of Defense
curement records, obtained pertinent e-mails,           from 1991 until March 2005, when she was
and interviewed SEC attorneys and support               notiﬁed she was being ﬁred for performance
staff with knowledge of the matter.                     failures. In October 2006, according to the
                                                        indictment, she resigned retroactive to March
     The OIG inquiry found that the regional            2005 pursuant to a settlement agreement
ofﬁce, throughout the period in question, con-          reached with the Department of Defense.
sistently procured court reporting and deposi-
tion services according to existing protocol in             According to the indictment, the former
compliance with the applicable FAR require-             employee applied for jobs at the U.S. Depart-
ments and SEC procedures. Furthermore, the              ments of State, Commerce, and Defense, as
OIG found that the complainant’s ﬁrm had,               well as with the SEC, between 2006 and 2008.
in fact, been utilized in numerous instances            Among the documents she submitted in ap-
throughout the period in question. Our in-              plying for these positions were SF-50 forms,
                                                  71

which are used by the federal government to          U.S. House of Representatives Committee on
document and report certain personnel ac-            Oversight and Government Reform, and nu-
tions such as hirings, promotions, conversions,      merous Congressional staff concerning their
and separations; OF-306 forms, which are             requests for information pertaining to this
used to determine an applicant’s acceptability       matter.
for federal employment; and SF-86 forms,
which are used in conducting background in-              As of the end of the reporting period, the
vestigations for applicants and employees re-        OIG had collected approximately 1.7 million
quiring a security clearance. According to the       e-mails of current and former SEC employees
indictment, the former employee made false           with knowledge of the relevant facts and had
statements on her OF-306 and SF-86 forms             begun to search for and analyze pertinent
and provided two federal agencies with               e-mails and document attachments. The OIG
fraudulent versions of her SF-50 form. Spe-          also requested and obtained numerous docu-
ciﬁcally, the indictment alleged that the former     ments from various attorneys in the Ofﬁce of
employee concealed and falsiﬁed information          the General Counsel, as well as pertinent in-
in her application materials pertaining to her       formation from the Ofﬁce of the Secretary,
prior arrests, charges, convictions, and prison      conducted research of the applicable statutes
terms; the unfavorable circumstances under           and regulations and commenced informal in-
which she resigned from prior federal em-            terviews of individuals with knowledge of the
ployment; her roles and responsibilities at pre-     facts at issue.
vious federal jobs; and her salary history.
                                                         In the next semiannual reporting period,
    The SEC OIG and the FBI’s Washington             the OIG will continue its e-mail review and
Field Ofﬁce investigated the case, which is be-      will request and search the e-mails of addi-
ing prosecuted by the DOJ Criminal Divi-             tional witnesses identiﬁed during the course of
sion’s Public Integrity Section and the U.S.         the investigation. The OIG will also take the
Attorney’s Ofﬁce for the Eastern District of         sworn testimony of numerous individuals,
Virginia.                                            both inside and outside the SEC, who have
                                                     knowledge of the relevant facts and circum-
                                                     stances. The OIG plans to complete its inves-
PENDING INVESTIGATIONS                               tigation and issue a report of its ﬁndings prior
                                                     to the end of the next reporting period.
Allegations of Conflict of Interest by
Former Senior Official                               Allegation of Improprieties in the SEC’s
(Case No. OIG-560)                                   Leasing Activity (Case No. OIG-553)
    During the reporting period, the SEC                 During the reporting period, the OIG
Chairman requested that the OIG investigate          opened an investigation after receiving several
the facts and circumstances surrounding the          complaints concerning actions and practices
SEC former General Counsel’s involvement in          related to the SEC’s leasing activities. These
activities relating to the Bernard L. Madoff         activities include the SEC’s execution of a let-
Ponzi scheme, after she learned that he and          ter contract dated July 28, 2010, committing
his brothers had been sued by the trustee ap-        the agency to lease 900,000 square feet of
pointed in the Madoff liquidation under the          space at Constitution Center in Washington,
Securities Investor Protection Act for the re-       D.C.
turn of approximately $1.5 million in ﬁctitious
proﬁts received from the Ponzi scheme. The               In particular, the OIG is investigating the
OIG immediately commenced the requested              basis for the decision that the SEC needed an
investigation and met with the Honorable             additional 900,000 square feet of space for its
Darrell Issa (R-California), Chairman of the         D.C. headquarters. The OIG is speciﬁcally
                                                   72

investigating whether the SEC may have im-               had been stayed pending a court ruling on a
properly used inﬂated data and incorrect as-             motion in which the complainant made simi-
sumptions regarding the amount of personnel              lar allegations to those contained in the initial
the SEC would add to its headquarters staff              complaint to the OIG. Because the court had
through FY 2013.                                         direct jurisdiction over these similar claims,
                                                         and was in a position to grant the relief sought
     The OIG is also investigating whether               by the complainant, the OIG had deferred
there were improprieties in connection with              further investigation of the matter pending a
the preparation of the Justiﬁcation and Ap-              determination by the court on these claims.
proval for Other than Full and Open Compe-
tition used by the SEC to support its decision               In September 2010, the court entered an
to lease space at Constitution Center.                   ordering denying without prejudice the com-
                                                         plainant’s motion containing the pertinent al-
     Further, the OIG is investigating whether           legations that were brought to the OIG’s at-
the SEC violated the Antideﬁciency Act in                tention and did not address the merits of the
obligating funds in connection with its com-             claims. In light of the court’s ruling, the OIG
mitment to lease space at Constitution Center,           decided to move forward with its investigation.
and whether the SEC failed to properly notify
the Ofﬁce of Management and Budget about                      During this reporting period, the OIG ob-
the SEC’s commitment to lease space at Con-              tained additional documentary evidence re-
stitution Center.                                        garding the matters alleged in the complaint.
                                                         The OIG also searched the e-mails of eight
    During this reporting period, the OIG re-            SEC employees for the relevant time period,
quested and reviewed numerous documents                  which amounted to a total of over 400,000
provided by the Ofﬁce of Administrative Serv-            e-mails. In addition, the OIG took the sworn
ices. The OIG also obtained and reviewed                 testimony of an important witness and sched-
the e-mails of 27 SEC employees for the rele-            uled the testimony of several other witnesses.
vant time period, which amounted to a total of           The OIG intends to conclude its investigative
over 1.5 million e-mails. The OIG took the               work and issue its report of investigation in
sworn testimony of 15 SEC employees during               the next semiannual reporting period.
this reporting period. The OIG also con-
ducted interviews of four SEC employees and              Allegation of Improper Preferential
ﬁve other individuals. The OIG plans to take             Treatment (Case No. OIG-559)
further testimony, complete its investigative
work, and issue its report of investigation dur-             During the reporting period, the OIG
ing the next semiannual reporting period.                commenced an investigation into an anony-
                                                         mous complaint that a prominent defense
Complaint of Investigative Misconduct                    counsel was granted special access to a senior
by Various Enforcement Attorneys                         SEC ofﬁcial and received special treatment
(Case No. OIG-511)                                       from that senior ofﬁcial. Speciﬁcally, the
                                                         complaint alleged that the senior ofﬁcial had a
    During the reporting period, the OIG                 secret conversation with a prominent defense
continued its investigation of a complaint re-           lawyer representing the company, who was
ceived from counsel for a defendant in an                also a good friend and former colleague of the
SEC enforcement action, alleging numerous                senior ofﬁcial, and that during this secret con-
instances of misconduct by Enforcement at-               versation, the senior ofﬁcial agreed to drop the
torneys during the course of an investigation.           contested fraud charges against an individual.
As noted in the OIG’s previous Semiannual                The complaint also alleged that the staff was
Report to Congress, the OIG investigation                later forced to drop the fraud charges that

                                                   73

were part of the settlement with another indi-           SEC case, allegedly as a result of improper
vidual.                                                  preferential treatment. In addition, it was al-
                                                         leged that regional ofﬁce staff improperly pro-
    The complaint further alleged that the               vided information related to that matter to the
senior ofﬁcial’s failure to apprise the staff of         law ﬁrm.
the conversation before it occurred was con-
trary to previous OIG recommendations de-                    In this reporting period, the OIG neared
signed to address concerns about the appear-             completion of its investigative work. Speciﬁ-
ance problems created by special access and              cally, we have reviewed numerous documents
preferential treatment.                                  and taken the sworn testimony of the parties
                                                         with knowledge of the facts or circumstances
    The OIG obtained and reviewed thou-                  surrounding the allegations. The OIG intends
sands of e-mails from approximately nine                 to conclude its investigative work and issue its
SEC employees and prepared a detailed chro-              report of investigation in the next semiannual
nology of events. The OIG also began                     reporting period.
scheduling testimony of individuals with
knowledge of the facts and circumstances of              Allegation of Unauthorized Disclosures
this matter and plans to conduct testimony               (Case No. OIG-555)
and complete its investigation during the next
reporting period.                                             The OIG opened an investigation into an
                                                         internal referral alleging that a senior SEC
Allegation of Failure to Investigate at a                ofﬁcial made numerous unauthorized disclo-
Regional Office (Case No. OIG-554)                       sures to the subject of an ongoing SEC en-
                                                         forcement investigation and his related enti-
    The OIG opened an investigation into an              ties. The complaint alleged that the afore-
anonymous complaint alleging that a regional             mentioned disclosures occurred as far back as
ofﬁce Enforcement program failed to timely               2006, and included legal advice provided by
investigate a ﬁnancial fraud referred by a re-           the senior SEC ofﬁcial to the subject of the
gional OCIE program for investigation in late            enforcement investigation.
2004. According to the complaint, OCIE’s
examination report detailed illegal conduct by               During the reporting period, the OIG re-
an individual and his brokerage ﬁrm in con-              viewed case documentation in preparation for
nection with the purchase and sale of                    sworn witness testimony, which is scheduled
mortgage-backed securities. The OIG is re-               for the next reporting period. The OIG hopes
viewing case documentation in preparation                to complete its investigation and issue a report
for upcoming sworn witness testimony. The                of investigation in the next reporting period.
OIG hopes to complete its investigation and
issue a report of investigation in the next re-          Allegation of Procurement Violations
porting period.                                          (Case No. OIG-556)

Allegation of Improper Preferential                         During the reporting period, the OIG
Treatment and Failure to Investigate                     continued its investigation of an anonymous
Alleged Obstruction of SEC                               complaint alleging that the SEC awarded a
Investigation at Regional Office (Case                   contract for an unnecessary assessment to a
No. OIG-536)                                             ﬁrm that the OIG previously found had con-
                                                         veyed material beneﬁts to SEC employees in
     The OIG is continuing its investigation of
                                                         2005.
a complaint that attorneys at a regional ofﬁce
failed to properly investigate a prominent law
                                                             Speciﬁcally, the OIG obtained and re-
ﬁrm for alleged obstruction of an ongoing
                                                         viewed over 30,000 e-mails of eight former

                                                   74

and current SEC employees and reviewed                  gations that SEC employees mismanaged a
evidence provided by headquarters ofﬁces and            computer security lab and inappropriately
various witnesses related to the procurement            used SEC funds to obtain equipment and
of the assessment. In particular, the evidence          training associated with that lab. The com-
included vendor proposals, requisition re-              plaint alleged that SEC staff used agency
quests, and supporting documentation.  In               funds for training without ﬁling appropriate
addition, we researched laws and regulations            training forms, and inappropriately allocated
regarding government solicitations, competi-            and spent signiﬁcant budget dollars on pur-
tion requirements, and contract award re-               chasing equipment for the lab without justiﬁ-
quirements. Finally, the OIG took sworn tes-            cation or planning. The complaint also in-
timony of three individuals with knowledge of           cluded allegations regarding hiring proce-
the facts and circumstances surrounding the             dures, abuse of authority, and waste of SEC
allegation.  The OIG has nearly completed its           resources.
investigative work and intends to issue its re-
port of investigation in the next reporting pe-             The OIG plans to conduct sworn testi-
riod.                                                   mony or interviews of individuals with knowl-
                                                        edge of the relevant facts or circumstances
Complaint of Mismanagement and                          surrounding the allegations and complete its
Inappropriate Use of Government                         investigation during the next reporting period.
Funds (Case No. OIG-557)

   During the reporting period, the OIG
opened an investigation into anonymous alle-




                                                  75

76
U.S. Securities and Exchange Commission


                                                                       SEMIANNUAL
                                                                       REPORT TO
                                                                       CONGRESS
                                                 Ofﬁce of
                                                Inspector
                                                 General




                                           REVIEW OF LEGISLATION
                                           AND REGULATIONS
                                               During the semiannual reporting period,             and investigations conducted during the re-
                                           the OIG reviewed legislation and proposed               porting period. For example, in connection
                                           and ﬁnal rules and regulations relating to the          with the OIG’s audit of the SEC’s Oversight of
                                           programs and operations of the SEC, pursu-              the Securities Investor Protection Corporation’s (SIPC)
                                           ant to Section 4(a)(2) of the Inspector General         Activities (Report No. 495), the OIG closely
                                           Act.                                                    reviewed and analyzed the various provisions
                                                                                                   of the Securities Investor Protection Act
                                               In this reporting period, the OIG contin-           (SIPA) of 1970, as amended, 15 U.S.C. §
                                           ued to review various portions of the Dodd-             78aaa, et seq. During our audit, we particu-
                                           Frank Wall Street Reform and Consumer Pro-              larly reviewed and analyzed the amendments
                                           tection Act (Dodd-Frank Act), Public Law                to SIPA that were made by the Dodd-Frank
                                           111-203, enacted on July 21, 2010, that im-             Act and applicable to SIPA liquidations ﬁled
                                           posed new responsibilities on both the OIG              on or after July 22, 2010. In its audit report,
                                           and the SEC as a whole. Speciﬁcally, the                which was issued on March 30, 2011, the
                                           OIG carefully reviewed the provisions of Sec-           OIG recommended that the SEC’s Division
                                           tion 966 of the Dodd-Frank Act, 15 U.S.C. §             of Trading and Markets update its internal
                                           78d-4, in establishing policies and procedures          guidance to include, where appropriate, the
                                           for the OIG Employee Suggestion Hotline,                amendments to SIPA that were made by the
                                           which were issued on March 30, 2011. The                Dodd-Frank Act. In addition, the OIG’s re-
                                           OIG also reviewed provisions of the Dodd-               port recommended that the Division of Trad-
                                           Frank Act that imposed new responsibilities             ing and Markets, in consultation with the
                                           on the SEC with a view toward performing                Commission, determine whether to seek a leg-
                                           future audit work to ensure the SEC properly            islative change to SIPA that would allow
                                           implements its new responsibilities in a man-           bankruptcy judges who preside over SIPA liq-
                                           ner that serves their intended purpose.                 uidations to assess the reasonableness of ad-
                                                                                                   ministrative fees in all cases where administra-
                                               The OIG also reviewed statutes, rules,              tive fees are paid by SIPC.
                                           regulations, and requirements, and their im-
                                           pact on Commission programs and opera-                     In addition, in the course of the OIG’s
                                           tions, within the context of audits, reviews,           Audit of the SEC Budget Execution Cycle (Report

                                                                                             77

No. 488), the OIG reviewed the requirements         employees who leave executive branch em-
of 31 U.S.C. § 1301, commonly referred to as        ployment, 18 U.S.C. § 207 and 5 C.F.R. §§
the Purpose Statute, and the Antideﬁciency          2641.104, 2641.201, and 2641.202. The OIG
Act, 31 U.S.C. §§ 1341(a) and 1517(a), in the       also reviewed the SEC Rule of Conduct provi-
course of analyzing whether the SEC had             sion containing post-employment require-
properly charged expenditures during the            ments speciﬁcally applicable to SEC employ-
availability of a supplemental appropriation.       ees, 17 C.F.R. § 200.735-8(b). In its investiga-
During this audit, the OIG also reviewed Sec-       tion, the OIG observed that the OGE’s ex-
tion 991 of the Dodd-Frank Act, which estab-        emption, granted at the SEC’s request, of all
lished a separate SEC reserve fund appropria-       employees on the SEC’s SK pay scale from
tion effective in FY 2012. In its audit report,     the one-year ban on communications back to
which was issued on March 29, 2011, the             the agency that applies to senior employees
OIG made recommendations designed to en-            has allowed some highly-compensated SEC
sure that the SEC’s Ofﬁce of Financial Man-         employees holding prominent positions to
agement has appropriate policies and guid-          evade the ban. The OIG recognized that the
ance in place to ensure the proper charging of      blanket exemption for SK employees opens
expenditures where multiple appropriations          the door to potential abuse and recommended
are available for the same purpose and that         that the SEC Ethics Ofﬁce seek modiﬁcation
the SEC’s budgetary system is capable of ac-        of the blanket exemption from OGE.
commodating multiple appropriations.
                                                        Finally, in coordination with the Legisla-
    During the OIG’s investigation involving        tion Committee of the Council of the Inspec-
the revolving door between employment at the        tors General on Integrity and Efﬁciency and
SEC and the securities industry, the OIG            other Inspectors General, the SEC OIG re-
carefully reviewed and analyzed the criminal        viewed, tracked, and analyzed various legisla-
statute and Ofﬁce of Government Ethics              tion of interest to the Inspector General
(OGE) regulations imposing restrictions on          community. This legislation included bills in-
matters on which federal employees may work         troduced in the 111th Congress, such as S.
while they are seeking or negotiating employ-       372, “The Whistleblower Protection En-
ment with entities outside the federal govern-      hancement Act,” and bills introduced in the
ment, 18 U.S.C. § 208 and 5 C.F.R. §§               112th Congress, such as S. 241, “The Non-
2635.402 and 2635.603. Likewise, the OIG            Federal Whistleblower Protection Act,” and S.
reviewed and analyzed the criminal statute          300, “The Government Charge Card Abuse
and OGE regulations imposing restrictions on        Prevention Act.”




                                                  78

U.S. Securities and Exchange Commission


                                                              SEMIANNUAL
                                                              REPORT TO
                                                              CONGRESS
                                              Ofﬁce of
                                             Inspector
                                              General




                                                         STATUS OF RECOMMENDATIONS WITH
                                                             NO MANAGEMENT DECISIONS
                                            Management decisions have been made on all audit reports issued
                                                    before the beginning of this reporting period.


                                                          REVISED MANAGEMENT DECISIONS

                                                 No management decisions were revised during the period.


                                             AGREEMENT WITH SIGNIFICANT MANAGEMENT DECISIONS

                                           The Office of Inspector General agrees with all significant management
                                                        decisions regarding audit recommendations.



                                                  INSTANCES WHERE INFORMATION WAS REFUSED

                                                         During this reporting period, there were no
                                                         instances where information was refused.




                                                                             79

80
Table 1
List of Reports: Audits and Evaluations
  Audit /
                                           Title                              Date Issued
Evaluation #

               The SEC’s Implementation of and Compliance with Homeland
    481                                                                        3/31/2011
                           Security Presidential Directive 12



    487        Review of Select Time-and-Materials and Labor-Hour Contracts   12/23/2010



    488                  Audit of the SEC Budget Execution Cycle               3/29/2011



    489               2010 Annual FISMA Executive Summary Report                3/3/2011



    493               OCIE Regional Offices’ Referrals to Enforcement          3/30/2011


                    SEC’s Oversight of the Securities Investor Protection
    495                                                                        3/30/2011
                                 Corporation’s Activities




                                            81
82
Table 2
Reports Issued with Costs Questioned
or Funds Put to Better Use
(Including Disallowed Costs)

                                                                 Number of
                                                                               Value
                                                                  Reports
A. REPORTS ISSUED PRIOR TO THIS PERIOD

  For which no management decision had been made on any issue
     at the commencement of the reporting period                     4       $2,609,575.00
  For which some decisions had been made on some issues at the
     commencement of the reporting period                            1       $4,567,619.00


B. REPORTS ISSUED DURING THIS PERIOD                                 5       $1,351,889.00



TOTAL OF CATEGORIES A AND B                                         10       $8,529,083.00


C. For which final management decisions were made during this
     period                                                          6       $7,183,716.00


D. For which no management decisions were made during this
     period                                                          3       $1,345,367.00


E. For which management decisions were made on some issues
                                                                     0              $0.00
     during this period

TOTAL OF CATEGORIES C, D AND E                                       9       $8,529,083.00




                                               83

84
Table 3
Reports with Recommendations on
Which Corrective Action Has Not Been
Completed
               RECOMMENDATIONS OPEN 180 DAYS OR MORE

   Audit/Inspection/           Issue Date           Summary of Recommendation
     Evaluation or
Investigation # and Title
439 - Student Loan Program     3/27/2008    In consultation with the Union, develop a detailed
                                            distribution plan.
446B - SEC’s Oversight of      9/25/2008    Ensure the BDRA system includes financial
Bear Stearns and Related                    information, staff notes, and other written
Entities: Broker-Dealer Risk                documentation and is used to generate
Assessment (BDRA)                           management reports.
Program
450 - Practices Related to      3/8/2009    Improve analytical capabilities of the Enforcement
Naked Short Selling                         Complaint Center’s e-mail complaint system.
Complaints and Referrals
                                            Improve the Complaints, Tips and Referrals
                                            database to include additional information about and
                                            better track complaints.
                                            Ensure the Office of Internet Enforcement updates
                                            and resumes using previous complaint referral
                                            tracking system or develops a new system.
456 - Public Transportation    3/27/2009    Implement additional management controls over
Benefit Program                             regional office program operations.
458 - SEC Oversight of         8/27/2009    Develop guidance regarding the types of
Nationally Recognized                       deficiencies, (e.g., overly broad disclosures) that
Statistical Rating                          should prompt the Division of Trading and Markets
Organizations (NRSROs)                      to (1) seek consent from the applicant to waive the
                                            90-day statutory time period for granting an
                                            application for registration as an NRSRO, or (2)
                                            recommend instituting proceedings to determine
                                            whether registration should be denied.
460 - Management and           3/26/2010    Identify the universe of open IAAs and the
Oversight of Interagency                    corresponding amounts obligated and expended on
Acquisition Agreements                      each IAA, and reconcile the universe of open IAAs
(IAAs) at the SEC                           with the financial information maintained by the
                                            Office of Financial Management (OFM) regarding
                                            open IAAs and the corresponding amounts
                                            obligated and expended.
                                            Maintain IAA data in the appropriate centralized
                                            automated system to ensure appropriate access to
                                            and accuracy of data and to provide for report
                                            generation capabilities.
                                            Establish appropriate internal controls to provide
                                            reasonable assurance that, in the future, IAA data is
                                            accurate, timely, complete, and reliable.


                                            85

   Audit/Inspection/         Issue Date           Summary of Recommendation
     Evaluation or
Investigation # and Title
                                          Promptly identify all IAAs that have expired but have
                                          not been closed, and deobligate any funds that
                                          remain on the expired agreements.
                                          Take action to close the IAAs identified for which the
                                          performance period expired and deobligate the $6.9
                                          million in unused funds that remain on the IAAs, in
                                          accordance with the appropriate close-out
                                          procedures.
                                          Assess the Mid-Atlantic Cooperative Administrative
                                          Support Unit (CASU) IAA to determine if the costs
                                          incurred are reasonable and the CASU IAA is in the
                                          best interest of the Commission.
                                          Consider sources of administrative support services
                                          that charge lower amounts if it is determined that
                                          the Mid-Atlantic CASU IAA does not provide the
                                          best value to the Commission.
                                          Provide additional training to contracting staff and
                                          customers regarding IAAs, which includes training
                                          on developing and ensuring the adequacy of
                                          statements of work and statements of objectives
                                          according to applicable guidance and requirements.
461 - Review of the          3/31/2009    Develop and adopt policies and procedures for
Commission’s Restacking                   investments in space consistent with Office of
Project                                   Management and Budget (OMB) guidance.
466 - Assessment of the      3/26/2010    Formally delegate authority to the Chief Information
SEC Information Technology                Officer (CIO) necessary for the management and
(IT) Investment Process                   oversight of the Capital Planning and Investment
                                          Control (CPIC) process, to include the full authority
                                          to develop and execute all IT policy, as approved by
                                          the Chairman.
                                          Revise 17 C.F.R. § 200.13 to provide the CIO with
                                          full authority to develop and issue IT policies and
                                          carry out the prescribed substantive responsibilities
                                          under 44 U.S.C. § 3506 and OMB guidance
                                          M-09-02, and remove the CIO/Director of the Office
                                          of Information Technology (OIT) from under the
                                          supervision of the Executive Director or any position
                                          other than the Chairman for those substantive
                                          responsibilities.
                                          Revise SEC Regulation (SECR) 24-02 to add a
                                          responsibility that the division directors, office
                                          heads, and regional directors ensure that all IT
                                          investments within their responsibility adhere to the
                                          CPIC policies and procedures, and create an
                                          enforcement mechanism for the CIO and the
                                          Information Officers Council to utilize when they
                                          discover investments that have been funded outside
                                          of the CPIC process.




                                          86

   Audit/Inspection/           Issue Date             Summary of Recommendation
     Evaluation or
Investigation # and Title
471 - Audit of the Office of   9/25/2009     Determine the universe of active and open contracts
Acquisitions’ Procurement                    and the corresponding value of the contracts and
and Contract Management                      reconcile this information with the OFM’s active
Functions                                    contract list.
                                             Develop an internal process to ensure procurement
                                             data is accurately and fully reported in the Federal
                                             Procurement Data System for both SEC
                                             headquarters and regional offices.
                                             Develop an acquisition training plan to ensure
                                             compliance with OMB’s Office of Federal
                                             Procurement Policy training requirements.
                                             Revise and finalize data migration plan and include
                                             key controls or steps to ensure accuracy of migrated
                                             data.
474 - Assessment of the        3/29/2010     Develop a communication plan to address outreach
SEC’s Bounty Program                         to both the public and SEC personnel regarding the
                                             SEC bounty program, which includes efforts to
                                             make information available on the SEC’s intranet,
                                             enhance information available on the SEC’s public
                                             website, and provide training to employees who are
                                             most likely to deal with whistleblower cases.
                                             Develop and post to the SEC’s public website an
                                             application form that asks whistleblowers to provide
                                             information, including, e.g., (1) the facts pertinent to
                                             the alleged securities law violation and an
                                             explanation as to why the subject(s) violated the
                                             securities laws; (2) a list of related supporting
                                             documentation available in the whistleblower’s
                                             possession and available from other sources; (3) a
                                             description of how the whistleblower learned about
                                             or obtained the information that supports the claim,
                                             including the whistleblower’s relationship to the
                                             subject(s); (4) the amount of any monetary rewards
                                             obtained by the subject violator(s) (if known) as a
                                             result of the securities law violation and how the
                                             amount was calculated; and (5) a certification that
                                             the application is true, correct, and complete to the
                                             best of the whistleblower’s knowledge.
                                             Establish policies on when to follow up with
                                             whistleblowers who submit applications to clarify
                                             information in the bounty applications and obtain
                                             readily available supporting documentation prior to
                                             making a decision as to whether a whistleblower’s
                                             complaint should be further investigated.
                                             Develop specific criteria for recommending the
                                             award of bounties, including a provision that where
                                             a whistleblower relies partially upon public
                                             information, such reliance will not preclude the
                                             individual from receiving a bounty.




                                            87

   Audit/Inspection/        Issue Date           Summary of Recommendation
     Evaluation or
Investigation # and Title
                                         Examine ways in which the Commission can
                                         increase communications with whistleblowers by
                                         notifying them of the status of their bounty requests
                                         without releasing nonpublic or confidential
                                         information during the course of an investigation or
                                         examination.
                                         Develop a plan to incorporate controls for tracking
                                         tips and complaints from whistleblowers seeking
                                         bounties into the development of the Division of
                                         Enforcement’s (Enforcement) tips, complaints, and
                                         referrals processes and systems for other tips and
                                         complaints, which should provide for the collection
                                         of necessary information and require processes that
                                         will help ensure that bounty applications are
                                         reviewed by experienced Commission staff,
                                         decisions whether to pursue whistleblower
                                         information are timely made, and whistleblowers
                                         who provide significant information leading to a
                                         successful action for violation of the securities laws
                                         are rewarded.
                                         Require that a bounty file (hard copy or electronic)
                                         be created for each bounty application, which
                                         should contain at a minimum the bounty application,
                                         any correspondence with the whistleblower,
                                         documentation of how the whistleblower’s
                                         information was utilized, and documentation
                                         regarding significant decisions made with regard to
                                         the whistleblower’s complaint.
                                         Incorporate best practices from the Department of
                                         Justice (DOJ) and the Internal Revenue Service
                                         (IRS) into the SEC bounty program with respect to
                                         bounty applications, analysis of whistleblower
                                         information, tracking of whistleblower complaints,
                                         recordkeeping practices, and continual assessment
                                         of the whistleblower program.
                                         Set a timeframe to finalize new policies and
                                         procedures for the SEC bounty program that
                                         incorporate the best practices from theDOJ and the
                                         IRS, as well as any legislative changes to the
                                         program.
480 - Review of the SEC's   9/27/2010    Renew efforts that were begun in 2005 and
Section 13(f) Reporting                  implement checks in the Electronic Data Gathering
Requirements                             and Retrieval (EDGAR) system that will detect and/
                                         or correct errors contained in the Forms 13F that are
                                         uploaded in EDGAR.
                                         Update Form 13F to a more structured format, such
                                         as Extensible Markup Language (XML), to make it
                                         easier for users and researchers to extract and
                                         analyze Section 13(f) data.




                                         88

   Audit/Inspection/          Issue Date            Summary of Recommendation
     Evaluation or
Investigation # and Title
                                           Ensure that the SEC enters into a formal contract or
                                           agreement with the third party that prepares the
                                           official list required by Section 13(f)(3) of the
                                           Securities Exchange Act of 1934 (Exchange Act).
                                           This contract or agreement should document the
                                           third party’s responsibilities for providing the official
                                           list on a quarterly basis and explicitly state that the
                                           SEC has no financial obligation and the firm has no
                                           expectation of payment from the government.
                                           Determine whether legislative changes to Section
                                           13(f) of the Exchange Act should be sought,
                                           specifically with the respect to expanding the
                                           definition of Section 13(f) securities, requiring
                                           separate reporting of securities held in proprietary
                                           accounts and customer accounts, reporting average
                                           positions in Section 13(f) securities, and increasing
                                           the Section 13(f) reporting threshold.
                                           Update analysis of the impact of increasing the
                                           reporting threshold of $100 million for Section 13(f)
                                           of the Exchange Act.
                                           Determine whether to recommend to the
                                           Commission that it adopt a rule requiring
                                           institutional investment managers to report
                                           aggregate purchases and aggregate sales of
                                           securities required to be reported under Section 13
                                           (f) of the Exchange Act.
483 - Audit of the            9/22/2010    Request a legal opinion from the Office of the
FedTraveler Travel Service                 General Counsel regarding the amount and
                                           frequency of fees charged by FedTraveler to ensure
                                           that the charges are appropriate and in accordance
                                           with the General Service Administration’s (GSA)
                                           Master Contract and the Commission’s task order.
484 - Real Property Leasing   9/30/2010    Revise SECR 11-03 and draft Operating Procedure
Procurement Process                        (OP) 11-03 to ensure that they are adequate and
                                           complete and include the information identified in
                                           the audit report, finalize OP 11-03, and ensure that
                                           the revised documents are posted to the
                                           Commission’s intranet site and circulated to staff
                                           with leasing-related responsibilities.
                                           Amend SECR 11-03 to include a complete list of
                                           relevant authorities (federal statutes, regulations,
                                           executive orders, OMB circulars, and internal SEC
                                           policies) that apply to real property leasing and
                                           finalize detailed guidance to ensure compliance with
                                           those authorities.
                                           Measure the SEC’s real property leasing policies
                                           and procedures against pertinent provisions of GSA
                                           regulations, including the GSA Acquisition Manual
                                           and Subchapter C of the Federal Management
                                           Regulation, as appropriate.




                                           89

   Audit/Inspection/        Issue Date                 Summary of Recommendation
     Evaluation or
Investigation # and Title
                                               Ensure that the Leasing Branch’s policies and
                                               procedures, including OP 11-03 and the attached
                                               checklists, provide comprehensive guidance,
                                               including pertinent forms and examples, for SEC
                                               leasing officials regarding the leasing process that
                                               will assist in ensuring compliance with the
                                               applicable policies, regulations, and best practices.
                                               Utilize the “Required Components” section of the
                                               Federal Real Property Council’s (FRPC) Guidance
                                               for Improved Asset Management to develop and
                                               finalize the SEC’s real property leasing asset
                                               management plan, as appropriate. If there are any
                                               required components in the FRPC Guidance that
                                               are found not applicable to the SEC, the plan should
                                               include an explanation as to why the SEC’s unique
                                               circumstances render those components
                                               unnecessary.
                                               Amend leasing policies and procedures to require
                                               the tracking and monitoring of all leasing expenses
                                               (i.e., rent, operating costs, and taxes) for
                                               informational and budget formulation purposes.
                                               Develop performance goals for the SEC’s real
                                               property leasing activities, including both lease
                                               acquisition and the monitoring and administration of
                                               existing leases; identify key external factors that
                                               could significantly affect the achievement of these
                                               goals; and periodically evaluate whether these goals
                                               are met.
                                               Develop performance measures to assist in
                                               evaluating the effectiveness of the major functions
                                               of real property acquisitions and operations, and
                                               periodically evaluate performance based on these
                                               measures. The performance measures should
                                               include metrics for all of the OAS Branches that
                                               have a role in real property leasing, including the
                                               Real Property Leasing, Construction, and Security
                                               Branches.
                                               Revise SEC Regulation 11-03 and draft OP 11-03 to
                                               include complete written policies and procedures for
                                               timely acquisition planning pertinent to real property
                                               leases, including the preparation of a project plan
                                               and schedule with projected dates for achieving
                                               various milestones well in advance of the scheduled
                                               commencement of a lease.
                                               Adopt evaluation procedures that involve scoring
                                               and ranking various options prior to deciding to
                                               vacate leased premises or to terminate a lease, and
                                               develop a transparent methodology for formulating
                                               scores and rankings.




                                         90

   Audit/Inspection/        Issue Date                  Summary of Recommendation
     Evaluation or
Investigation # and Title
                                               Ensure that the SEC’s real property leases provide
                                               appropriate protections in the event the SEC needs
                                               to terminate a lease before the expiration date, such
                                               as, for example, the use of a termination for
                                               convenience clause under Part 49 of the Federal
                                               Acquisition Regulation, another appropriate clause,
                                               or a flexible-term lease.
                                               Revise the Security and Safety Survey document to
                                               include more specific information, such as the
                                               number of recent incidents in the vicinity, the
                                               likelihood that future incidents will occur or
                                               vulnerabilities will be exploited, recommended
                                               countermeasures, and cost estimates for such
                                               countermeasures.
                                               Implement final policies and procedures to ensure
                                               that the Real Property Leasing Branch consistently
                                               includes the Building Security Survey document in
                                               all solicitations for leased building space.
                                               Implement final policies and procedures to ensure
                                               that the Security Branch performs a physical review
                                               of prospective building locations and determines the
                                               threat within the immediate area prior to entering
                                               into a lease for any facility.
485 - Assessment of the     9/29/2010          Apply patches and updates to the Commission's
SEC’s Privacy Program                          networks, workstations, and laptops on a timely
                                               basis. All future patches should be applied within a
                                               specified time period of vendor release, with
                                               emergency patches being applied on an ad hoc
                                               basis to protect the agency’s systems and data.
                                               Evaluate risk assessment processes for scoring risk
                                               to ensure that all appropriate factors are adequately
                                               weighed, including the identification of risk levels by
                                               vendors.
                                               Submit a completed list of common security
                                               standard deviations to the National Institute of
                                               Standards and Technology per OMB requirements.
                                               Implement an agency-wide policy regarding shared
                                               folder structure and access rights, ensuring that only
                                               the employees involved with a particular case have
                                               access to that data. If an employee backs up
                                               additional information to the shared resources, only
                                               the employee and his or her supervisor should have
                                               access.
                                               Ensure personal storage tab (PST) files are saved
                                               to a protected folder.
                                               Ensure all file rooms and file cabinets are secured.
                                               Conduct additional training to ensure that staff fully
                                               understand the rules and policies concerning the
                                               handling of Personally Identifiable Information and
                                               sensitive data and their responsibilities in protecting
                                               SEC information.




                                         91

   Audit/Inspection/          Issue Date                  Summary of Recommendation
     Evaluation or
Investigation # and Title
                                                 Finalize, approve, and implement operating
                                                 procedures for “Hard Drive Wiping and Media
                                                 Destruction,” and make staff aware of the
                                                 procedures and their roles and responsibilities for
                                                 the disposal of portable media storage devices.
                                                 These operating procedures must include
                                                 information concerning the roles and responsibilities
                                                 of all Commission employees in the proper
                                                 destruction of portable media storage devices.
                                                 Provide Commission staff training on handling,
                                                 disposal, and storage of portable media storage
                                                 devices.
                                                 Provide secured bins for the disposal of portable
                                                 media storage devices that are easily accessible to
                                                 all Commission employees and clearly communicate
                                                 the use and locations of these bins to all employees.
486 - Review of PRISM         9/30/2010          Review the adequacy of trained project officers who
Automated Procurement                            are available to manage all current and anticipated
System Support Contracts                         projects. If it is determined that sufficient qualified
                                                 project officers are not available to manage all
                                                 current and anticipated projects, the situation should
                                                 be remedied by either providing an adequate
                                                 number of qualified personnel, or implementing an
                                                 alternative process for ensuring oversight of the
                                                 projects.
                                                 Implement internal procedures to limit contracting
                                                 officers from also assuming project management
                                                 and a Contracting Officer’s Technical
                                                 Representative’s (COTR) responsibilities on the
                                                 same project.
                                                 Review existing contracts to ensure that a COTR is
                                                 assigned to each contract, as appropriate.
                                                 Evaluate the PRISM and financial system
                                                 reconciliation tool to determine, on a cost-benefit
                                                 basis, whether it would be feasible to correct the
                                                 deficiencies identified, and then decide whether the
                                                 corrections should be performed by Commission
                                                 personnel, or by technically-competent contractor
                                                 personnel.
PI-09-05 - SEC Access Card    2/22/2010          Ensure, on a Commission-wide basis, that all
Readers in Regional Offices                      regional offices are capable of capturing and
                                                 recording building entry and exit information of
                                                 Commission employees.
PI-09-07 - Employee           3/10/2010          Review and update internal regulation and policy for
Recognition Program and                          the SEC’s Employee Recognition Program (ERP),
Grants of Employee Awards                        and post the revised regulation and/or policy to the
                                                 SEC’s intranet site.
                                                 Ensure the revised ERP regulation and/or policy
                                                 specifically addresses whether informal recognition
                                                 awards are authorized and, if so, what criteria,
                                                 standards, and approvals pertain.




                                           92

   Audit/Inspection/             Issue Date                  Summary of Recommendation
     Evaluation or
Investigation # and Title
                                                    Ensure the revised ERP regulation and/or policy
                                                    makes clear that appropriated funds may not be
                                                    used to pay for employee parking as an award.
                                                    Review various Budget Object Class (BOC) codes
                                                    currently used for non-monetary employee awards,
                                                    select the most apposite BOC and ensure all
                                                    properly authorized non-monetary awards are
                                                    charged to that BOC.
                                                    Approve requests to use appropriated funds for non-
                                                    monetary employee awards only after ensuring an
                                                    authorized agency officer has approved the awards
                                                    under statutory and regulatory authority.
ROI-470 - Allegations of         2/24/2010          Institute procedures to require that a decision be
Conflict of Interest and                            made, documented, and approved where
Investigative Misconduct                            Enforcement has informed the Commission it is
                                                    continuing to consider recommending charges.
ROI-491 - Allegation of          3/29/2010          Make efforts to recapture a portion of additional
Fraudulently Obtained                               award fees a contractor obtained based on
Award Fees                                          potentially inaccurate data.
                                                    Assign all contracts over $1 million to staff at the
                                                    level of Assistant Director or higher, as well as the
                                                    Office of Acquisitions, which provides oversight for
                                                    various SEC acquisitions.
ROI-496 - Allegations of          1/8/2010          Consider methods to ensure no appearance of
Conflict of Interest, Improper                      impropriety when a former SEC attorney represents
Use of Non-Public                                   a company shortly after SEC work provided specific,
Information and Failure to                          sensitive information related to the company.
Take Sufficient Action
Against Fraudulent
Company
ROI-505 - Failure to Timely      2/26/2010          Ensure as part of changes to complaint handling
Investigate Allegations of                          system that databases used to refer complaints are
Financial Fraud                                     updated to accurately reflect status of investigations
                                                    and identity of staff.
                                                    Ensure as part of changes to complaint handling
                                                    system that referrals are monitored to ensure they
                                                    are being actively investigated and complainants
                                                    are provided accurate information.
                                                    Ensure as part of changes to case-closing system
                                                    that cases that are not actively being investigated
                                                    are closed promptly.
                                                    Ensure as part of changes to case-closing system
                                                    that Enforcement staff members have access to
                                                    accurate information about the status of
                                                    investigations and staff requests to close
                                                    investigations.
                                                    Ensure as part of changes to case-closing system
                                                    that staff at all levels be appropriately trained in
                                                    case-closing procedures.




                                              93

   Audit/Inspection/         Issue Date                  Summary of Recommendation
     Evaluation or
Investigation # and Title
ROI-522 - Investigation of   9/30/2010          Create clear criteria for making Division of
the Circumstances                               Corporation Finance waiver determinations.
Surrounding the SEC’s
Proposed Settlements with
Bank of America
                                                Disseminate the guidance for making Division of
                                                Corporation Finance waiver determinations.
                                                Articulate the rationale for a departure from stated
                                                waiver decision criteria in a written decision or order.
ROI-524 - Improper Use of    7/23/2010          Disband the policy that allows employees to use
Leave Without Pay (LWOP)                        LWOP to create a de facto part-time schedule and
to Receive Full-Time                            require offices to follow the Collective Bargaining
Benefits                                        Agreement.
                                                Conduct an audit of all SEC employees to
                                                determine whether employees regularly use LWOP
                                                to create a part-time schedule but have not had their
                                                benefits and leave reduced.
                                                Identify improvements needed in the manner in
                                                which the SEC manages and improves reduced
                                                work hours.




                                          94

Table 4
Summary of Investigative Activity


                                 Cases                         Number


      Cases Open as of 9/30/2010                                 16
      Cases Opened during 10/01/2010 - 3/31/2011                 15
      Cases Closed during 10/01/2010 - 3/31/2011                 20
      Total Open Cases as of 3/31/2011                           11
      Referrals to the Department of Justice for Prosecution     3
      Prosecutions                                               1
      Convictions                                                0
      Referrals to Agency for Disciplinary Action                21



                        Preliminary Inquiries                  Number


      Inquiries Open as of 9/30/2010                             90
      Inquiries Opened during 10/01/2010 - 3/31/2011             27
      Inquiries Closed during 10/01/2010 - 3/31/2011             44
      Total Open Inquiries as of 3/31/2011                       73
      Referrals to the Department of Justice for Prosecution     2
      Referrals to Agency for Disciplinary Action                11



                         Disciplinary Actions                  Number


      Removals (Including Resignations and Retirements)          7
      Demotions                                                  0
      Suspensions                                                2
      Reprimands                                                 3
      Warnings/Other Actions                                     1




                                     95

96
Table 5
Summary of Complaint Activity

                                     Description             Number


Complaints Pending Disposition at Beginning of Period          11

Hotline Complaints Received                                   106

Other Complaints Received                                     266

Total Complaints Received                                     372

Complaints on which a Decision was Made                       380

Complaints Awaiting Disposition at End of Period               3



Disposition of Complaints During the Period

Complaints Resulting in Investigations                         9

Complaints Resulting in Inquiries                              27

Complaints Referred to OIG Office of Audits                    12

Complaints Referred to Other Agency Components                150

Complaints Referred to Other Agencies                          13

Complaints Included in Ongoing Investigations or Inquiries     20

Response Sent/Additional Information Requested                 34

No Action Needed                                              120




                                              97

98
Table 6
References to Reporting Requirements
of the Inspector General Act

The Inspector General Act of 1978, as amended, specifies reporting requirements for
semiannual reports to Congress. The requirements are listed below and indexed to the
applicable pages.


    Section            Inspector General Act Reporting Requirement                  Pages
    4(a)(2)     Review of Legislation and Regulations                               77-78

    5(a)(1)     Significant Problems, Abuses, and Deficiencies                      24-42,
                                                                                    46-71
    5(a)(2)     Recommendations for Corrective Action                               24-42,
                                                                                    46-71
    5(a)(3)     Prior Recommendations Not Yet Implemented                           85-94

    5(a)(4)     Matters Referred to Prosecutive Authorities                         46-71,
                                                                                      95
    5(a)(5)     Summary of Instances Where Information Was Unreasonably              79
                Refused or Not Provided
    5(a)(6)     List of OIG Audit and Evaluation Reports Issued During the Period    81

    5(a)(7)     Summary of Significant Reports Issued During the Period             24-42,
                                                                                    46-71
    5(a)(8)     Statistical Table on Management Decisions with Respect to            83
                Questioned Costs
    5(a)(9)     Statistical Table on Management Decisions on Recommendations         83
                That Funds Be Put To Better Use
    5(a)(10)    Summary of Each Audit, Inspection or Evaluation Report Over Six      79
                Months Old for Which No Management Decision Has Been Made
    5(a)(11)    Significant Revised Management Decisions                             79

    5(a)(12)    Significant Management Decisions with Which the Inspector            79
                General Disagreed
    5(a)(14)    Appendix of Peer Reviews Conducted by Another OIG                    101




                                           99


100
                                                                          APPENDIX A 


PEER REVIEWS OF OIG OPERATIONS


Peer Review of the SEC OIG’s Audit Operations

During the semiannual reporting period, the SEC OIG did not have an external peer review
conducted of its audit operations. Peer reviews of OIG audit operations are required to be
conducted every three years. The most recent peer review of the SEC OIG’s audit operations
was conducted by the Corporation for Public Broadcasting (CPB) OIG. The CPB OIG issued its
report on the SEC OIG’s audit operations in January 2010. This report concluded that the SEC
OIG’s system of quality for its audit function was designed to meet the requirements of the
quality control standards established by the U.S. Comptroller General in all material respects.
The report is available on our website at http://www.sec-
oig.gov/Reports/Other/CPB_PeerReviewSEC.pdf.


Peer Review of the SEC OIG’s Investigative Operations

During the semiannual reporting period, the SEC OIG did not have an external peer review of its
investigative operations. Peer reviews of Designated Federal Entity OIGs, such as the SEC OIG,
are conducted on a voluntary basis. The most recent peer review of the SEC OIG’s investigative
operations was conducted by the U.S. Equal Employment Opportunity Commission (EEOC)
OIG. The EEOC OIG issued its report on the SEC OIG’s investigative operations in July 2007.
This report concluded that the SEC OIG’s system of quality for the investigative function
conformed to the professional standards established by the President’s Council on Integrity &
Efficiency and the Executive Council on Integrity & Efficiency (now the Council of the
Inspectors General on Integrity & Efficiency).




                                              101 

                                           Appendix B





       Written Testimony of H. David Kotz 

             Inspector General of the 

       Securities and Exchange Commission 





 Before the Subcommittee on Financial Services and 

General Government, Committee on Appropriations, 

            U.S. House of Representatives


           Thursday, February 10, 2011 

                   10:00 a.m.




                        103

Appendix B 


                                       Introduction

       Thank you for the opportunity to testify before this Subcommittee with respect to

the Securities and Exchange Commission (SEC or Commission). I appreciate the interest

of the members of the Subcommittee in the SEC and the Office of Inspector General

(OIG). In my testimony, I am representing the OIG, and the views that I express are

those of my Office, and do not necessarily reflect the views of the Commission or any

Commissioners.

                                     Role of the OIG

       I would like to begin my remarks by briefly discussing the role of my Office and

the oversight efforts we have undertaken during the past few years. The OIG is an

independent office within the SEC that conducts audits of programs and operations of the

Commission and investigations into allegations of misconduct by agency staff or

contractors. The OIG, in accordance with the Inspector General Act of 1978, as

amended, does not make policy decisions for the SEC and/or substantive determinations

regarding the Commission’s program functions or budgetary process. Rather, the OIG’s

mission is to promote the integrity, efficiency and effectiveness of the programs and

operations of the SEC and to report its findings and recommendations to the agency and

to Congress. Since my appointment as Inspector General of the SEC in December 2007,

the OIG’s investigative and audit units have engaged in aggressive and vigorous

oversight of the SEC.

                                SEC OIG Investigations

       The Office’s investigations unit has conducted numerous comprehensive

investigations into significant failures of the SEC in accomplishing its regulatory mission,




                                            104

                                                                            Appendix B


as well as investigations into allegations of violations of statutes, rules and regulations,

and other misconduct by Commission employees and contractors. Several of these

investigations involved senior-level Commission officials and represent matters of great

concern to the Commission, Congressional officials and the general public. Where

appropriate, we have reported evidence of improper conduct and made recommendations

for disciplinary actions, including removal of employees from the Federal service, as well

as recommendations for improvements in agency policies, procedures and practices.

       Specifically, we have issued investigative reports regarding a myriad of

allegations, including claims of failures by the Division of Enforcement (Enforcement) to

pursue investigations vigorously or in a timely manner, improper securities trading by

Commission employees, conflicts of interest by Commission staff, post-employment

violations, unauthorized disclosure of non-public information, procurement violations,

preferential treatment given to prominent persons, retaliatory termination, perjury and

falsification of documents, failure of SEC attorneys to maintain active bar status, and the

misuse of official position, government resources and official time.

       In August 2009, we issued a 457-page report of investigation analyzing the

reasons why the SEC failed to uncover Bernard Madoff’s $50 billion Ponzi scheme. This

report was issued after a nine-month investigation in which we conducted 140 interviews

and reviewed approximately 3.7 million e-mails. In March 2010, we issued a thorough

and comprehensive report of investigation regarding the history of the SEC’s

examinations and investigations of Robert Allen Stanford’s alleged $8 billion Ponzi

scheme. More recently, we issued reports on the circumstances surrounding the SEC’s

proposed settlements with Bank of America, which included an analysis of the impact of




                                             105

Appendix B 


Bank of America’s status as a Troubled Asset Relief Program (TARP) recipient on the

SEC’s Enforcement action and settlement, and allegations of improper coordination

between the SEC and other governmental entities concerning the SEC’s Enforcement

action against Goldman Sachs & Co.

                                    SEC OIG Audits


       The Office’s audit unit has also issued numerous reports involving matters critical

to SEC programs and operations and the investing public. These have included an

examination of the Commission’s oversight of Bear Stearns and the factors that led to its

collapse, an audit of Enforcement’s practices related to naked short selling complaints

and referrals, a review of the SEC’s bounty program for whistleblowers, an analysis of

the SEC’s oversight of credit rating agencies, an audit of the SEC’s real property and

leasing procurement process and an audit of the FedTraveler travel service. In addition,

following the investigative report related to the Madoff Ponzi scheme described above,

we performed three comprehensive reviews providing the SEC with 69 specific and

concrete recommendations to improve the operations of both Enforcement and the SEC’s

Office of Compliance Inspections and Examinations (OCIE.)


              SEC OIG’s Identification of Waste of Government Funds

       Over the past three years, many of our efforts have been directed at identifying

waste or misuse of government funds by the SEC. We have issued numerous reports in

which we identified waste and inefficiencies, as well as inadequate oversight on the part

of various SEC components. By reviewing our audit and investigative reports issued

over the past three years, we found that the two largest areas in which we have identified




                                           106

                                                                           Appendix B


significant waste and inefficiencies have been procurement and contracting and costs

relating to real property leasing and office moves.

       In the procurement and contracting area, we have identified numerous

deficiencies in the management and oversight of contracts into which the SEC has

entered, a lack of written internal policies and procedures for administering contracts and

other agreements, a failure to maintain accurate records and data regarding contracts and

agreements, and improprieties in the selection of vendors and the awarding of contracts.

These failures have led to the cancellation of contracts and the expenditure of funds to re-

procure required services.

       In addition, numerous OIG investigations, audits and reviews have revealed

significant excessive costs and inefficiencies in connection with the SEC’s leasing of real

property and the relocation of staff offices. We found numerous situations in which the

SEC made excessive payments that could have been avoided if appropriate policies and

procedures had existed and been followed. We also found that SEC management

approved a project to re-configure internal office staff space at a significant monetary

cost without performing any cost-benefit analysis of the project prior to its undertaking.

An OIG survey to the Commission staff affected by the moves revealed that they were

satisfied with their workplace locations prior to the project and generally felt the project

was a waste of time and money.

                    SEC OIG’s Follow-up on its Recommendations

       In the instances that I described in which our Office found wasteful expenditures

and inefficiencies, we have provided SEC management with detailed descriptions of our

findings, as well as concrete and specific recommendations to alleviate the problems and




                                             107

Appendix B 


concerns we identified. We have also followed up to ensure that these recommendations

have been agreed to and are fully implemented. We are pleased to report that the

overwhelming majority of our recommendations have been implemented and,

accordingly, we are confident that the situations we identified have been ameliorated and

will not recur.

                  Funding Necessary to Implement OIG Recommendations

       We have also made recommendations designed to increase the SEC’s oversight

capability and its internal controls. In certain instances, it has been and will be necessary

for the SEC to incur additional expenses in order to implement our recommendations.

For example, after our investigative report found that the SEC failed to respond

appropriately to credible tips and complaints about Bernard Madoff’s operations by

conducting competent examinations and investigations, we made numerous

recommendations designed to reform the SEC’s system for handling tips and complaint

system. The SEC has implemented these recommendations and instituted a new Tip,

Complaint and Referral (TCR) system in order to ensure that complaints received are

acted upon in a timely and appropriate manner at a total cost of approximately $21

million. Additional funding will be required to ensure that the SEC has sufficient

resources to implement many of the recommendations that have arisen, and will arise, out

of our audits, reviews and investigations.

         Identification of Efficiencies Within SEC Operations and Functions

       We are also pleased to report that senior SEC officials, particularly those within

the Office of Information Technology (OIT), have informed us that they are analyzing the

SEC’s operations and functions to identify efficiencies and areas in which costs can be




                                             108

                                                                          Appendix B


reduced. The SEC’s new Chief Information Officer has recently indicated that he plans

to cancel a $2 million information technology contract that he found not to be cost-

effective. We support and applaud these efforts and will continue to encourage this type

of approach in the future.

                                        Conclusion


       I believe that the SEC’s mission of protecting of investors, maintaining fair,

orderly, and efficient markets, and facilitating capital formation, is more important than

ever. As our nation’s securities exchanges mature into global for-profit competitors,

there is even greater need for sound market regulation. At the same time, the SEC has a

responsibility to utilize government funds in an efficient and effective manner. The OIG

intends to remain vigilant to ensure that scarce government resources are utilized wisely

and cost-effectively and instances of waste and abuse are eliminated.


       I appreciate the interest of the Subcommittee in the SEC and my Office. I believe

that the Subcommittee’s and Congress’s continued involvement with the SEC is helpful

to strengthen the accountability and effectiveness of the Commission. Thank you.




                                            109

   Help ensure the integrity of SEC operations by reporting to the OIG suspected fraud,
waste or abuse in SEC programs or operations, and SEC staff or contractor misconduct by
contacting the OIG.

   Call:
   Hotline	 	        (877) 442-0854

   Main Ofﬁce	       (202) 551-6061


   Web-Based Hotline Complaint Form:
   www.sec-oig.gov/ooi/hotline.html

   Fax:	      	      (202) 772-9265

   Write:
   Ofﬁce of Inspector General
   U.S. Securities and Exchange Commission

   100 F Street, N.E.

   Washington, D.C. 20549


   Email:
   oig@sec.gov


                    Information received is held in conﬁdence upon request.

       While the OIG encourages complainants to provide information on how they may be 

        contacted for additional information, anonymous complaints are also accepted.





                                         101
U.S. Securities
and Exchange
 Commission




     Additional copies of this report may be obtained by contacting the 

                Office of Inspector General at (202) 551-6061.


      The report is also available on the Inspector General’s website at 

                           http://www.sec-oig.gov.

